APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Tenth Circuit,
No. 18-1173
(August 20, 2019) . . . . . . . . . . . . . App. 1
Appendix B Order on Motion to Dismiss in the
United States District Court for the
District of Colorado,
No. 17-cv-01937-WYD-NYW
(April 10, 2018) . . . . . . . . . . . . . App. 138
Appendix C Order in the United States District
Court for the District of Colorado,
No. 16-cv-02986-WYD-NYW
(December 21, 2016) . . . . . . . . . App. 168
Appendix D Order in the United States Court of
Appeals for the Tenth Circuit,
No. 16-1482
(December 16, 2016) . . . . . . . . . App. 183
Appendix E Order in the District Court,
Denver County, Colorado,
No. 2016CV34522
(December 13, 2016) . . . . . . . . . App. 201
Appendix F U.S. Const. art. II § 1, cl. 2 . . . . App. 203
U.S. Const. amend. XII. . . . . . . App. 203
Colo. Rev. Stat. § 1-4-304 . . . . . App. 204

ii
Appendix G Second Amended Complaint in the
United States District Court for the
District of Colorado, No. 1:17-cv-1937-NYW
(October 25, 2017) . . . . . . . . . . . App. 206

App. 1

APPENDIX A
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-1173
[Filed August 20, 2019]
___________________________________
MICHEAL BACA; POLLY BACA;
)
ROBERT NEMANICH,
)
)
Plaintiffs - Appellants,
)
)
v.
)
)
COLORADO DEPARTMENT
)
OF STATE,
)
)
Defendant - Appellee.
)
___________________________________ )
INDEPENDENCE INSTITUTE;
)
DAVID G. POST; DEREK T.
)
MULLER; MICHAEL L. ROSIN;
)
ROBERT M. HARDAWAY, Professor )
of Law, University of Denver Sturm )
College of Law; COLORADO
)
REPUBLICAN COMMITTEE,
)
)
Amici Curiae.
)
___________________________________ )

App. 2
Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:17-CV-01937-WYD-NYW)
_________________________________
Jason Harrow, Equal Citizens, Cambridge,
Massachusetts (Jason B. Wesoky, Hamilton Defenders,
Denver, Colorado, and Lawrence Lessig, Equal
Citizens, Cambridge, Massachusetts, with him on the
briefs), for Plaintiff – Appellants.
Grant T. Sullivan, Assistant Solicitor General (Cynthia
H. Coffman, Attorney General; Frederick R. Yarger,
Solicitor General; LeeAnn Morrill, First Assistant
Attorney General; Matthew Grove, Assistant Solicitor
General, with him on the brief), for Appellee Colorado
Department of State, Denver, Colorado.
Michael Donofrio, Donofrio Asay PLC, Montpelier,
Vermont, and Aaron Solomon, Hale Westfall, LLP,
Denver, Colorado, filed an amicus brief on behalf of
Michael L. Rosin and David G. Post.
David B. Kopel, Independence Institute, Denver,
Colorado, filed an amicus brief on behalf of
Independence Institute.
Michael Francisco, Statecraft, PLLC, Colorado Springs,
Colorado, and Derek T. Muller, Associate Professor of
Law, Pepperdine University Law School, Malibu,
California, filed an amicus brief on behalf of Derek T.
Muller.
Jeffrey S. Hurd, Bernard A. Buescher, William A.
Hobbs, Ireland Stapleton Pryor & Pascoe, P.C., Denver,
Colorado, and Robert M. Hardaway, Professor of Law,

App. 3
University of Denver, Sturm College of Law, Denver,
Colorado, filed an amicus brief on behalf of Robert M.
Hardaway.
Christopher O. Murray, Brownstein Hyatt Farber
Schreck, LLP, Denver, Colorado, filed an amicus brief
on behalf of Colorado Republican Committee.
_________________________________
Before BRISCOE, HOLMES, and McHUGH, Circuit
Judges.
_________________________________
McHUGH, Circuit Judge.
_________________________________

App. 4
TABLE OF CONTENTS
I. INTRODUCTION

1

II. BACKGROUND

2

A. Legal Background

2

B. Factual History

4

C. Procedural History

7

III. DISCUSSION PART ONE: STANDING

9

A. Standard of Review and Burden of Proof

10

B. Political Subdivision Standing Doctrine

10

1. Legal Background

11

2. Application

11

C. General Standing Principles
1. Injury in Fact

15
16

a. Personal versus official interest

17

b. Prospective versus retrospective relief

18

i. Legal background

18

ii. Application

21

1) Prospective relief

22

2) Retrospective relief

24

a) Mr. Baca’s removal from office
and referral for prosecution
27

App. 5
b) Threats against Ms. Baca and
Mr. Nemanich
30
c. Legislator standing

34

i. Legal background

34

ii. Application

40

2. Traceability and Redressability
IV. DISCUSSION PART TWO: MOOTNESS

43
45

V. DISCUSSION PART THREE: FAILURE TO
STATE A CLAIM
56
A. Standard of Review

57

B. “Person” Under § 1983

57

C. Constitutional Violation

61

1. The Federal Constitution

63

2. Legal Precedent

66

3. Framing the Question

72

a. Supremacy clause

73

b. Tenth Amendment

76

4. Constitutional Text

78

a. Appointment power

78

b. Article II and the Twelfth Amendment

83

i. Role of the states after appointment

84

ii. Use of “elector,” “vote,” and “ballot”

87

App. 6
1) Contemporaneous
definitions

dictionary

2) Use of “elector”
Constitution

in

91

5. Enactment of the Twelfth Amendment

94

6. Historical Practices

98

a. Elector pledges

VI.

the

87

99

b. Short-form ballots

101

7. Authoritative Sources

105

CONCLUSION

114

App. 7
I. INTRODUCTION
Micheal Baca, Polly Baca, and Robert Nemanich
(collectively, the Presidential Electors) were appointed
as three of Colorado’s nine presidential electors for the
2016 general election. Colorado law requires the state’s
presidential electors to cast their votes for the winner
of the popular vote in the state for President and Vice
President. Although Colorado law required the
Presidential Electors to cast their votes for Hillary
Clinton, Mr. Baca cast his vote for John Kasich. In
response, Colorado’s Secretary of State removed Mr.
Baca as an elector and discarded his vote. The state
then replaced Mr. Baca with an elector who cast her
vote for Hillary Clinton. After witnessing Mr. Baca’s
removal from office, Ms. Baca and Mr. Nemanich voted
for Hillary Clinton despite their desire to vote for John
Kasich.
After the vote, the Presidential Electors sued the
Colorado Department of State (the Department),
alleging a violation of 42 U.S.C. § 1983. The
Department moved to dismiss the complaint. The
district court granted the motion, concluding the
Presidential Electors lacked standing, and, in the
alternative, the Presidential Electors had failed to state
a claim upon which relief could be granted. The
Presidential Electors now appeal.
We conclude Mr. Baca has standing to challenge his
personal injury—removal from office and cancellation
of his vote—but that none of the Presidential Electors
have standing to challenge the institutional injury—a
general diminution of their power as electors.
Therefore, we AFFIRM the district court’s dismissal of

App. 8
Ms. Baca’s and Mr. Nemanich’s claims under rule
12(b)(1) for lack of standing but REVERSE the district
court’s standing determination as to Mr. Baca.
On the merits of Mr. Baca’s claim, we conclude the
state’s removal of Mr. Baca and nullification of his vote
were unconstitutional. As a result, Mr. Baca has stated
a claim upon which relief can be granted, and we
REVERSE the district court’s dismissal of his claim
under rule 12(b)(6). We therefore REMAND to the
district court for further proceedings consistent with
this opinion.
II. BACKGROUND
This opinion is divided in three parts. Our analysis
begins, as it must, with our power to decide the issues
raised by the parties. Thus, the first part of this
opinion considers the standing of each of the
Presidential Electors with respect to each of their
claims for relief. After concluding that only Mr. Baca
has standing, we next consider whether this case is
moot. Because we conclude this case is not moot, we
turn to the final part of our analysis: whether the state
acted unconstitutionally in removing Mr. Baca from
office, striking his vote for President, and preventing
him from casting a vote for Vice President. But before
we tackle these separate parts of the analysis, we place
our discussion in context by providing a brief legal
background and then setting forth a more detailed
factual and procedural history.
A. Legal Background
The United States Constitution provides that
“[e]ach State shall appoint, in such Manner as the

App. 9
Legislature thereof may direct, a Number of Electors,
equal to the whole Number of Senators and
Representatives to which the State may be entitled in
the Congress.” U.S. Const. art. II, § 1, cl. 2. These
presidential electors convene in their respective states
and “vote by [distinct] ballot for President and VicePresident.” Id. amend. XII. The candidates receiving
votes for President or Vice President constituting a
majority of the electors appointed are elected to those
respective offices. Id.
Colorado’s presidential electors are appointed
through the state’s general election. Colo. Rev. Stat.
§ 1-4-301. Nominees for presidential electors are
selected at political party conventions or selected by
unaffiliated presidential or vice presidential
candidates. Id. §§ 1-4-302, -303. After being appointed,
the presidential electors are required to convene on a
specified day to take an oath required by state law and
then to cast their ballots for President and Vice
President. Id. § 1-4-304(1). Colorado requires the
presidential electors to “vote for the presidential
candidate, and, by separate ballot, vice-presidential
candidate who received the highest number of votes at
the preceding general election in this state.” Id. § 1-4304(5).
If there is a vacancy “in the office of presidential
elector because of death, refusal to act, absence, or
other cause, the presidential electors present shall
immediately proceed to fill the vacancy in the electoral
college.” Id. § 1-4-304(1). After all vacancies are filled,
the presidential electors “proceed to perform the duties
required of them by the constitution and laws of the

App. 10
United States.” Id. A presidential elector who attends
and votes at the required time and place receives $5
per day of attendance plus mileage reimbursement at
$0.15 per mile. Id. § 1-4-305.
B. Factual History
In April 2016, Mr. Baca, Ms. Baca, and Mr.
Nemanich were nominated as three of the Colorado
Democratic Party’s presidential electors and, after
Hillary Clinton and Tim Kaine won the popular vote in
Colorado, were appointed as presidential electors for
the state.1 Concerned about allegations of foreign
interference in the election, Mr. Nemanich contacted
Colorado’s Secretary of State, Wayne Williams, to ask
what would happen if a Colorado elector did not vote
for Hillary Clinton and Tim Kaine. Secretary Williams
responded that “his ‘office would likely remove the
elector and seat a replacement elector until all nine
electoral votes were cast for the winning candidates.’”
App. at 15. Secretary Williams also warned that the
elector would likely face perjury charges.
In response, Ms. Baca and Mr. Nemanich filed a
complaint in the United States District Court for the
District of Colorado on December 6, 2016, seeking to
enjoin the Secretary from enforcing § 1-4-304(5) on the
ground it violated Article II and the Twelfth
Amendment to the U.S. Constitution. The district court
denied the request for an injunction in an oral ruling
1

At oral argument, the Department claimed Mr. Baca had not
been officially appointed. In a post-argument letter to this court,
the Department corrected this statement and acknowledged that
Mr. Baca’s appointment had been finalized.

App. 11
on December 12, 2016. Baca v. Hickenlooper, No. 16-cv02986-WYD-NYW, 2016 WL 7384286, at *1 (D. Colo.
Dec. 21, 2016). Ms. Baca and Mr. Nemanich then
sought an emergency injunction pending appeal, which
we denied. Order at 1, Baca v. Hickenlooper (Baca I),
No. 16-1482 (10th Cir. Dec. 16, 2016).2 In doing so, we
criticized Ms. Baca and Mr. Nemanich for failing to
point to any language in Article II or the Twelfth
Amendment to support their position. Id. at 10. But we
also noted that “[t]his is not to say that there is no
language in Article II or the Twelfth Amendment that
might ultimately support plaintiffs’ position.” Id. at 10
n.3. To the contrary, we predicted in a footnote that an
attempt by the state to remove an elector after voting
had begun was “unlikely in light of the text of the
Twelfth Amendment.” Id. at 12 n.4. At that stage of the
proceedings, however, we concluded the Presidential
Electors had “raise[d] at best a debatable argument”
and therefore had not met their burden of showing a
substantial likelihood of success on the merits. Id. at
10–11. We consequently held they were not entitled to
an injunction pending appeal. Id. at 15.

2

Typically a motion to dismiss under rule 12(b)(6) must rest on the
contents of the complaint alone. Gee v. Pacheco, 627 F.3d 1178,
1186 (10th Cir. 2010). But there is an exception for “matters of
which a court may take judicial notice.” Id. (quoting Tellabs, Inc.
v. Makor Issues & Rights, Ltd., 551 U.S. 308, 322 (2007)). “[W]e
may exercise our discretion to take judicial notice of publicly-filed
records in our courts and certain other courts concerning matters
that bear directly upon the disposition of the case at hand.” United
States v. Ahidley, 486 F.3d 1184, 1192 n.5 (10th Cir. 2007). We
therefore consider the decision in Baca I and the related state
court cases in setting forth the relevant background here.

App. 12
In an overlapping lawsuit, Secretary Williams sued
Ms. Baca and Mr. Nemanich in Colorado state court,
seeking guidance on Colorado’s law regarding
succession of presidential electors. The state district
court determined that a presidential elector’s failure to
vote for Hillary Clinton and Tim Kaine, as required by
§ 1-4-304(5), is a “refusal to act” under § 1-4-304(1), and
therefore “causes a vacancy in the electoral college.”
App. at 35. The court further decided that any “vacancy
in the electoral college shall be immediately filled by a
majority vote of the presidential electors present.” Id.
The Colorado Supreme Court declined a petition for
immediate review of that order.3
On December 19, 2016, the Colorado electors met to
cast their votes. Before voting commenced, Secretary
Williams required the electors to take a revised oath
that affirmed they would vote consistently with the
results of the state’s popular election. Secretary
Williams also warned that any elector who violated the
oath may be subject to felony perjury charges. Despite
taking the oath, Mr. Baca crossed out “Hillary Clinton”
3

The Presidential Electors have not briefed to this court any
argument concerning the constitutionality of § 1-4-304(1).
Consequently, we do not consider that issue separately. See Reedy
v. Werholtz, 660 F.3d 1270, 1274 (10th Cir. 2011) (determining
issues not raised in opening brief on appeal were waived). But if
the Constitution does not allow states to directly remove an elector
after voting has commenced, they cannot do so indirectly by
statute. Cf. U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 829
(1995) (rejecting indirect infringement on constitutional
protection); Harman v. Forssenius, 380 U.S. 528, 540 (1965)
(“Constitutional rights would be of little value if they could be . . .
indirectly denied.” (alteration in original) (quoting Smith v.
Allwright, 321 U.S. 649, 664 (1944)).

App. 13
from his presidential ballot and wrote in “John Kasich.”
Secretary Williams then removed Mr. Baca as an
elector, refused to count his vote, and replaced him
with a substitute elector who cast a vote for Hillary
Clinton. After this series of events, Ms. Baca and Mr.
Nemanich “felt intimidated and pressured to vote
against their determined judgment” and cast votes for
Hillary Clinton and Tim Kaine. Id. at 17. Mr. Baca
attempted to vote for Tim Kaine as Vice President, but
the Secretary refused to count his vote. Secretary
Williams then referred Mr. Baca to the Colorado
Attorney General for criminal investigation.
C. Procedural History
Ms. Baca and Mr. Nemanich voluntarily dismissed
their prior case and filed a new complaint, later joined
by Mr. Baca, that is the subject of this appeal. The
Presidential Electors’ Second Amended Complaint
asserts a single cause of action under 42 U.S.C. § 1983,
alleging a violation of their constitutional rights under
Article II and the Twelfth Amendment. The
Presidential Electors seek relief in the form of a
judgment (1) finding the Department violated their
federally protected rights, (2) declaring § 1-4-304(5)
unconstitutional, and (3) awarding nominal damages.4
The Department filed a motion to dismiss the
Second Amended Complaint under Federal Rule of

4

By stipulation, the Department waived any claim to immunity,
the Presidential Electors relinquished any claims under 52 U.S.C.
§§ 10101, 20510, the Presidential Electors limited their damage
claim to nominal damages, and all parties waived the right to
recover attorney fees.

App. 14
Civil Procedure 12(b)(1) for lack of standing and under
Federal Rule of Civil Procedure 12(b)(6) for failure to
state a claim. The district court granted the motion to
dismiss on both grounds. First, the district court
decided the Presidential Electors lacked standing based
on the political subdivision standing doctrine. Second,
and in the alternative, the district court concluded the
Presidential Electors failed to state a claim upon which
relief could be granted because the United States
Constitution does not prohibit states from binding
electors to vote for the candidate who wins the state’s
popular vote. The Presidential Electors filed a timely
notice of appeal, and we have jurisdiction under 28
U.S.C. § 1291 to consider the appeal.
After oral argument in this case, we asked the
parties to provide supplemental briefing to address two
questions:
1. Whether Will v. Michigan Dept. of State
Police, 491 U.S. 58 (1989), and/or Arizonans for
Official English v. Arizona, 520 U.S. 43 (1997):
(a) impact(s) the district court’s jurisdiction
to entertain this action; or
(b) render(s) this case moot by preventing the
district court from awarding nominal
damages.
2. Whether this court, assuming jurisdiction,
should exercise our discretion to affirm the
district court on the alternate ground that the
plaintiffs have failed to state a claim upon which
relief can be granted because the defendant—the

App. 15
Colorado Department of State—is not a “person”
for purposes of liability under 42 U.S.C. § 1983.
Order at 1–2 (July 3, 2019).
The parties filed a joint supplemental response brief
acknowledging that the Department is not a “person”
for purposes of § 1983. But the parties contend this
court’s jurisdiction is unaffected. And the Department,
“for purposes of this case only, . . . expressly waive[d]
the argument that it is not a ‘person’ under § 1983,”
ostensibly paving the way for the court “to proceed
directly to the important issues discussed extensively
in the primary briefing.” Joint Resp. to Suppl. Briefing
Order at 1.
Our discussion of the jurisdictional and merits
issues raised in this appeal will proceed in three parts.
In Part One, we address whether the Presidential
Electors have standing to pursue their claims.
Concluding that only Mr. Baca has standing in this
case, we proceed to Part Two, in which we discuss
whether this case is moot because the Department is
not a person under § 1983. Finally, in Part Three, we
analyze whether the district court correctly dismissed
Mr. Baca’s claim under rule 12(b)(6).
III. DISCUSSION PART ONE: STANDING
We turn now to the district court’s holding that the
Presidential Electors lack standing, thereby depriving
the district court, and in turn this court, of jurisdiction.
First, we set out the applicable standard of review and
the burden of proof. Next, we consider the district
court’s holding that the Presidential Electors lack
standing under the political subdivision standing

App. 16
doctrine. Concluding that doctrine is not applicable
here, we turn to whether any of the Presidential
Electors can satisfy the general standing requirements
of injury in fact, traceability, and redressability.
Ultimately, we conclude that only Mr. Baca has
satisfied the injury-in-fact prong of Article III standing.
In reaching this conclusion, we reject Ms. Baca’s and
Mr. Nemanich’s argument that they fall within a
unique rule of legislative standing announced by the
Supreme Court in Coleman v. Miller, 307 U.S. 433
(1939). Instead, only Mr. Baca has asserted a
legislative injury. Accordingly, we consider the
remaining standing factors—traceability and
redressability—only as to Mr. Baca. Because Mr. Baca
has satisfied all three prongs of traditional standing,
we proceed to the merits of his claim. But we affirm the
district court’s dismissal of Ms. Baca’s and Mr.
Nemanich’s claims under Rule 12(b)(1) for lack of
standing.
A. Standard of Review and Burden of Proof
We review de novo a district court’s dismissal for
lack of jurisdiction under Federal Rule of Civil
Procedure 12(b)(1). Holt v. United States, 46 F.3d 1000,
1003 (10th Cir. 1995). A motion under rule 12(b)(1) can
be made on the ground that the plaintiff lacks standing
and therefore the court lacks subject matter
jurisdiction. Citizens for Responsible Gov’t State
Political Action Comm. v. Davidson, 236 F.3d 1174,
1188–89 (10th Cir. 2000). “The party invoking federal
jurisdiction has the burden to establish that it is
proper, and there is a presumption against its
existence.” Salzer v. SSM Health Care of Okla. Inc.,

App. 17
762 F.3d 1130, 1134 (10th Cir. 2014) (internal
quotation marks omitted).5
B. Political Subdivision Standing Doctrine
In reaching its conclusion that the Presidential
Electors lack standing, the district court relied on the
political subdivision standing doctrine. We first
elucidate the legal underpinnings of this doctrine and
then explain why it is inapplicable here.
1. Legal Background
“Under the doctrine of political subdivision
standing, federal courts lack jurisdiction over certain
controversies between political subdivisions and their
parent states.” City of Hugo v. Nichols, 656 F.3d 1251,
1255 (10th Cir. 2011). This doctrine traces back to at
least City of Trenton v. New Jersey, in which the
Supreme Court recognized that “municipalities have no
inherent right of self-government which is beyond the
legislative control of the state.” 262 U.S. 182, 187
(1923). “[P]olitical subdivisions are created by the state
merely for convenience of administration.” City of
Hugo, 656 F.3d at 1255; see also City of Trenton, 262
U.S. at 185–86 (“The city is a political subdivision of

5

The Presidential Electors argue that this court decided the
standing issue in Baca I. But Baca I determined standing “given
the preliminary record before us,” and only “[a]t this stage of the
proceedings.” Order at 7, Baca I, No. 16-1482. And, importantly, in
Baca I, Mr. Nemanich and Ms. Baca were seeking only prospective
relief while they were under a direct threat of enforcement.
Therefore, we agree with the district court that we must visit the
standing question anew in this case as to each elector and as to
each claim for relief.

App. 18
the state, created as a convenient agency for the
exercise of such of the governmental powers of the state
as may be intrusted to it.”). Therefore, “[a] municipality
is merely a department of the state, and the state may
withhold, grant or withdraw powers and privileges as
it sees fit. However great or small its sphere of action,
it remains the creature of the state exercising and
holding powers and privileges subject to the sovereign
will.” City of Trenton, 262 U.S. at 187. Thus, “[a]
municipal corporation, created by a state for the better
ordering of government, has no privileges or
immunities under the Federal Constitution which it
may invoke in opposition to the will of its creator.”
Williams v. Mayor & City Council of Baltimore, 289
U.S. 36, 40 (1933).
2. Application
According to the district court, the political
subdivision standing doctrine applies to both political
subdivisions and to state officials. Because the district
court concluded presidential electors are state officials,
it also concluded the political subdivision standing
doctrine barred the Presidential Electors’ standing. The
Presidential Electors disagree and argue that
presidential electors are not state officials because the
“state is not the ‘creator’ of the office of presidential
elector”; rather, “the office is created by the federal
Constitution.” Presidential Electors’ Br. at 17. Thus,
they contend the political subdivision doctrine does not
preclude standing here. In response, the Department
asserts that even if the electors are not “political
subdivisions,” they lack standing because they are
state officials and the doctrine “applies not only to

App. 19
artificial political subdivisions, such as municipalities,
but also to state officers who attempt to sue the State
to challenge state law.” Dep’t’s Br. at 24. The
Presidential Electors have the better side of this
argument.
Presidential electors are not political subdivisions or
municipalities created by the state. The position of
presidential elector is established by the federal
Constitution. See U.S. Const. art. II, § 1, cl. 2. And
although presidential electors are not federal officials,
they exercise a federal function. See Ray v. Blair, 343
U.S. 214, 224 (1952) (“The presidential electors exercise
a federal function in balloting for President and VicePresident but they are not federal officers or agents
any more than the state elector who votes for
congressmen.”). Even if that were not the case, the
political subdivision standing doctrine does not apply
to state officials. A suit against a state official in his or
her official capacity is “no different from a suit against
the State itself.” Will v. Mich. Dep’t of State Police, 491
U.S. 58, 71 (1989). If a state official is acting as the
“State itself,” then the state official is not a political
subdivision or municipality with a “parent state.”
The Department challenges this conclusion, relying
on decisions it claims support application of the
political subdivision standing doctrine to state officers.
But our review of these cases reveals they do not stand
for that proposition. Instead, they discuss two different
justiciability concerns.6

6

The Department also claims a footnote in our decision, City of
Hugo v. Nichols, 656 F.3d 1251, 1255 n.3 (10th Cir. 2011), confirms

App. 20
The first concern, discussed in more detail below, is
the general proposition that a state official has
standing to pursue only a personal, rather than an
official, interest. The Supreme Court has long required
“the interest of an appellant in this court [to] be a
personal, and not an official, interest.” Smith v.
Indiana, 191 U.S. 138, 149 (1903). Almost every case
the Department cites applies this personal interest
principle, rather than the political subdivision standing
doctrine. See Columbus & Greenville Ry. v. Miller, 283
U.S. 96, 100 (1931) (“The [Fourteenth Amendment]
guaranty does not extend to the mere interest of an
official, as such, who has not been deprived his
property without due process of law or denied the equal
protection of the laws.”); Donelon v. La. Div. of Admin.
Law ex rel. Wise, 522 F.3d 564, 566 (5th Cir. 2008)
(“The Supreme Court has held that state officials lack
standing to challenge the constitutional validity of a
state statute when they are not adversely affected by
the statute, and their interest in the litigation is
official, rather than personal.”); Finch v. Miss. State
Med. Ass’n, Inc., 585 F.2d 765, 774 (5th Cir. 1978)
(“The mental disposition of the Governor [believing a
state statute is in violation of the federal Constitution]
is all that gives him cause to complain; were he to
change his mind tomorrow and decide, rightly or

that the political subdivision standing doctrine applies to state
officials suing the state. But the footnote actually explains that the
principle that a political subdivision cannot sue the state “applies
equally to state officials in their official capacities”—i.e., that
political subdivisions cannot sue state officials in their official
capacities. City of Hugo, 656 F.3d at 1255 n.3 (citing Will v. Mich.
Dep’t of State Police, 491 U.S. 58, 71 (1989)).

App. 21
wrongly, that the statute is valid, he would no longer
have any interest in the case. He has no personal stake
in the outcome of this case; he will not be affected
favorably by a decision that the statute is
unconstitutional nor adversely by a decision that it is
valid.”). And the one case that does not turn on the
nature of a state official’s interest properly applies the
doctrine to a political subdivision of the state. See
Cooke v. Hickenlooper, No. 13-cv-01300-MSK-MJW,
2013 WL 6384218, at *10 (D. Colo. Nov. 27, 2013)
(applying the political subdivision standing doctrine to
an official capacity suit by a county sheriff because “a
county in Colorado is undisputedly a political
subdivision of the State of Colorado” and therefore “an
official capacity claim asserted by a county Sheriff’s
Office is a claim asserted by a political subdivision of
the State”).
As to the second justiciability concern, one of the
Department’s authorities concludes that jurisdiction is
lacking where “state agencies [are] so closely identified
with the state government, and so thoroughly
controlled by the body they are suing[,] that the
litigation amounts to a suit by the state against itself.”
Donelon, 522 F.3d at 567–68 (quoting Rogers v.
Brockette, 588 F.2d 1057, 1065 (5th Cir. 1979)). In such
circumstances, the “state is essentially suing itself,”
and “there is no ‘case or controversy.’” Id. at 568
(quoting Rogers, 588 F.2d at 1065). Here, neither party
alleges the Presidential Electors are so closely
identified with the State of Colorado that the action is
essentially the state suing itself.

App. 22
The political subdivision standing doctrine has no
relevance here because presidential electors are not
municipalities or subdivisions of the state. And we need
not resolve the parties’ dispute over whether the
Presidential Electors were state officials because, even
if they were, the political subdivision standing doctrine
does not apply to state officials. In contrast, the
personal interest standing requirement, highlighted by
the Department’s decisions, is applicable to any
official—municipal, state, or federal. See Raines v.
Byrd, 521 U.S. 811, 821 (1997) (applying the personal
interest requirement to members of Congress); Thomas
v. Mundell, 572 F.3d 756, 760–61 (9th Cir. 2009)
(applying personal interest requirement to county
official).
Thus, we turn now to general legal principles to
determine whether the Presidential Electors have
standing. This analysis necessarily includes review of
whether the alleged injury is to a personal or official
interest.
C. General Standing Principles
To satisfy Article III standing, the Presidential
Electors must show an injury in fact, fairly traceable to
the challenged action, that is redressable by the relief
sought. Monsanto Co. v. Geertson Seed Farms, 561 U.S.
139, 149 (2010). In considering whether standing
exists, we focus individually on each plaintiff and on
each claim for relief asserted. Friends of the Earth, Inc.
v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 185
(2000) (“[A] plaintiff must demonstrate standing
separately for each form of relief sought.”).

App. 23
1. Injury in Fact
An injury satisfies the Article III standing
requirement only if the injury is “‘concrete and
particularized’ and ‘actual or imminent, not
“conjectural” or “hypothetical.”’” Susan B. Anthony List
v. Driehaus, 573 U.S. 149, 158 (2014) (quoting Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560 (1992)). This
injury-in-fact requirement “helps to ensure that the
plaintiff has a ‘personal stake in the outcome of the
controversy.’” Id. (quoting Warth v. Seldin, 422 U.S.
490, 498 (1975)). Therefore, “a plaintiff’s complaint
must establish that he has a ‘personal stake’ in the
alleged dispute, and that the alleged injury suffered is
particularized as to him.” Raines, 521 U.S. at 819; see
also id. at 818 (requiring a plaintiff to “allege personal
injury fairly traceable to the defendant’s allegedly
unlawful conduct and likely to be redressed by the
requested relief” (quoting Allen v. Wright, 468 U.S. 737,
751 (1984))). “[A] dispute solely about the meaning of
the law, abstracted from any concrete actual or
threatened harm, falls outside the scope of the
constitutional words ‘Cases’ and ‘Controversies.’”
Alvarez v. Smith, 558 U.S. 87, 93 (2009).
Here, there are three considerations that inform our
analysis of the injury-in-fact requirement: (1) whether
the Presidential Electors’ interest is personal or official
in nature; (2) whether the Presidential Electors seek
prospective or retrospective relief; and (3) whether the
Presidential Electors have standing as legislators. We
address each of these concepts in turn.

App. 24
a. Personal versus official interest
“The party raising the question of constitutionality
and invoking our jurisdiction must be interested in,
and affected adversely by, the act, and the interest
must by, the decision of the state court be of a personal,
and not of an official, nature.” Braxton Cty. Court v.
West Virginia, 208 U.S. 192, 197 (1908); see also Smith,
191 U.S. at 149 (“[T]he interest of an appellant in this
court [must] be a personal, and not an official, interest
. . . .”); Ashwander v. Tenn. Valley Auth., 297 U.S. 288,
348 (1936) (Brandeis, J., concurring) (“[T]he challenge
by a public official interested only in the performance
of his official duty will not be entertained.”). A plaintiff
is asserting an official, rather than personal, injury if
the injury alleged is not based upon something to
which the plaintiff is personally entitled but instead
based upon the plaintiff’s entitlement in his or her
official role. Raines, 521 U.S. at 821. An official has no
personal interest when he has “certain duties as a
public officer to perform” and “[t]he performance of
those duties was of no personal benefit to him,” and
“[t]heir nonperformance was equally so.” Smith, 191
U.S. at 149.
“[A] public official’s ‘personal dilemma’ in
performing official duties that he perceives to be
unconstitutional does not generate standing.” Thomas,
572 F.3d at 761 (quoting City of S. Lake Tahoe v. Cal.
Tahoe Reg’l Planning Agency, 625 F.2d 231, 237 (9th
Cir. 1980)). And the “loss of . . . institutional power” is
“not the loss of any private right” as it “run[s] with the
office.” Id. at 762; see also Donelon, 522 F.3d at 568
(determining official has no “personal stake” in the

App. 25
litigation where “he seeks to exercise what he believes
are the full extent of his official powers under federal
and state law”).
Whether the Presidential Electors have asserted a
personal or official injury is inextricably intertwined
with the question of whether the Presidential Electors
have asserted an injury sufficient to support
prospective or retrospective relief. Thus, we apply the
personal injury requirement to the present facts,
together with our application of the limitations on the
Presidential Electors’ ability to seek prospective or
retrospective relief, which we now explain.
b. Prospective versus retrospective relief
As noted, standing is affected by the nature of the
relief sought. Thus, we must determine the type of
relief requested and whether the Presidential Electors
can assert that claim. We begin with a discussion of the
relevant law and then we apply those legal principles
to the present facts.
i. Legal background
A plaintiff’s “standing for retrospective relief may be
based on past injuries, whereas . . . claims for
prospective relief require a continuing injury.” PeTA,
People for the Ethical Treatment of Animals v.
Rasmussen, 298 F.3d 1198, 1202 (10th Cir. 2002); see
also City of Los Angeles v. Lyons, 461 U.S. 95, 109–10
(1983) (recognizing a plaintiff’s standing to seek
damages but not injunctive relief). To obtain
prospective relief, a plaintiff must show a credible
threat of future harm. See Ward v. Utah, 321 F.3d
1263, 1267–69 (10th Cir. 2003). “[W]hile a plaintiff who

App. 26
has been constitutionally injured can bring a § 1983
action to recover damages [retrospective relief], that
same plaintiff cannot maintain a declaratory or
injunctive action [prospective relief] unless he or she
can demonstrate a good chance of being likewise
injured in the future.” Facio v. Jones, 929 F.2d 541, 544
(10th Cir. 1991).
Although an injury must usually be imminent, a
plaintiff need not wait for the harm to occur before
seeking redress. Babbitt v. United Farm Workers Nat’l
Union, 442 U.S. 289, 298 (1979). Instead, “[a]n
allegation of future injury may suffice if the threatened
injury is ‘certainly impending,’ or there is a
‘“substantial risk” that the harm will occur.’” Susan B.
Anthony List, 573 U.S. at 158 (quoting Clapper v.
Amnesty Int’l USA, 568 U.S. 398, 414 n.5 (2013)). But
“a plaintiff must demonstrate standing separately for
each form of relief sought.” Friends of the Earth, 528
U.S. at 185. Thus, where both prospective and
retrospective relief are requested, standing for each
must be separately established.
In certain circumstances, a plaintiff can maintain a
pre-enforcement suit for declaratory or injunctive relief
“challeng[ing] a statute that he claims deters the
exercise of his constitutional rights” without “first
expos[ing] himself to actual arrest or prosecution.”
Steffel v. Thompson, 415 U.S. 452, 459 (1974). And
even when “the plaintiff ha[s] eliminated the imminent
threat of harm by simply not doing what he claimed the
right to do,” standing is not precluded “because the
threat-eliminating behavior was effectively coerced.”
MedImmune, Inc. v. Genetech, Inc., 549 U.S. 118, 129

App. 27
(2007). “The dilemma posed by that coercion—putting
the challenger to the choice between abandoning his
rights or risking prosecution—is ‘a dilemma that it was
the very purpose of the Declaratory Judgment Act to
ameliorate.’” Id. (quoting Abbott Labs. v. Gardner, 387
U.S. 136, 152 (1967)).
Therefore, “[w]hen an individual is subject to [a
threat of enforcement], an actual arrest, prosecution, or
other enforcement action is not a prerequisite to
challenging the law.” Susan B. Anthony List, 573 U.S.
at 158. Pre-enforcement review is permitted so long as
the circumstances “render the threatened enforcement
sufficiently imminent.” Id. at 159. “[A] plaintiff
satisfies the injury-in-fact requirement where he
alleges ‘an intention to engage in a course of conduct
arguably affected with a constitutional interest but
proscribed by a statute, and there exists a credible
threat of prosecution thereunder.’” Id. (quoting Babbitt,
442 U.S. at 298).
This requirement applies even when the law at
issue has been enforced against the plaintiff in the
past. See Dias v. City & Cty. of Denver, 567 F.3d 1169,
1176 (10th Cir. 2009); see also D.L.S. v. Utah, 374 F.3d
971, 975 (10th Cir. 2004) (“[A]ssurances from
prosecutors that they do not intend to bring charges
are sufficient to defeat standing, even when the
individual plaintiff ha[s] actually been charged or
directly threatened with prosecution for the same
conduct in the past.”); PeTA, 298 F.3d at 1202–03.
“Past exposure to illegal conduct does not itself show a
present case or controversy regarding injunctive relief
. . . if unaccompanied by any continuing, present,

App. 28
adverse effects.” O’Shea v. Littleton, 414 U.S. 488,
495–96 (1974). But a plaintiff seeking future relief from
a law enforced against him or her in the past can
establish the necessary injury in fact by either meeting
the requirements for pre-enforcement review or
alleging continuing adverse effects from the prior
enforcement. Dias, 567 F.3d at 1176–77.
A plaintiff satisfies the injury-in-fact requirement
for retrospective relief if he or she “suffered a past
injury that is concrete and particularized.” Tandy v.
City of Wichita, 380 F.3d 1277, 1284 (10th Cir. 2004).
“For an injury to be ‘particularized,’ it ‘must affect the
plaintiff in a personal and individual way.’” Spokeo,
Inc. v. Robins, 136 S. Ct. 1540, 1548 (2016) (quoting
Lujan, 504 U.S. at 560 n.1).
ii. Application
In this case, the Presidential Electors seek three
forms of relief: (1) a declaration that § 1-4-304(5) is
unconstitutional, (2) a “[f]inding” that the Department
violated their “federally protected rights by depriving
[Mr.] Baca of his federal right to act as an Elector and
by threatening and intimidating” the Presidential
Electors, and (3) nominal damages of $1 each. App. at
19.
Although “a declaratory judgment is generally
prospective relief,” “we consider declaratory relief
retrospective to the extent that it is intertwined with a
claim for monetary damages that requires us to declare
whether a past constitutional violation occurred.”
PeTA, 298 F.3d at 1202 n.2. Here, the Presidential
Electors’ request for a declaration that § 1-4-304(5) is

App. 29
unconstitutional is a traditional claim for prospective
declaratory relief. But the Presidential Electors’
request for a “[f]inding” that the Department violated
their “federally protected rights,” App. at 19, and their
corresponding request for nominal damages, is a
request for retrospective declaratory relief. In the later
instance, “declaratory relief is superfluous in light of
the damages claim,” PeTA, 298 F.3d at 1202 n.2
(internal quotation marks omitted), and it can be
pursued only if intertwined with a necessary
determination that damages are warranted because a
stand-alone retrospective declaratory judgment “would
amount to nothing more than a declaration that [the
plaintiff] was wronged,” Green v. Branson, 108 F.3d
1296, 1300 (10th Cir. 1997). We therefore do not
consider the Presidential Electors’ claim for a
retrospective declaration that the Department violated
their constitutional rights during the 2016 election
separately from their claim for nominal damages. But
we do separately consider their request for prospective
relief in the form of a declaration that § 1-4-304(5) is
unconstitutional.
We undertake that analysis now to determine
whether the Presidential Electors have asserted an
injury in fact entitling them to either type of relief,
beginning with their claim for prospective relief and
then turning to their claim for retrospective relief.
1) Prospective relief
We first consider whether the Presidential Electors
have standing to seek prospective relief in the form of
a declaration. The sole question with respect to
prospective relief is whether any of the Presidential

App. 30
Electors “allege[] ‘an intention to engage in a course of
conduct arguably affected with a constitutional interest
but proscribed by a statute, and [that] there exists a
credible threat of prosecution thereunder.’” Susan B.
Anthony List, 573 U.S. at 159 (quoting Babbitt, 442
U.S. at 298).7 We easily answer this question in the
negative.
Nowhere in the Second Amended Complaint do the
Presidential Electors allege an intent to engage in
conduct implicated by § 1-4-304(5) in the future or a
credible threat of future prosecution. They do not allege
an intention to again run for the position of elector or,
if appointed, to vote for an individual for President or
Vice President who did not win the popular vote in
Colorado.8 See Dias, 567 F.3d 1177 (determining the
7

Mr. Baca is the only Presidential Elector who voted in violation
of § 1-4-304(5) and suffered ramifications, in the form of removal
from office, under § 1-4-304(1). He is therefore the only plaintiff
who might establish standing for prospective relief through
continuing adverse effects of a prior enforcement. But Mr. Baca
has not alleged any continuing adverse effects from the prior
enforcement that could be alleviated through prospective relief, so
we do not consider this as a potential basis for standing.

8

Even if the Presidential Electors had alleged an intention to run
for elector and, if appointed, to vote for an individual who did not
receive the popular vote, such allegations may have been too
speculative to support finding a credible threat of prosecution. Cf.
Golden v. Zwickler, 394 U.S. 103, 109 (1969) (concluding the
petitioner lacked standing to challenge a statute prohibiting
anonymous handbilling because the petitioner sought only to
distribute leaflets relating to a specific Congressman who had left
the House of Representatives for a 14-year term on the state
supreme court “and the prospect was neither real nor immediate
of a campaign involving the congressman, [and] it was wholly

App. 31
plaintiffs lacked standing for prospective relief where
the challenged ordinance applied only in Denver’s
limits and there was no “allegation that any of the
plaintiffs intend[ed] to return to the City with their
dogs,” so “there [was not] a credible threat of future
prosecution under the Ordinance”); see also Steffel, 415
U.S. at 460 (recognizing that the petitioner may no
longer desire to engage in the prohibited handbilling
and therefore on remand the district court would have
to determine whether there was sufficient immediacy
of the threat). Nor does Mr. Baca allege a continuing
threat of prosecution for his past violation of § 1-4304(5); the Presidential Electors acknowledge in their
reply brief that the Attorney General ultimately
decided not to prosecute. As a result, the Presidential
Electors cannot show a credible threat of future
enforcement against them. So, none of them alleges an
imminent personal injury that could confer standing to
seek prospective relief, including their request for a
declaration that § 1-4-304(5) is unconstitutional.
2) Retrospective relief
With respect to the claim for retrospective relief, the
district court concluded the Presidential Electors did
not have a personal stake in the litigation and were
merely asserting an official interest based on “the
diminution of power that [§ 1-4-304(5)] allegedly causes
to the electors’ official role.” App. at 79. We agree that
conjectural that another occasion might arise when [the petitioner]
might be prosecuted for distributing” leaflets relating to the
Congressman). Here, it is wholly conjectural that the Presidential
Electors would again be selected to serve in that position, let alone
that they would desire to vote contrary to the state popular vote.

App. 32
most of the Presidential Electors’ complaint alleges
official harm to their role as electors.
Specifically, the Presidential Electors allege they
were threatened and intimidated “in the exercise of
their federally protected rights as presidential
Electors.” App. at 8 (emphasis added). They claim § 1-4304(5) is unconstitutional both “on its face and as
applied” because it “infringes on [the Presidential
Electors’] right to vote as they see fit without coercion”
and its enforcement “violated [their] rights as Electors.”
Id. at 9 (emphasis added). Further, they seek to
“correct the violations of their rights as Electors under
Article II and Amendment XII” because they had “the
legal freedom [as] federal Electors to vote as they
deem[ed] fit.” Id. (emphases added). And they argue
Article II and Amendment XII provide these rights and
protections to all members of the electoral college. See
id. at 18 (“Article II and Amendment XII . . . prohibit
any person or any state from interfering with members
of the Electoral College’s votes for President and Vice
President of the United States.” (emphasis added)); id.
(“Article II and Amendment XII . . . prohibit any person
or state from requiring members of the Electoral College
to vote for specific candidates for President and Vice
President of the United States.” (emphasis added); id.
(“The only limits on Electors’ vote for President and
Vice President of the United States are set forth in
Article II and Amendment XII . . . .” (emphasis added)).
These alleged injuries are based on the Presidential
Electors’ official capacity as members of the 2016
electoral college. As a result, their “claim of standing is
based on a loss of political power, not loss of any
private right.” Raines, 521 U.S. at 821. And the scope

App. 33
of power exercised by a presidential elector is of no
personal benefit to the elector. Cf. Smith, 191 U.S. at
149 (denying an official standing because the
performance or nonperformance of his official duties
“was of no personal benefit to him”). The Presidential
Electors have therefore failed to identify through these
allegations a personal harm or injury that would
entitle them to retrospective relief.
Further, even if the individual electors could base
standing on harm suffered in their official capacity,
such a rule would not provide standing here because
they no longer serve in that official position. The
Presidential Electors do not contend their roles as
electors extend beyond the 2016 electoral college vote.
Instead, the Second Amended Complaint alleges solely
that each Presidential Elector “was a Democratic
Elector for the 2016 presidential election.” App. at 9. As
the Supreme Court noted in Raines, when plaintiffs
allege an injury “solely because they are” in an official
role, “[t]he claimed injury . . . runs (in a sense) with the
[official] seat.” 521 U.S. at 821. If the official retires, he
“no longer ha[s] a claim; the claim [is] possessed by his
successor instead.” Id. So, even if the Presidential
Electors had asserted the official injury suffered by
their office, which they did not, they would still lack
standing. Simply put, the Presidential Electors have no
greater claim than any other citizen for an injury to an
office they did not possess at the time they filed this
lawsuit. See United States v. Richardson, 418 U.S. 166,
176–77 (1974) (rejecting standing for “a generalized
grievance” when “the impact on [the plaintiff] is plainly
undifferentiated and ‘common to all members of the
public’” (quoting Ex parte Levitt, 302 U.S. 633, 636

App. 34
(1937))); Hansen v. Harper Excavating, Inc., 641 F.3d
1216, 1224 (10th Cir. 2011) (“[S]tanding is assessed as
of the time of filing of the complaint.”).
Accordingly, the Presidential Electors can establish
standing only by alleging a personal injury. The
Presidential Electors contend they have alleged a
personal injury here because Mr. Baca “was dismissed
as an elector, had his vote invalidated, and then was
personally referred . . . for criminal investigation and
potential prosecution,” and Ms. Baca and Mr.
Nemanich “were threatened with identical
consequences.” Presidential Electors’ Br. at 23. Our
review of the Second Amended Complaint confirms
that the Presidential Electors set forth these
allegations. See App. at 15 (alleging Secretary Williams
warned that electors who failed to comply with § 1-4304(5) would likely be removed and replaced and be
subject to perjury charges); id. at 17 (alleging Secretary
Williams removed Mr. Baca as an elector, refused to
count Mr. Baca’s vote, replaced Mr. Baca with a
substitute, and referred him for criminal investigation
and prosecution); id. at 18 (contending the Department
deprived the Presidential Electors “of a federally
protected right when it threatened to remove them as
Electors, and refer them for criminal prosecution” and
deprived Mr. Baca “of a federally protected right when
it removed him as an Elector”). Accordingly, we now
consider whether (1) Mr. Baca’s removal as an elector
and referral for criminal investigation and (2) the
threats of those consequences against Ms. Baca and
Mr. Nemanich, are personal injuries sufficient to
sustain retrospective relief.

App. 35
a) Mr. Baca’s removal from office and
referral for prosecution
The district court held that the Presidential
Electors suffered no personal injury as a result of
removal or threatened removal from office because the
role of a presidential elector does not “confer[] any
meaningful pecuniary interest or autonomous power”
on the elector. App. at 79. The court noted that the
electors receive nominal compensation (mileage
reimbursement and $5) for attendance at a one-day
meeting where they are required to vote for the
candidate who won the popular vote in Colorado.
Moreover, “[o]nce the meeting is done and the votes are
cast, the electors’ duties are over. There is no ongoing
‘office’ or ‘job’ that the electors have and risk losing.”
Id. The district court therefore concluded the
Presidential Electors had suffered no personal injury
that could satisfy the standing requirement. With
respect to Mr. Baca, we disagree.
As we discuss below, Mr. Baca has asserted an
injury in fact based on the cancellation of his vote for
President and the refusal to allow him to cast a vote for
Vice President. Mr. Baca has also asserted that he
suffered an injury in fact when the Department
removed him from his duly-appointed office as a
presidential elector. An injury in fact must be actual
and concrete, but there is no requirement in standing
jurisprudence that the injury involve the loss of a job or
office that confers pecuniary interest and ongoing
duties. See Vill. of Arlington Heights v. Metro. Hous.
Dev. Corp., 429 U.S. 252, 262–63 (1977) (“It has long
been clear that economic injury is not the only kind of

App. 36
injury that can support a plaintiff’s standing.”). And
the district court’s rationale that electors serve a purely
ministerial function and must show up and vote for the
candidate who won the popular vote inappropriately
conflates standing with the merits. See Ariz. State
Legislature v. Ariz. Indep. Redistricting Comm’n, 135 S.
Ct. 2652, 2663 (2015) (“[O]ne must not ‘confus[e]
weakness on the merits with absence of Article III
standing.’” (second alteration in original) (quoting
Davis v. United States, 564 U.S. 229, 249 n.10 (2011))).
If the Presidential Electors are correct, presidential
electors are constitutionally permitted to exercise
discretion in casting one of 538 votes to select the
President and Vice President of the United States.
Under that interpretation, which we must accept as
true for purposes of standing, Mr. Baca’s loss of his
office—however brief its existence—is an injury in fact.
See Raines, 521 U.S. at 821 (recognizing officials would
have standing to claim “depriv[ation] of something to
which they personally are entitled—such as their seats
as Members of Congress after their constituents had
elected them”); see also Am. Humanist Ass’n, Inc. v.
Douglas Cty. Sch. Dist. RE-1, 859 F.3d 1243, 1248
(10th Cir. 2017) (emphasizing that “an injury [need
not] meet some threshold of pervasiveness to satisfy
Article III” because “an identifiable trifle is enough for
standing to fight out a question of principle” (quoting
United States v. Students Challenging Regulatory
Agency Procedures (SCRAP), 412 U.S. 669, 689 n.14
(1973))). Thus, Mr. Baca has shown a concrete injury
with respect to his removal from office.

App. 37
But Mr. Baca has not alleged an injury in fact with
respect to his allegation that Secretary Williams
referred him to the Colorado Attorney General for
investigation and potential prosecution. To be sure, “a
criminal prosecution, even one that is swiftly
abandoned, can confer standing.” Winsness v. Yocom,
433 F.3d 727, 734 (10th Cir. 2006). “[W]rongful
criminal proceedings cause a judicially cognizable
injury that, according to our precedents, may be
redressed through nominal damages and retrospective
declaratory relief.” Id. But to have standing, the
plaintiff must “seek compensation for injuries
sustained as a result of his criminal prosecution.” Id. at
735.
The Second Amended Complaint is devoid of any
allegation that the state prosecuted Mr. Baca
criminally as a result of his vote for John Kasich, or
that Mr. Baca suffered any injury stemming from
Secretary Williams’s referral for criminal
investigation.9 Thus, Mr. Baca has identified a
challenged action—referring him for investigation and
potential prosecution—but he has failed to allege the
referral resulted in any injury.

9

The Presidential Electors’ reply brief contends, for the first time,
that Mr. Baca was subject to “a long investigation that consumed
[his] time and money” before the Attorney General decided not to
prosecute. Presidential Electors’ Reply Br. at 29 n.5. Because this
allegation was not included in the complaint, we need not consider
whether this injury is fairly traceable to Secretary Williams’s
referral rather than, as the Department argues, solely to the
Attorney General’s actual investigation.

App. 38
In summary, Mr. Baca has asserted a personal
injury sufficient to meet the Article III standing
requirement for retrospective relief based on his
removal from an office to which he was entitled. But
nowhere does the Second Amended Complaint assert
an injury caused by his referral for criminal
investigation.
b) Threats against Ms. Baca and Mr.
Nemanich
We turn now to whether Ms. Baca and Mr.
Nemanich have asserted a personal injury in fact for
retrospective relief based on threats to remove them
from office and refer them for prosecution if they
refused to vote for the winners of the popular vote in
Colorado. The Presidential Electors contend that Board
of Education of Central School District No. 1 v. Allen,
392 U.S. 236 (1968), supports Ms. Baca’s and Mr.
Nemanich’s claims of personal injury. We are not
convinced.
In Allen, two local boards of education sued to
declare a state statute unconstitutional and to bar the
commissioner of education from removing the members
from office for failing to comply with it. 392 U.S. at 240
& n.4. The boards claimed the statute that required
local public schools to lend textbooks free of charge to
parochial schools violated the Establishment Clause
and, therefore, compliance with the statute would
violate their oaths to support the United States
Constitution. Id. at 240–41. The Supreme Court
addressed standing in a footnote, stating:

App. 39
Appellees do not challenge the standing of
appellants to press their claim in this Court.
Appellants [the two boards] have taken an oath
to support the United States Constitution.
Believing [section] 701 to be unconstitutional,
they are in the position of having to choose
between violating their oath and taking a
step—refusal to comply with [section] 701—that
would be likely to bring their expulsion from
office and also a reduction in state funds for
their school districts. There can be no doubt that
appellants thus have a “personal stake in the
outcome” of this litigation.
Id. at 241 n.5 (quoting Baker v. Carr, 369 U.S. 186, 204
(1962)).
Even if the Allen footnote could be read broadly to
support the Presidential Electors’ standing argument,
subsequent decisions from the Supreme Court have
limited its reach. See Schlesinger v. Reservists Comm.
to Stop the War, 418 U.S. 208, 217 (1974) (holding that
a “generalized interest of all citizens in constitutional
governance” cannot confer standing); Richardson, 418
U.S. at 176–77 (determining taxpayer’s claim that the
Central Intelligence Agency Act violated art. I, § 9, cl.
7, of the United States Constitution was “the kind of a
generalized grievance” that could not confer standing);
see also City of S. Lake Tahoe, 625 F.2d at 235–36
(examining Supreme Court authority pre- and postAllen and concluding subsequent decisions from the
Court “significantly tightened standing requirements”).
Based on these later Supreme Court pronouncements,
some lower courts have departed from Allen where the

App. 40
officials “were not required to do anything that was
specifically prohibited by an express term of the
constitution” or were elected and therefore “in no
danger of expulsion from office as a result of any action
that [the official] alone believes may have violated his
oath.” Finch, 585 F.2d at 773–74.10
Here, we need not consider Allen’s continuing
vitality because even assuming its footnote remains
precedential, Ms. Baca and Mr. Nemanich cannot
establish standing to seek retrospective relief based on
the threats to remove them from office and refer them
for prosecution. In Allen, the petitioners sought
prospective relief in the form of an injunction and a
declaratory judgment. 392 U.S. at 240. As discussed,
however, the Presidential Electors do not have
standing to seek prospective relief because they have
not alleged facts that show a credible threat of future
enforcement. See Bronson v. Swensen, 500 F.3d 1099,
1112 (10th Cir. 2007) (recognizing that plaintiffs’
allegations of a “credible ‘threat’ of prosecution” “cast[s]
their injury-in-fact in prospective-relief terms”);
Winsness, 433 F.3d at 732 (“When he can show that he
faces a credible threat of prosecution, a plaintiff can
sue for prospective relief against enforcement.”
(emphasis added) (internal quotation marks omitted)).

10

In the context of the political subdivision standing doctrine, we
have also distinguished Allen. In City of Hugo, we reasoned that
standing in Allen was “based on the individual board members’
personal stake in losing their jobs.” 656 F.3d at 1260. But see id. at
1269 (Matheson, J., dissenting) (noting that in Allen “the school
boards, not their individual members, were the plaintiffs”).

App. 41
Nor can they rely on past threats of enforcement to
show an actual injury with respect to retrospective
relief because they have failed to argue any actual
injury stemming from that threat. See Dias, 567 F.3d
at 1178 (recognizing plaintiffs had suffered actual
injuries for retrospective relief where two plaintiffs
“were forced to move from Denver to avoid the reach of
the Ordinance” and the third plaintiff’s dog “was seized
by animal control officers,” and the plaintiff “was
charged with a criminal violation of the Ordinance”);
PeTA, 298 F.3d at 1203 (determining there was
standing for purposes of retrospective relief because
“PeTA suffered an injury in fact to its constitutionally
protected right to free speech when the defendants
threatened the protestors with arrest if they did not
cease their demonstration” and PeTA ceased protesting
in response to the threat).
Our unaided review of the Second Amended
Complaint reveals a single relevant allegation: based
on Secretary Williams “changing the oath and
removing [Mr.] Baca,” Ms. Baca and Mr. Nemanich
“felt intimidated and pressured to vote against their
determined judgment.” App. at 17. This allegation
supports a contention that Ms. Baca and Mr. Nemanich
felt unable to exercise what they believe is the full
range of discretion in their roles as electors. As with
most of the allegations in the complaint, however, this
injury impacts only their official function as it is “not
claimed in any private capacity but solely because
they” were members of the electoral college. Raines,
521 U.S. at 821; see also id. (recognizing claim for
official injury where the “claim of standing is based on
a loss of political power, not loss of any private right”).

App. 42
Unlike plaintiffs asserting a personal constitutional
right, Ms. Baca and Mr. Nemanich are claiming injury
based on their official roles as electors based on threats
made against all of Colorado’s electors. The injury
alleged is a general diminution of the power of the
office generally. This is not sufficient to meet the
personal injury-in-fact requirement of standing.
c. Legislator standing
The Presidential Electors also claim they fall within
a limited exception to the personal injury requirement:
legislators, suing as a bloc, have standing to enforce the
effectiveness of their votes when their votes were
sufficient to defeat or enact legislation. Coleman, 307
U.S. at 438; see also Kerr v. Hickenlooper, 824 F.3d
1207, 1215 (10th Cir. 2016) (recognizing the injury in
Coleman as an injury suffered in the legislators’ official
capacity). To address this argument, we begin by
discussing the requirements for standing under
Coleman and its progeny. After, we consider whether
the Presidential Electors meet those requirements.
i. Legal background
The Supreme Court first considered the question of
legislator standing in Coleman, where twenty of
Kansas’s forty Senators who had voted against a
resolution ratifying the Child Labor Amendment to the
federal Constitution sued to give effect to their votes.
307 U.S. at 436. According to the plaintiff legislators,
Kansas’s Lieutenant Governor had acted beyond his
authority when he broke the tie, voting in favor of
ratification, allowing the resolution to pass the Kansas
House. Id. The Supreme Court described the plaintiffs

App. 43
as “twenty senators, whose votes against ratification
have been overridden and virtually held for naught
although if they are right in their contentions their
votes would have been sufficient to defeat ratification.”
Id. at 438. The Court concluded those “senators have a
plain, direct[,] and adequate interest in maintaining
the effectiveness of their votes,” and therefore had
standing to pursue their “claimed . . . right and
privilege under the Constitution of the United States to
have their votes given effect.” Id.
The Supreme Court again considered legislator
standing in Raines, where six individual members of
Congress challenged the Line Item Veto Act as
unconstitutional. 521 U.S. at 814. Focusing on two
main concerns, the Court concluded the Congressmen
could show no personal injury and therefore lacked
standing. First, the Congressmen were not “singled out
for specifically unfavorable treatment as opposed to
other Members of their respective bodies. Their claim
is that the Act causes a type of institutional injury (the
diminution of legislative power), that necessarily
damages all Members of Congress and both Houses of
Congress equally.” Id. at 821. Second, the Congressmen
were not claiming “they ha[d] been deprive[d] of
something to which they personally [were] entitled,”
because their “claim of standing [was] based on a loss
of political power, not loss of any private right,” and
that injury was “not claimed in any private capacity
but solely because they are Members of Congress.” Id.
Important for our purposes, the Court explained that if
“one of the Members were to retire tomorrow, he would
no longer have a claim; the claim would be possessed

App. 44
by his successor instead. The claimed injury thus runs
(in a sense) with the Member’s seat.” Id.
The Court distinguished Raines from Coleman,
emphasizing that Coleman stood for, at most, “the
proposition that legislators whose votes would have
been sufficient to defeat (or enact) a specific legislative
Act have standing to sue if that legislative Act goes into
effect (or does not go into effect), on the ground that
their votes have been completely nullified.” Id. at 823;
see also Va. House of Delegates v. Bethune-Hill, 139 S.
Ct. 1945, 1954 (2019) (distinguishing Coleman because
the present case “does not concern the results of a
legislative chamber’s poll or the validity of any counted
or uncounted votes”). The Court also “attach[ed] some
importance to the fact that [the Congressmen] have not
been authorized to represent their respective Houses of
Congress in this action, and indeed both Houses
actively oppose their suit.” Raines, 521 U.S. at 829; see
also Va. House of Delegates, 139 S. Ct. at 1953 (“Just as
individual members lack standing to assert the
institutional interests of a legislature, a single House
of a bicameral legislature lacks capacity to assert
interests belonging to the legislature as a whole.”
(citation omitted)); Bender v. Williamsport Area Sch.
Dist., 475 U.S. 534, 544 (1986) (“Generally speaking,
members of collegial bodies do not have standing to
perfect an appeal the body itself has declined to take.”);
United States v. Ballin, 144 U.S. 1, 7 (1892) (“The two
houses of Congress are legislative bodies representing
larger constituencies. Power is not vested in any one
individual, but in the aggregate of the members who
compose the body, and its action is not the action of any

App. 45
separate member or number of members, but the action
of the body as a whole . . . .”).
Significant for our purposes, the Court in Raines
also included a footnote that suggests standing can be
based on the discriminatory treatment of a legislator’s
vote. “Just as appellees cannot show that their vote
was denied or nullified as in Coleman (in the sense that
a bill they voted for would have become law if their vote
had not been stripped of its validity), so are they
unable to show that their vote was denied or nullified
in a discriminatory manner (in the sense that their
vote was denied its full validity on relation to the votes
of their colleagues).” Raines, 521 U.S. at 824 n.7. That
is, while diminution of the effectiveness of all votes
equally is an institutional injury, a legislator whose
vote is singled out for disparate treatment may have
suffered a personal injury.
The Supreme Court next visited the question of
legislative standing in Arizona State Legislature, 135 S.
Ct. 2652. There, the Arizona Legislature claimed a
recently passed citizens’ initiative establishing an
independent redistricting commission
unconstitutionally infringed on the Arizona
Legislature’s constitutional responsibility for
redistricting. 135 S. Ct. at 2663. The Court determined
that, in contrast to Raines, the Arizona Legislature
itself had standing to pursue this claim because it was
“an institutional plaintiff asserting an institutional
injury, and it commenced th[e] action after authorizing
votes in both of its chambers.” Id. at 2664. And, as in
Coleman, the Arizona Legislature challenged an action
that would “completely nullif[y]” an otherwise effective

App. 46
vote of the institution. Id. at 2665 (alteration in
original) (quoting Raines, 521 U.S. at 823).
This court had occasion to apply the holding of
Arizona State Legislature in Kerr, 824 F.3d 1207.
There, several parties, including a group of current
state legislators, challenged the constitutionality of a
provision of the Colorado Constitution that limited the
revenue-raising powers of state and local governments.
Kerr, 824 F.3d at 1211. We held the individual
legislators lacked standing to assert an institutional
injury, which we defined as “those that do not ‘zero[] in
on any individual Member’” but instead are “‘[w]idely
dispersed’ and ‘necessarily impact[] all [m]embers of [a
legislature] equally.’” Id. at 1214 (first, second, fourth,
and fifth alterations in original) (quoting Arizona State
Legislature, 135 S. Ct. at 2664).
In Kerr, we identified three types of legislator
standing recognized by Coleman and its progeny. The
first type, illustrated by Arizona State Legislature, is
an institutional injury—“a harm inflicted on a
legislature itself, such that it necessarily impacts all
members of that legislature in equal measure.” Kerr,
824 F.3d at 1215. A claim for redress of such an injury
can be brought solely by an institutional plaintiff.
“[I]ndividual legislators may not support standing by
alleging only an institutional injury.” Id. at 1214.11

11

This court has left open the question whether a group of
legislators large enough to prevail on a vote would have standing
to assert an institutional injury. Kerr v. Hickenlooper, 824 F.3d
1207, 1215 n.1 (10th Cir. 2016). We likewise need not decide that
question here.

App. 47
The second type of legislator standing, recognized in
Coleman, is an injury suffered by a bloc of legislators
large enough to prevail on a vote, although in an
official capacity, based on the complete nullification of
their votes. Id. Such a claim can be asserted by the bloc
of legislators, even without the authorization of the
legislative body itself, if that bloc is large enough to
have controlled the result of the legislative action. Id.
at 1214–15.
The third type of legislator standing is where an
individual legislator suffers a personal injury. Id. at
1216. “For example, if a particular subset of legislators
was barred from exercising their right to vote on bills,
such an injury would likely be sufficient to establish a
personal injury.” Id.; see also Raines, 521 U.S. at 824
n.7 (distinguishing from arguments where legislators’
“vote was denied or nullified in a discriminatory
manner (in the sense that their vote was denied its full
validity in relation to the votes of their colleagues)”). A
claim of this nature “zeroes in on the individual and is
thus concrete and particularized.” Kerr, 824 F.3d at
1216.
The Presidential Electors never mention Raines,
Arizona State Legislature, or Kerr in their briefs to this
court. This is surprising because the district court
relied on all three cases in denying standing, and the
Department cites them in asking us to affirm the
district court’s decision. Because these cases represent
the Supreme Court’s and this court’s direction on
legislative standing, we explain why none support a
conclusion that Ms. Baca and Mr. Nemanich can
advance their claims here, but they do support Mr.

App. 48
Baca’s claim for standing based on the nullification of
his vote and his removal from office.
ii. Application
Although the Presidential Electors do mention
Coleman, they give it little attention, devoting only one
paragraph in their opening brief to claim that “as
presidential electors for Colorado, each [Presidential
Elector] was entitled to have his or her votes properly
counted once voting began.” Presidential Electors’ Br.
at 22. And in their reply brief, the Presidential Electors
contend they need not comprise a majority of
Colorado’s electors to have standing under Coleman
because “unlike a legislature, which makes decisions as
a body, each elector has an individual right to vote and
then transmit that vote directly to the Congress.”
Presidential Electors’ Reply Br. at 30. The Presidential
Electors’ arguments are unpersuasive as to Ms. Baca
and Mr. Nemanich for two reasons.
First, the Supreme Court explicitly noted in Raines
that, at most, Coleman stood for “the proposition that
legislators whose votes would have been sufficient to
defeat (or enact) a specific legislative Act have standing
to sue if that legislative Act goes into effect (or does not
go into effect), on the ground that their votes have been
completely nullified.” 521 U.S. at 823. Coleman,
therefore, provides that a group of legislators whose
votes are sufficient to achieve their desired outcome
have standing to challenge the nullification of those
votes and the corresponding contrary result. Here, even
if Mr. Baca, Ms. Baca and Mr. Nemanich had
successfully voted for John Kasich, the winner of the
2016 presidential election would not have changed.

App. 49
Donald J. Trump would have still received 304
electoral votes, 163 Cong. Rec. H189 (daily ed. Jan. 6,
2017), a number constituting “the majority of the whole
number of Electors appointed,” U.S. Const. amend. XII.
Second, the Presidential Electors are not seeking
the type of relief recognized in Coleman because they
are not suing to effectuate their votes. The votes Ms.
Baca and Mr. Nemanich cast were certified and
delivered to the President of the Senate, where they
were counted. And although Mr. Baca’s vote for
President was not counted, he is not seeking to
somehow belatedly credit that vote. In Coleman, the
senators sought to compel other state actors to
implement the results of their vote. 307 U.S. at 436. In
explaining why the senators had standing, the Court
said, “[w]e think that these senators have a plain,
direct[,] and adequate interest in maintaining the
effectiveness of their votes.” Id. at 438 (emphasis
added).12
Rather, the Presidential Electors’ main challenge to
§ 1-4-304(5) is that it “restrict[s] the legal freedom of
federal Electors to vote as they deem fit.” App. at 9.

12

In a later opinion, albeit in dicta, the Supreme Court recognized
that a school board member seeking to protect the effectiveness of
his vote would be required to seek “mandamus or like remedy.” See
Bender v. Williamsport Area Sch. Dist., 475 U.S. 534, 544 n.7
(1986) (describing Coleman as a “mandamus action ‘to compel a
proper record of legislative action’”). The Supreme Court has also
recognized an institution’s standing to seek prospective relief
against a law that would completely nullify the institution’s
otherwise effective vote. See Ariz. State Legislature v. Ariz. Indep.
Redistricting Comm’n, 135 S. Ct. 2652, 2665 (2015).

App. 50
This injury impacts all of Colorado’s presidential
electors equally. Consequently, the Department
contends the Presidential Electors allege an
institutional injury they cannot pursue because they
“were not authorized to represent Colorado’s Electoral
College as a whole.” Dep’t’s Br. at 32. The Presidential
Electors disagree, asserting that “unlike a legislature,
which makes decisions as a body, each elector has an
individual right to vote and then transmit that vote
directly to Congress.” Presidential Electors’ Reply Br.
at 30.
If the Department is correct and Colorado’s electors
constitute an institutional body for purposes of
standing, the harm created by § 1-4-304(5) is an
institutional injury because it necessarily “impacts all
members of that [body] in equal measure.” Kerr, 824
F.3d at 1215. “[O]nly an institutional plaintiff
possesses standing to assert an institutional injury.”
Id. Because the Presidential Electors do not represent
a majority of the Colorado electors13—the relevant
institution under the Department’s theory—they lack
standing to sue for an institutional injury.
If, however, the Presidential Electors are correct
and each elector has an individually enforceable right
to vote freely, the Presidential Electors still cannot
point to an individualized injury that would permit
them to seek relief to protect that right. First, the
13

The Presidential Electors represent only three of Colorado’s nine
electors. The Presidential Electors do not argue that, if Colorado’s
electors are the relevant institutional body, fewer than a majority
of the electors would be sufficient to act on behalf of the
institution.

App. 51
threats were made against all Colorado electors
equally. They did not zero in on Ms. Baca and Mr.
Nemanich individually and thus cannot support a
personal injury. Second, the Presidential Electors did
not bring their claim in an official capacity. And, for the
reasons discussed in greater detail above, even if they
had done so, they would lack standing for an official
injury because they are not still electors. See App. at 9
(claiming each Presidential Elector “was a Democratic
Elector for the 2016 presidential election”).
Accordingly, the only potential for legislative
standing is under the third proposition we elicited from
Coleman in Kerr: where an individual legislator suffers
a personal injury. See Kerr, 824 F.3d at 1216 (“For
example, if a particular subset of legislators was barred
from exercising their right to vote on bills, such an
injury would likely be sufficient to establish a personal
injury.”). Here, Mr. Baca has alleged that the
Department struck his vote for President and removed
him from office, preventing him from casting his vote
for Vice President. This is the type of injury that “zeros
in on [Mr. Baca] individually and is thus concrete and
particularized.” Id. He has therefore alleged a personal
injury in fact.
In sum, only Mr. Baca has established an injury in
fact, and he has done so solely with respect to his claim
for retrospective damages for his removal from office
and the nullification of his vote.
2. Traceability and Redressability
Because we conclude Mr. Baca has alleged an injury
in fact for purposes of retrospective relief, we now

App. 52
address whether that injury is fairly traceable to the
Department’s conduct and redressable by the relief
sought. Monsanto, 561 U.S. at 149. We conclude Mr.
Baca meets both requirements.
The complaint alleges “Secretary Williams, acting
on behalf of the Colorado Department of State, willfully
removed [Mr.] Baca as an Elector [and] refused to
count Mr. Baca’s vote [for President or Vice President].”
App. at 17. Mr. Baca’s injuries—removal from office
and nullification of his vote—are fairly traceable to the
Department’s conduct—removing him from office and
striking his vote for President. And the complaint seeks
a determination that the Department violated Mr.
Baca’s “federal right to act as an Elector,” entitling him
to “nominal damages of $1 . . . for the violation of [his]
rights.” Id. at 19. Nominal damages are sufficient to
satisfy the redressability requirement for a § 1983
action. See Faustin v. City, Cty. of Denver, Colo., 268
F.3d 942, 948 (10th Cir. 2001).
***
In summary, none of the Presidential Electors
alleged a personal injury sufficient to obtain the
prospective relief they seek, and only Mr. Baca alleged
a personal injury sufficient to obtain retrospective
relief. Mr. Baca has also satisfied the requirements of
traceability and redressability as to his claim for
retrospective relief.
We therefore affirm the district court’s dismissal of
Ms. Baca’s and Mr. Nemanich’s claims under rule
12(b)(1). We also affirm the district court’s dismissal of
Mr. Baca’s claim under rule 12(b)(1)—to the extent he

App. 53
seeks prospective relief—because Mr. Baca has not
alleged a continuing threat that § 1-4-304(5) will be
enforced against him. But we conclude the district
court erred in dismissing Mr. Baca’s claim to the extent
he seeks retrospective relief because he has standing
based on his removal from his role of elector and the
cancellation of his vote.
IV. DISCUSSION PART TWO: MOOTNESS
Having determined Mr. Baca has standing to
pursue retrospective relief, we turn to another
potential jurisdictional bar: mootness. Mr. Baca
brought his claim under 42 U.S.C. § 1983, which
requires Mr. Baca prove (1) a person, (2) acting under
color of state law, (3) deprived him of “any rights,
privileges, or immunities secured by the Constitution
and laws.” 42 U.S.C. § 1983. Relying on Arizonans for
Official English v. Arizona, 520 U.S. 43 (1997), the
dissent concludes that because the Department is not
a person for purposes of § 1983, and Mr. Baca therefore
cannot satisfy the first element of his § 1983 claim, this
case is moot. Respectfully, we disagree that the defect
in the merits of Mr. Baca’s claim—a defect that the
Department expressly waived—renders this case moot.
Mootness “has been described as ‘the doctrine of
standing set in a time frame: The requisite personal
interest that must exist at the commencement of the
litigation (standing) must continue throughout its
existence (mootness).’” Arizonans for Official English,
520 U.S. at 68 n.22 (quoting United States Parole
Comm’n v. Geraghty, 445 U.S. 388, 397 (1980)). Thus,
a case becomes moot when “an intervening
circumstance deprives the plaintiff of a personal stake

App. 54
in the outcome of the lawsuit[] at any point during
litigation.” Campbell-Edwald Co. v. Gomez, 136 S. Ct.
663, 669 (2016) (quoting Genesis Healthcare Corp. v.
Symczyk, 569 U.S. 66, 72 (2013)); see also Friends of the
Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528
U.S. 167, 191 (2000) (distinguishing standing doctrine
from mootness because “by the time mootness is an
issue, the case has been brought and litigated, often . . .
for years”). Although some subsequent actions will
clearly moot a case by depriving the parties of a
continuing interest in the litigation, “as when the
parties have settled or a plaintiff pursuing a
nonsurviving claim has died,” we must also be mindful
that “[t]o abandon the case at an advanced stage may
prove more wasteful than frugal.” Friends of the Earth,
528 U.S. at 191–92.
Here, there has been no “intervening circumstance”
that could render this case moot. From its initiation,
Mr. Baca has sought both prospective and retrospective
relief, the latter of which includes a claim for nominal
damages. Thus, the defect in the merits of Mr. Baca’s
§ 1983 claim does not render the dispute before us
moot. See DTC Energy Grp., Inc. v. Hirschfeld, 912
F.3d 1263, 1269 (10th Cir. 2018) (“The doctrine of
mootness in no way depends on the merits of the
plaintiff’s contention.” (quotation marks omitted)). Nor
do we read Arizonans as holding otherwise.
In Arizonans, the plaintiff Yniguez, a state
employee, sued the state of Arizona (along with state
officials) pursuant to § 1983, seeking both a declaration
that an amendment to the Arizona Constitution
requiring the State to “act in English and in no other

App. 55
language” was unconstitutional, and an order enjoining
its enforcement. 520 U.S. at 49–51. While her case was
pending before the Ninth Circuit, Yniguez resigned
from state employment, and Arizona’s Attorney
General suggested that this new development rendered
the case moot because it now “lack[ed] a viable
plaintiff.” Id. at 59–60. The Ninth Circuit rejected the
suggestion of mootness, noting that although Yniguez
“may no longer be affected by the English only
provision” (and therefore lacked any continuing
interest in injunctive relief), she could still pursue
nominal damages despite failing to “expressly request
nominal damages” in her complaint. Id. at 60 (quoting
Yniguez v. Arizona, 975 F.2d 646, 647 (9th Cir. 1992)).
The Ninth Circuit then returned the case to district
court to provide Yniguez an opportunity to “place
before the [court], explicitly, the issue of nominal
damages.” Id. at 60–61.
The Supreme Court rejected this attempt to create
a claim for nominal damages to “overcome” mootness.
Because § 1983 actions “do not lie against a State,” id.
at 69, the Court concluded, “[i]t should have been clear
to the Court of Appeals that a claim for nominal
damages, extracted late in the day from Yniguez’s
general prayer for relief and asserted solely to avoid
otherwise certain mootness, bore close inspection. On
such inspection, the Ninth Circuit might have
perceived that Yniguez’s plea for nominal damages
could not genuinely revive the case.” Id. at 71 (citation
omitted). But, crucially, it was not the failure of the
improvised nominal-damages claim under § 1983 that
mooted the case; it was Yniguez’s departure from state
employment: “Yniguez’s changed circumstances—her

App. 56
resignation from public sector employment to pursue
work in the private sector—mooted the case stated in
her complaint.” Id. at 72. With respect to the rejection
of the tardy nominal damages claim, the Court
concluded the claim could not be added to the action
because it was futile. See McKinley v. Kaplan, 177 F.3d
1253, 1256 (11th Cir. 1999) (“[T]he reason the
plaintiff’s attempted addition of a damages claim could
not obviate the mootness problem in Arizonans for
Official English was that such a damages claim would,
as a matter of law, be non-meritorious and futile.”).
Arizonans does not teach that any claim for
damages against a state pursuant to § 1983 is moot; it
stands for the narrower proposition that a last-minute
claim for legally unavailable relief cannot overcome
certain mootness. See id. at 69 (“[T]he claim for relief
the Ninth Circuit found sufficient to overcome mootness
was nonexistent.” (emphasis added)). Decisions from
other circuits and an unpublished decision from this
circuit are consistent with this reading of Arizonans.
See Chi. United Indus. v. City of Chicago, 445 F.3d 940,
948 (7th Cir. 2006) (holding that a damage claim saved
the case from complete mootness and citing Arizonans
as creating an exception “for cases in which a damages
claim is added at the last minute in a desperate
attempt to stave off the dismissal of the case as moot”);
Lillbask v. Conn. Dep’t of Educ., 397 F.3d 77, 90 (2d
Cir. 2005) (upholding dismissal of the action as moot
despite general claim for such “other relief as the Court
deems just and proper” and citing Arizonans as
directing close inspection of a claim for nominal
damages extracted late in the day from a general
prayer for relief); Harris v. Itzhaki, 183 F.3d 1043, 1050

App. 57
(9th Cir. 1999) (holding that claims for prospective
relief had become moot, but that damage claim
included in plaintiff’s initial prayer for relief was
unaffected by Arizonans); Harris v. City of Houston,
151 F.3d 186, 191 (5th Cir. 1998) (citing Arizonans and
holding case was moot where “the appellants limited
and focused their pleading and arguments solely to
enjoining the annexation and election” and did not seek
damages); Thomas R.W. ex rel. Pamela R. v. Mass.
Dep’t of Educ., 130 F.3d 477, 480–81 (1st Cir. 1997)
(relying on Arizonans to hold that a reimbursement
claim first raised in the reply brief on appeal “was too
little, too late” to “supply the residual live controversy
necessary to preserve his entire case from being
mooted”); Fox v. Bd. of Trs. of State Univ. of N.Y., 42
F.3d 135, 141 (2d Cir. 1994) (rejecting attempt to add
nominal damages claim to overcome mootness where
the complaint contained “absolutely no specific mention
. . . of nominal damages”); see also Olson v. City of
Golden, 541 F. App’x 824, 829 (10th Cir. 2013) (noting
that while “a claim for nominal damages will satisfy
Article III’s case or controversy requirement . . . the
circumstances of this case do not warrant applying that
rule to a claim for nominal damages ‘extracted late in
the day from [Olson’s] general prayer for relief and
asserted solely to avoid otherwise certain mootness’”
(quoting Arizonans, 520 U.S. at 71)).
Unlike Yniguez’s claim in Arizonans, Mr. Baca’s
claim has always been for both prospective relief
(injunction) and retrospective relief (nominal damages
and retrospective declaration). And there has been no
change in the status of the parties since the complaint
was filed.

App. 58
To be sure, there is a major flaw in the merits of Mr.
Baca’s § 1983 claim. As the parties acknowledged in
supplemental briefing, Mr. Baca cannot satisfy the first
prong of a § 1983 claim because the Department is not
a person for purposes of the statute. Will, 491 US at
70–71.
But neither in the district court nor in the briefing
here did the Department raise this argument. And in
its supplemental briefing, the Department confirms
that, for purposes of this case, it has expressly waived
the argument that it is not a person under § 1983.
Assuming Mr. Baca can meet the other requirements
of his § 1983 claim—the Department was acting under
state law and he was deprived of a constitutional
right—Mr. Baca may prevail on his claim and be
entitled to nominal damages. See 42 U.S.C. § 1983;
Faustin, 268 F.3d at 948 (recognizing nominal damages
are available for a § 1983 claim). And this court has
squarely held that a complaint for nominal damages
survives mootness even where prospective relief is no
longer available. Utah Animal Rights Coal. v. Salt
Lake City Corp., 371 F.3d 1248, 1257 (10th Cir. 2004);
see also id. at 1258 (“[A]lthough the conduct at issue is
long past and will not be repeated, the Ordinance
under challenge has been amended to correct its
alleged constitutional flaw, and Plaintiff concedes that
it suffered no compensable injury, under our
precedents this panel is required to determine on the
merits whether Defendant’s past conduct and nolonger-operative Ordinance comported with the First
Amendment.”).

App. 59
The dissent suggests that the merits defect in Mr.
Baca’s case means there is no chance of money
changing hands and further concludes this lack of
remedy renders the claim moot. Dissenting Op. at 2.
We disagree. Mr. Baca is seeking, and upon prevailing
would be entitled to, nominal damages in the form of
$1. And because the Department waived Eleventh
Amendment immunity in this case, damages can be
awarded. Thus, assuming Mr. Baca succeeds on the
merits of his claim, there is no legal reason Mr. Baca
would not be entitled to receive his nominal damages
award and therefore a remedy is available in this case.
The dissent’s argument does not apply the
appropriate test. That is, its determination is
dependent upon a decision by this court to raise sua
sponte the personhood argument expressly waived by
the Department. Only if we do so would it be
impossible for Mr. Baca to prevail on his § 1983 claim.
But, insofar as we are considering mootness, we may
not consider the merits of the personhood argument
because the mootness inquiry “in no way depends on
the merits of the plaintiff’s contention.” Keller Tank
Servs. II, Inc. v. Comm’r, 854 F.3d 1178, 1194 (10th
Cir. 2017) (quoting Smith v. SEC, 129 F.3d 356, 363
(6th Cir. 1997)). In evaluating mootness, “the court
assumes the plaintiff will receive the relief that he
requests in this litigation[] and then proceeds to
determine whether there is a substantial likelihood
that that relief will redress his asserted injury.” Id.
(emphasis added) (quoting Smith, 129 F.3d at 364).
The dissent also suggests that it is “appropriate to
consider the ‘personhood argument’ in relation to

App. 60
mootness” because “[a]t the pleading stage[] a plaintiff
must invoke our power to adjudicate a case by
sufficiently alleging the prerequisites to subject-matter
jurisdiction” and Mr. Baca has failed to do so because
“the availability of nominal damages is clearly
foreclosed by Lapides [v. Bd. of Regents, 535 U.S. 613
(2002)], Arizonans, and Will.” Dissenting Op. at 3 n.3.
Although we do not view it as part of our mootness
analysis, we agree that a plaintiff must plead a
colorable claim to invoke federal jurisdiction under 28
U.S.C. § 1331. Arbaugh v. Y&H Corp., 546 U.S. 500,
513 n.10 (2006). But, unlike the dissent, we conclude
the § 1983 claim here was not so wholly frivolous as to
preclude the district court’s exercise of federal question
jurisdiction.
The Supreme Court has “long distinguished
between failing to raise a substantial federal question
for jurisdictional purposes . . . and failing to state a
claim for relief on the merits; only ‘wholly insubstantial
and frivolous’ claims implicate the former.” Shapiro v.
McManus, 136 S. Ct. 450, 455 (2015) (quoting Bell v.
Hood, 327 U.S. 678, 682–83 (1946)). “‘“[C]onstitutional
insubstantiality” for this purpose has been equated
with such concepts as “essentially fictitious,” “wholly
insubstantial,” “obviously frivolous,” and “obviously
without merit.”’ And the adverbs were no mere
throwaways; ‘[t]he limiting words “wholly” and
“obviously” have cogent legal significance.’” Id. (second
alteration in original) (citation omitted) (quoting
Goosby v. Osser, 409 U.S. 512, 518 (1973)). “Dismissal
for lack of subject-matter jurisdiction because of the
inadequacy of the federal claim is proper only when the
claim is ‘so insubstantial, implausible, foreclosed by

App. 61
prior decisions of [the Supreme] Court, or otherwise
completely devoid of any merit as not to involve a
federal controversy.’” Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 89 (1998) (quoting Oneida Indian
Nation of N.Y. v. Cty. of Oneida, 414 U.S. 661, 666
(1974)). “A claim is insubstantial only if ‘its
unsoundness so clearly results from the previous
decisions of [the Supreme] Court as to foreclose the
subject and leave no room for the inference that the
questions sought to be raised can be the subject of
controversy.’” Goosby, 409 U.S. at 518 (quoting Ex parte
Poresky, 290 U.S. 30, 32 (1933)).
Here, Mr. Baca has sued the Colorado Department
of State. From Will, we know that “neither a State nor
its officials acting in their official capacities are
‘persons’ under § 1983.” 491 U.S. at 71. And the
Supreme Court later emphasized that “Will establishes
that the State and arms of the State, which have
traditionally enjoyed Eleventh Amendment immunity,
are not subject to suit under § 1983 in either federal
court or state court.” Howlett ex rel. Howlett v. Rose,
496 U.S. 356, 365 (1990).
Whether the Department is a “person” under § 1983
therefore depends on whether the Department would
enjoy Eleventh Amendment immunity as an arm-ofthe-state. In undertaking this analysis, we consider
“four primary factors”:
First, we assess the character ascribed to the
entity under state law. Simply stated, we
conduct a formalistic survey of state law to
ascertain whether the entity is identified as an
agency of the state. Second, we consider the

App. 62
autonomy accorded the entity under state law.
This determination hinges upon the degree of
control the state exercises over the entity. Third,
we study the entity’s finances. Here, we look to
the amount of state funding the entity receives
and consider whether the entity has the ability
to issue bonds or levy taxes on its own behalf.
Fourth, we ask whether the entity in question is
concerned primarily with local or state affairs.
In answering this question, we examine the
agency’s function, composition, and purpose.
Steadfast Ins. Co. v. Agric. Ins. Co., 507 F.3d 1250,
1253 (10th Cir. 2007) (citations omitted). With respect
to the entity’s finances, we also must look to whether a
“money judgment sought is to be satisfied out of the
state treasury,” focusing “on legal liability for a
judgment, rather than [the] practical, or indirect,
impact a judgment would have on a state’s treasury.”
Sturdevant v. Paulsen, 218 F.3d 1160, 1164 (10th Cir.
2000) (quotation marks omitted).
Although the parties now concede that the
Department is not a person under § 1983, it was not
obvious from the face of the complaint that the
Department meets our Eleventh Amendment immunity
test (and therefore is not a person under § 1983). Thus,
the federal claim asserted is not “so insubstantial,
implausible, foreclosed by prior decisions of [the
Supreme] Court, or otherwise completely devoid of any
merit as not to involve a federal controversy.” Steel Co.,
523 U.S. at 89 (quoting Oneida Indian Nation of N.Y.,
414 U.S. at 666). When this court, and our district
courts, evaluate whether an entity, including an entity

App. 63
labeled a state’s “department,” is an arm-of-the-state
for either § 1983 personhood or Eleventh Amendment
immunity purposes, the analysis often includes a
lengthy discussion of the features of the particular
department, and when dismissal is based on a lack of
personhood under § 1983, that decision is on the
merits. See, e.g., Ruiz v. McDonnell, 299 F.3d 1173,
1180–82 (10th Cir. 2002) (analyzing whether the
Colorado Department of Human Services was entitled
to Eleventh Amendment immunity under Federal Rule
of Civil Procedure 12(b)(1), but considering whether the
Department was a person for purposes of § 1983 under
rule 12(b)(6)); V-1 Oil Co. v. Utah State Dep’t of Pub.
Safety, 131 F.3d 1415, 1420 n.1 (10th Cir. 1997)
(applying the Eleventh Amendment immunity test to
the Utah Department of Public Safety, the Utah State
Fire Marshal Division, and the Utah Liquefied
Petroleum Gas Board by analyzing state statutes and
concluding jurisdiction was lacking); Divine Church of
God & Christ v. Taxation & Revenue Dep’t, No. 972068, 1997 WL 355326, at *2 (10th Cir. June 27, 1997)
(turning to state statutes to determine whether
Taxation and Revenue Department of New Mexico met
the Eleventh Amendment immunity factors, and
holding that the district court erred in the absence of
an express waiver of immunity); Roybal-Mack v. N.M.
Dep’t of Pub. Safety, 286 F. Supp. 3d 1226, 1238–39
(D.N.M. 2017) (granting rule 12(b)(6) dismissal on
additional ground that the New Mexico Department of
Public Safety and the New Mexico State Police were
not persons under § 1983); Ross v. Colo. Dep’t of
Transp., No. 11-cv-02603-REB-KMT, 2012 WL
5975086, at *5–6 (D. Colo. Nov. 14, 2012) (concluding
the Colorado Department of Transportation did not

App. 64
meet its burden of proving it was entitled to Eleventh
Amendment immunity despite the Department arguing
it was a “‘principal department’ of the state of
Colorado”); Armijo v. New Mexico, No. CIV 08-0336
JB/ACT, 2009 WL 3672828, at *2–3 (D.N.M. Sept. 30,
2009) (concluding the New Mexico Department of
Transportation is not a person under § 1983 and
holding that “dismissal for such a defect is for failure to
state a claim under rule 12(b)(6) and not for lack of
subject-matter jurisdiction”).
For the personhood defect to deprive the district
court of federal question jurisdiction, the answer to
whether the Department is a person under § 1983 must
“so clearly result[] from the previous decisions of [the
Supreme] Court as to foreclose the subject and leave no
inference that the questions sought to be raised can be
the subject of controversy.” Goosby, 409 U.S. at 518
(quoting Ex parte Poresky, 290 U.S. at 32). But we have
found no decision of the Supreme Court that forecloses
that subject and our own precedent dictates that
whether a department is an arm of the state can be
answered only after analyzing (1) “the character
ascribed to the [Department] under state law,” (2) “the
autonomy accorded the [Department] under state law,”
(3) “the [Department’s] finance,” including “the amount
of state funding the entity receives” and whether it
“has the ability to issue bonds or levy state taxes on its
own behalf,” and (4) whether the Department “is
concerned primarily with local or state affairs.”
Steadfast Ins., 507 F.3d at 1253. Based on the factual
complexity of the required analysis, we cannot conclude
“that the cause of action alleged is so patently without
merit as to justify . . . the court’s dismissal for want [of]

App. 65
jurisdiction.” Bell, 327 U.S. at 683. Accordingly, we are
convinced the district court properly exercised
jurisdiction under § 1331.
Mr. Baca, if successful on his § 1983 claim, would be
entitled to relief in the form of nominal damages. Thus,
the issues presented in this case are still “live” and “the
parties [have] a legally cognizable interest in the
outcome.” Id. at 1256 (quoting City of Erie v. Pap’s
A.M., 529 U.S. 277, 287 (2000)). And “granting a
present determination of the issues offered . . . will
have some effect in the real world” because Mr. Baca
can receive nominal damages. Id. (quotation marks
omitted). As a result, this case is not moot and our
court has continuing jurisdiction over the issues.
Rather, the issue raised by the Department’s lack of
§ 1983 personhood is whether we should exercise our
discretion to affirm the district court on this alternative
ground, despite the Department’s waiver of that
argument. We undertake that analysis now.
V. DISCUSSION PART THREE: FAILURE TO
STATE A CLAIM
Having concluded Mr. Baca has standing and that
this case is not moot, we proceed to the third part of
this opinion: whether the district court’s alternative
dismissal under rule 12(b)(6) based on failure to state
a claim is correct. But, because we have determined
Mr. Baca has standing based only on his removal from
office and the nullification of his vote, we limit our
analysis to that claim. We begin by setting forth the
relevant standard of review. Then, we pause to address
whether we should affirm the district court’s rule
12(b)(6) dismissal on the alternative ground that the

App. 66
Department is not a person for purposes of § 1983.
Finally, because we decline to exercise our discretion to
affirm the district court on an alternative ground, we
consider whether Mr. Baca has stated a valid claim of
deprivation of his constitutional rights.
A. Standard of Review
We review de novo the grant of a motion to dismiss
under Federal Rule of Civil Procedure 12(b)(6). Albers
v. Bd. of Cty. Comm’rs of Jefferson Cty., Colo., 771 F.3d
697, 700 (10th Cir. 2014). “To survive a motion to
dismiss, a plaintiff must plead facts sufficient to state
a claim to relief that is plausible on its face.” Id.
(internal quotation marks omitted). “[W]e must accept
all the well-pleaded allegations of the complaint as true
and must construe them in the light most favorable to
the plaintiff.” Id. (quotation marks omitted).
B. “Person” Under § 1983
Before we turn to the correctness of the district
court’s order dismissing Mr. Baca’s claim under rule
12(b)(6) for failure to plead a constitutional violation,
we must first decide whether to affirm the district
court on an alternative nonconstitutional ground—that
Mr. Baca’s claim fails under rule 12(b)(6) because the
Department is not a person under § 1983.
“[I]t is ‘a well-established principle governing the
prudent exercise of this Court’s jurisdiction that
normally the Court will not decide a constitutional
question if there is some other ground upon which to
dispose the case.’” Bond v. United States, 572 U.S. 844,
855 (2014) (quoting Escambia Cty. v. McMillan, 466
U.S. 48, 51 (1984) (per curiam)). An appeal “brings

App. 67
before this Court not merely the constitutional question
decided below, but the entire case,” which “includes
nonconstitutional questions actually decided by the
lower court as well as nonconstitutional grounds
presented to, but not passed on, by the lower court.”
Zobrest v. Catalina Foothills Sch. Dist., 509 U.S. 1, 7
(1993) (quoting United States v. Locke, 471 U.S. 84, 92
(1985)). But an appeal does not bring before the court
nonconstitutional grounds never raised. See id. at 8.
And where “the parties chose to litigate the case on the
federal constitutional issues alone,” both before the
district court and the court of appeals, “the prudential
rule of avoiding constitutional questions has no
application. The fact that there may be buried in the
record a nonconstitutional ground for decision is not by
itself enough to invoke this rule.” Id. at 7–8. But see
United States v. Cusumano, 83 F.3d 1247, 1251 (10th
Cir. 1996) (en banc) (quoting favorably, in dicta, the
dissent in Zobrest). Although this court has “discretion
to affirm on any ground adequately supported by the
record,” in exercising that discretion we must “consider
whether the ground was fully briefed and argued here
and below.” Elkins v. Comfort, 392 F.3d 1159, 1162
(10th Cir. 2004).
Here, the Department moved to dismiss the
Presidential Electors’ claims under Federal Rule of
Civil Procedure 12(b)(6) based solely on the contention
that the Department’s actions did not violate Article II
or the Twelfth Amendment. And the district court’s
alternative dismissal under rule 12(b)(6) likewise
focused solely on the constitutionality of the
Department’s actions. Before this court, the
Department again focused solely on whether Article II

App. 68
and the Twelfth Amendment were violated by the
Department’s actions. The Department has never
suggested that rule 12(b)(6) dismissal is appropriate
because the Department is not a person for purposes of
§ 1983. To the contrary, the Department made clear in
its supplemental briefing that it expressly waives any
argument in this case that it is not a person under
§ 1983.
Based on this procedural history, we decline to
affirm the district court’s decision on the alternative
ground that the Department is not a person under
§ 1983. The Department has “chose[n] to litigate the
case on the federal constitutional issues alone,” both
before the district court and this court. Zobrest, 509
U.S. at 7–8. And although we must raise jurisdictional
issues sua sponte, Koerpel v. Heckler, 797 F.2d 858, 861
(10th Cir. 1986), there is nothing in § 1983 that
“speak[s] in jurisdictional terms or refer[s] in any way
to the jurisdiction of the district courts,” Arbaugh, 546
U.S. at 515 (quoting Zipes v. Trans World Airlines, Inc.,
455 U.S. 385, 394 (1982)). “[W]hen Congress does not
rank a statutory limitation on coverage as
jurisdictional,” such as § 1983’s limitation to claims
against persons, “courts should treat the restriction as
nonjurisdictional in character” and address the
requirement as “an element of a plaintiff’s claim for
relief, not a jurisdictional issue.” Id. at 515–16
(determining Title VII’s application to entities with 15
or more employees is nonjurisdictional).14 And a
14

The dissent cites Lexmark International, Inc. v. Static Control
Components, Inc., for the proposition that we cannot “recognize a
cause of action that Congress has denied.” 572 U.S. 118, 128

App. 69
plaintiff’s failure to meet that element is an argument
that can be forfeited by a defendant. See Howlett, 496
U.S. at 381 (“Respondents also argue in their brief on
the merits that a Florida school board is an arm of the
State and thus is not a person under § 1983. This
contention was not presented in respondent’s brief in
opposition to the petition for certiorari, and we decline
to reach it here.”). The Department has expressly
waived the failure of this element, and the issue of
whether the Department is a person under § 1983 is
not a jurisdictional issue that this court must raise sua
sponte.15

(2014); Dissenting Op. at 4. But Lexmark’s statement was in the
context of whether a plaintiff had statutory standing to sue—an
issue the court must address sua sponte. See 572 U.S. at 126–28.
Outside that context, the Court has enforced the waiver of
statutory elements. For example, Congress did not create a Title
VII cause of action against an employer with fewer than fifteen
employees. 42 U.S.C. §§ 2000e(b), 2000e-2(a). But the Supreme
Court held in Arbaugh v. Y&H Corp. that this limitation was
nonjurisdictional and therefore waivable. 546 U.S. 500, 514–15 (2006).
Similarly, Congress did not create a § 1983 action against arms
of the states. But this requirement is a nonjurisdictional element
of a plaintiff’s claim. “Nothing in the text of [§ 1983] indicates that
Congress intended courts, on their own motion, to assure that the
[personhood] requirement is met.” Id. at 514.
15

The Presidential Electors filed a motion with this court seeking
leave to conform the Second Amended Complaint to state a claim
directly under the Constitution rather than § 1983, if this court
determined the failure to meet the “person” element of a § 1983
claim created a jurisdictional barrier. Because we conclude there
is no jurisdictional defect, we deny without prejudice the
Presidential Electors’ motion to conform the Second Amended
Complaint as moot.

App. 70
For these reasons, we decline to affirm the district
court’s decision to dismiss Mr. Baca’s claim under rule
12(b)(6) on the alternative ground that the Department
is not a person under § 1983. Instead, we proceed to the
issue of whether the district court correctly dismissed
Mr. Baca’s complaint for failure to allege the
deprivation of a constitutional right.
C. Constitutional Violation
Mr. Baca sued under 42 U.S.C. § 1983 for an alleged
deprivation of his constitutional rights provided by
Article II and the Twelfth Amendment. The district
court dismissed his claims because it concluded that
§ 1-4-304(5) merely “codifies the historical
understanding and longstanding practice of binding
electors to the People’s vote.” App. at 93. Mr. Baca
challenges this determination, arguing that electors are
constitutionally permitted to exercise independence
and discretion based on Article II and the Twelfth
Amendment, and that Colorado’s interference with that
power by removing Mr. Baca and nullifying his vote for
refusing to comply with the vote-binding provision in
§ 1-4-304(5) violates his constitutional rights.
In order to determine whether Mr. Baca stated a
claim under § 1983, we must first determine whether
Article II and the Twelfth Amendment provide Mr.
Baca a “right” within the meaning of § 1983. Dennis v.
Higgins, 498 U.S. 439, 448 (1991). This analysis
involves three considerations: (1) “whether the
provision in question creates obligations binding on the
governmental unit or rather ‘does no more than express
a congressional preference for certain kinds of
treatment,’” (2) whether “[t]he interest the plaintiff

App. 71
asserts [is] ‘too vague and amorphous’ to be ‘beyond the
competence of the judiciary to enforce,’” and
(3) “whether the provision in question was ‘intend[ed]
to benefit’ the putative plaintiff.” Id. at 448–49 (third
alteration in original) (quoting Golden State Transit
Corp. v. City of L.A., 493 U.S. 103, 106 (1989)).
The parties did not brief to the district court, and
the district court did not consider, whether Article II
and the Twelfth Amendment provide a “right” within
the meaning of § 1983. Nor did the parties adequately
raise this issue in their briefing to this court.16 Instead,
the parties focus their argument on the contours of the
rights provided to presidential electors and to states
under Article II and the Twelfth Amendment and
whether the Department’s actions violated any rights
provided presidential electors. The issue we must
address in this case is therefore whether the
Department violated any constitutional right Article II
and the Twelfth Amendment confer on Mr. Baca based
on the delineation of those rights.
To resolve this dispute, we examine the operations
of the Electoral College created by the United States
Constitution, and particularly the phenomenon known

16

In a footnote in its standing argument, the Department argues
that Article II and the Twelfth Amendment are not privately
enforceable under § 1983 because “[m]erely exercising a ‘federal
function’ under the cited provisions does not, by itself, confer
constitutional rights that may be vindicated in federal court.”
Dep’t’s Br. at 30 n.4. This argument is inadequately briefed and
therefore waived. Alder v. Wal-Mart Stores, Inc., 144 F.3d 664, 679
(10th Cir. 1998).

App. 72
as “faithless” or “anomalous” electors.17 The precise
question before this court is whether the states may
constitutionally remove a presidential elector during
voting and nullify his vote based on the elector’s failure
to comply with state law dictating the candidate for
whom the elector must vote.
We begin our analysis by quoting the relevant
constitutional text from Article II and the Twelfth
Amendment. Then we consider Supreme Court
precedent to determine whether the Court has resolved
this issue. Concluding it has not, we undertake that
task, first identifying the proper framing of the
question based on the Supremacy Clause and the Tenth
Amendment. Next, we interpret Article II and the
Twelfth Amendment, beginning with an analysis of the
constitutional text, followed by a discussion of the
historical context of the Twelfth Amendment, historical
practices of the Electoral College, and authoritative
sources.
1. The Federal Constitution
The original federal Constitution set forth the
method for selecting the President of the United States

17

The term “Electoral College” is not used in the Constitution but
has come to refer to the presidential electors created by Article II,
Section 1. Traditionally, presidential electors who cast a vote
contrary to the appointing power’s wishes or contrary to the
elector’s pledge have been referred to as “faithless electors.” More
recently, some commentators have substituted the term
“anomalous electors” to avoid the pejorative connotation implicit
in the more traditional phrase. For purposes of this opinion, we use
the terms interchangeably.

App. 73
in Article II, Section 1. At that time, the Constitution
provided, in relevant part:
The executive Power shall be vested in a
President of the United States of America. He
shall hold his Office during the Term of four
Years, and, together with the Vice President,
chosen for the same Term, be elected, as follows:
Each State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of
Electors, equal to the whole Number of Senators
and Representatives to which the State may be
entitled in the Congress: but no Senator or
Representative, or Person holding an Office of
Trust or Profit under the United States, shall be
appointed an Elector.
The Electors shall meet in their respective
States, and vote by Ballot for two Persons, of
whom one at least shall not be an Inhabitant of
the same State with themselves. And they shall
make a List of all the Persons voted for, and of
the Number of Votes for each; which List they
shall sign and certify, and transmit sealed to the
Seat of the Government of the United States,
directed to the President of the Senate. The
President of the Senate shall, in the Presence of
the Senate and House of Representatives, open
all the Certificates, and the Votes shall then be
counted. The Person having the greatest
Number of Votes shall be the President, if such
Number be a Majority of the whole Number of
Electors appointed; and if there be more than
one who have such Majority, and have an equal

App. 74
Number of Votes, then the House of
Representatives shall immediately chuse by
Ballot one of them for President; and if no
Person have a Majority, then from the five
highest on the List the said House shall in like
Manner chuse the President. But in chusing the
President, the Votes shall be taken by States,
the Representation from each State having one
Vote; A quorum for this Purpose shall consist of
a Member or Members from two thirds of the
States, and a Majority of all the States shall be
necessary to a Choice. In every Case, after the
Choice of the President, the Person having the
greatest Number of Votes of the Electors shall be
the Vice President. But if there should remain
two or more who have equal Votes, the Senate
shall chuse from them by Ballot the Vice
President.
The Congress may determine the Time of
chusing the Electors, and the Day on which they
shall give their Votes; which Day shall be the
same throughout the United States.
U.S. Const., art. II, § 1, cls. 1–4, amended by U.S.
Const. amend. XII. Under the original version of this
section, the electors each voted for two candidates. The
person with the most votes became President, while the
person with the second-highest number of votes became
Vice President. Id.
Almost immediately, the practical application of the
Electoral College proved disappointing. For example, in
1796, the presidential electors selected Federalist
candidate, John Adams, as President, but paired him

App. 75
with a political rival, Republican Thomas Jefferson, as
Vice President. See Ray, 343 U.S. at 224 n.11. Then in
the election of 1800, two Republicans—Thomas
Jefferson and Aaron Burr—each received the same
number of electors’ votes. 10 Annals of Cong. 1024
(1801). This threw the election into the House, where
it took over thirty rounds of voting to break the tie. Id.
at 1028.
These experiences convinced the founders that a
change had to be made. In 1804, the Twelfth
Amendment to the United States Constitution was
ratified. It modified the requirements in Article II,
Section 1, Clause 3, and provides:
The Electors shall meet in their respective states
and vote by ballot for President and VicePresident, one of whom, at least, shall not be an
inhabitant of the same state with themselves;
they shall name in their ballots the person voted
for as President, and in distinct ballots the
person voted for as Vice-President, and they
shall make distinct lists of all persons voted for
as President, and of all persons voted for as
Vice-President, and of the number of votes for
each, which lists they shall sign and certify, and
transmit sealed to the seat of the government of
the United States, directed to the President of
the Senate; — the President of the Senate shall,
in the presence of the Senate and House of
Representatives, open all the certificates and the
votes shall then be counted; — The person
having the greatest number of votes for
President, shall be the President, if such number

App. 76
be a majority of the whole number of Electors
appointed; and if no person have such majority,
then from the persons having the highest
numbers not exceeding three on the list of those
voted for as President, the House of
Representatives shall choose immediately, by
ballot, the President. But in choosing the
President, the votes shall be taken by states, the
representation from each state having one vote;
a quorum for this purpose shall consist of a
member or members from two-thirds of the
states, and a majority of all the states shall be
necessary to a choice. [And if the House of
Representatives shall not choose a President
whenever the right of choice shall devolve upon
them, before the fourth day of March next
following, then the Vice-President shall act as
President, as in case of the death or other
constitutional disability of the President. — The
person having the greatest number of votes as
Vice-President, shall be the Vice-President, if
such number be a majority of the whole number
of Electors appointed, and if no person have a
majority, then from the two highest numbers on
the list, the Senate shall choose the VicePresident; a quorum for the purpose shall
consist of two-thirds of the whole number of
Senators, and a majority of the whole number
shall be necessary to a choice. But no person
constitutionally ineligible to the office of
President shall be eligible to that of VicePresident of the United States.
U.S. Const. amend. XII.

App. 77
With these changes, the electors voted separately
for President and Vice President, thereby reducing the
risk of a tie or split ticket. Since 1804, there has been
a single further amendment to the formation or
operation of the Electoral College—the Twenty-Third
Amendment provides the District of Columbia with
votes in the electoral college, and the District’s
designated voters are “considered, for the purposes of
the election of President and Vice President, to be
electors appointed by a State.” Id. amend. XXIII.
2. Legal Precedent
Little case law explores the independence of electors
under the Twelfth Amendment or whether electors can
be removed for exercising such independence. To the
extent the Supreme Court has commented on the
question, both the Court and individual Justices have
suggested the Constitution—as originally understood—
recognized elector independence. See McPherson v.
Blacker, 146 U.S. 1, 36 (1892) (“Doubtless it was
supposed that the electors would exercise a reasonable
independence and fair judgment in the selection of the
chief executive, but experience soon demonstrated that
. . . they were so chosen simply to register the will of
the appointing power in respect of a particular
candidate. In relation, then, to the independence of the
electors, the original expectation may be said to have
been frustrated.”); Williams v. Rhodes, 393 U.S. 23,
43–44 (1968) (Harlan, J., concurring in the result)
(“The College was created to permit the most
knowledgeable members of the community to choose
the executive of a nation whose continental dimensions
were thought to preclude an informed choice by the

App. 78
citizenry at large.”); Ray, 343 U.S. at 232 (Jackson, J.,
dissenting) (“No one faithful to our history can deny
that the plan originally contemplated, what is implicit
in its text, that electors would be free agents, to
exercise an independent and nonpartisan judgment as
to the men best qualified for the Nation’s highest
offices. Certainly under that plan no state law could
control the elector in performance of his federal duty,
any more than it could a United States Senator who
also is chosen by, and represents, the State.”).
The Supreme Court, however, has considered a
closely analogous question—whether a primary
candidate for party elector can be required to pledge to
support the party’s candidate. See Ray, 343 U.S. at 224.
In Ray, the Democratic Party challenged the Alabama
Supreme Court’s determination that requiring a
primary candidate for presidential elector to pledge
support for the party’s candidate violated the Twelfth
Amendment. 343 U.S. at 215. In Alabama, political
parties were “given the power to fix political or other
qualifications for its own members” and could
“determine who shall be entitled and qualified to vote
in the primary election or to be a candidate therein.”
Id. at 217. The Democratic Party required candidates
for presidential elector to take a pledge to support “the
nominees of the National Convention of the Democratic
Party for President and Vice-President of the United
States.” Id. at 215.
In analyzing whether the Twelfth Amendment
prohibited a political party from requiring such a
pledge, the Court began by noting the Constitution is
silent on the issue:

App. 79
[t]he applicable constitutional provisions on
their face furnish no definite answer to the
query whether a state may permit a party to
require party regularity from its primary
candidates for national electors. . . . Neither the
language of Art. II, [§] 1, nor that of the Twelfth
Amendment forbids a party to require from
candidates in its primary a pledge of political
conformity with the aims of the party. Unless
such a requirement is implicit, certainly neither
provision of the Constitution requires a state
political party, affiliated with a national party
through acceptance of the national call to send
state delegates to the national convention, to
accept persons as candidates who refuse to agree
to abide by the party’s requirement.
Id. at 224–25. The Supreme Court concluded a state
political party could require pledges because Alabama’s
“primary and general elections are a part of the statecontrolled elective process.” Id. at 227. This process
was “an exercise of the state’s right to appoint electors
in such manner, subject to possible constitutional
limitations, as it may choose.” Id. (citing U.S. Const.
art. II, § 1). Therefore, “[t]he fact that the primary is
part of the election machinery is immaterial unless the
requirement of pledge violates some constitutional or
statutory provision.” Id.
The Supreme Court next “consider[ed] the
argument that the Twelfth Amendment demands
absolute freedom for the elector to vote his own choice,
uninhibited by pledge.” Id. at 228 (emphasis added). On
this point, the Supreme Court explained:

App. 80
It is true that the Amendment says the electors
shall vote by ballot. But it is also true that the
Amendment does not prohibit an elector’s
announcing his choice beforehand, pledging
himself. The suggestion that in the early
elections candidates for electors—
contemporaries of the Founders—would have
hesitated, because of constitutional limitations,
to pledge themselves to support party nominees
in the event of their selection as electors is
impossible to accept. History teaches that the
electors were expected to support the party
nominees. Experts in the history of government
recognize the longstanding practice. Indeed,
more than twenty states do not print the names
of the candidates for electors on the general
election ballot. Instead in one form or another
they allow a vote for the presidential candidate
of the national conventions to be counted as a
vote for his party’s nominees for the electoral
college. This long-continued practical
interpretation of the constitutional propriety of
an implied or oral pledge of his ballot by a
candidate for elector as to his vote in the
electoral college weighs heavily in considering
the constitutionality of a pledge, such as the one
here required, in the primary.
Id. at 228–30 (emphases added) (footnotes omitted).
From this discussion, it is apparent there is no
prohibition on a nominee for elector pledging to vote for
a particular candidate, at least with respect to the
primary election at issue in Ray.

App. 81
But the Supreme Court went on to state:
[E]ven if such promises of candidates for the
electoral college are legally unenforceable
because violative of an assumed constitutional
freedom of the elector under the Constitution,
Art. II, [§] 1, to vote as he may choose in the
electoral college, it would not follow that the
requirement of a pledge in the primary is
unconstitutional. A candidacy in the primary is
a voluntary act of the applicant. He is not
barred, discriminatorily, from participating but
must comply with the rules of the party. Surely
one may voluntarily assume obligations to vote
for a certain candidate. The State offers him
opportunity to become a candidate for elector on
his own terms, although he must file his
declaration before the primary.
Id. at 230 (emphases added).
Three important aspects of the Court’s opinion in
Ray prevent its holding from controlling the question
presented here. First, the Court did not decide whether
the pledge in Ray could be legally enforced. Id. at 230
(“[E]ven if such promises of candidates for the electoral
college are legally unenforceable because violative of an
assumed constitutional freedom of the elector under
the Constitution . . . to vote as he may choose in the
electoral college, it would not follow that the
requirement of a pledge in the primary is
unconstitutional.”). Here, we cannot leave that
question open. Mr. Baca has alleged that § 1-4-304(5)
was enforced against him and used to remove him from
his role as an elector in violation of the federal

App. 82
Constitution. Therefore, unlike the Court in Ray, we
must decide whether a requirement to vote for a
particular candidate can be legally enforced by removal
of the elector and nullification of his vote.
Second, Ray notes that an individual could become
a candidate for presidential elector, without taking a
pledge, through an alternative method allowing
independent electors to appear on the ballot. Id. at 230.
In Ray, the decision to enter a party’s primary and
“comply with the rules of the party,” including
undertaking the pledge, was truly “a voluntary act of
the applicant.” Id. In contrast, the Colorado statute at
issue here, § 1-4-304(5), mandates compliance by every
person appointed as an elector. And there is no
alternative path by which an elector can appear on the
ballot without complying with § 1-4-304(5).
Third, in Ray, the Court considered a requirement
for the state’s appointment of electors; nothing in the
opinion speaks to the removal of electors who have
begun performing their federal function. The Court
recognized that “[a] state’s or a political party’s
exclusion of candidates from a party primary because
they will not pledge to support the party’s nominees is
a method of securing party candidates in the general
election, pledged to the philosophy and leadership of
that party.” Id. at 227. This action “is an exercise of the
state’s right to appoint electors in such manner, subject
to possible constitutional limitations, as it may choose.”
Id. (emphasis added). “Where a state authorizes a
party to choose its nominees for elector in a party
primary and to fix the qualifications for the
candidates,” there is no constitutional objection to

App. 83
requiring a pledge in the primary to support the party’s
nominees. Id. at 231.
Ray’s holding is narrow. The Court recognized the
states’ plenary power to determine how electors are
appointed. See U.S. Const., art. II, § 1, cl. 2; see also
Bush v. Gore, 531 U.S. 98, 104 (2000). It then held this
power can include requiring individuals seeking
appointment as electors in a party’s primary to take a
(potentially unenforceable) pledge to vote for a specific
candidate for President or Vice President. Ray, 343
U.S. at 227. But Ray does not address restrictions
placed on electors after appointment or actions taken
against faithless electors who have performed their
federal function by voting for a different presidential or
vice presidential candidate than those they pledged to
support. Indeed, Ray does not decide whether pledges
taken at any stage of the process can be enforced at all,
let alone through removal of an elector and
nullification of the elector’s vote.
Overall, Ray is materially distinguishable from the
facts here and thus leaves open the relevant
enforcement question, even in the context of a state
primary election. We turn to that question now,
beginning with the relevant standard of review. We
then consider Mr. Baca’s reliance on the supremacy
clause, specifically rejecting the Department’s attempt
to limit its reach to preemption jurisprudence.

App. 84
3. Framing the Question
As a general rule, we interpret the Constitution
according to its text. See Utah v. Evans, 536 U.S. 452,
474 (2002) (beginning with a review of the text of the
Census Clause before considering its historical
application). But when the constitutional question is
one “of which the great principles of liberty are not
concerned, but [instead raises] the respective powers of
those who are equally the representatives of the
people,” our interpretation “ought to receive a
considerable impression from [government] practice.”
M’Culloch v. State, 17 U.S. 316, 401 (1819). When
applying constitutional text, “we are guided by the
principle that ‘[t]he Constitution was written to be
understood by the voters; its words and phrases were
used in their normal and ordinary as distinguished
from technical meaning.’” District of Columbia v.
Heller, 554 U.S. 570, 576 (2008) (quoting United States
v. Sprague, 282 U.S. 716, 731 (1931)).
In this appeal, we must interpret Article II and the
Twelfth Amendment. But the parties disagree about
how to frame the question. Mr. Baca contends we must
determine whether “[t]he Constitution’s text requires
elector discretion.” Presidential Electors’ Reply at 11.
Mr. Baca further contends that the Supremacy Clause
prohibits states from interfering with a presidential
elector’s performance of a federal function. The
Department argues instead that we must decide
whether there is “any constitutional bar against the
States binding their electors to the outcome of the
State’s popular vote.” Dep’t’s Br. at 54. Pointing to the
Tenth Amendment, the Department claims that in the

App. 85
absence of such a bar, the states have the power to bind
or remove electors. And the Department further argues
that, even if the Tenth Amendment does not retain for
the states the power to remove or bind electors, that
power can be found in the express power to appoint
electors.
Therefore, we begin our analysis by turning to the
Supremacy Clause to place the controversy in context.
Then, we shift focus to the Tenth Amendment to
determine whether it could reserve to the states the
power to bind or remove electors. Concluding that it
could not, we next consider whether the Constitution
has delegated such power to the states. In answering
that question, we reject the Department’s argument
that the power to appoint electors necessarily includes
the power to remove them and to cancel an already-cast
vote. We then examine the remaining text of Article II,
as modified by the Twelfth Amendment, to decide
whether it delegates to the states the power to bind or
remove electors. For the reasons we now explain, we
conclude that it does not.
a. Supremacy clause
“It is a seminal principle of our law ‘that the
constitution and the laws made in pursuance thereof
are supreme; that they control the constitution and
laws of the respective States, and cannot be controlled
by them.’” Hancock v. Train, 426 U.S. 167, 178 (1976)
(quoting McCulloch v. Maryland, 4 Wheat. 316, 426
(1819)). “[T]he very essence of supremacy [is] to remove
all obstacles to its action within its own sphere, and so
to modify every power vested in subordinate
governments as to exempt its own operation from their

App. 86
own influence.” Id. (quoting McCulloch, 4 Wheat. at
427). To this end, the Supreme Court has held that “the
function of a state Legislature in ratifying a proposed
amendment to the federal Constitution, like the
function of Congress in proposing the amendment, is a
federal function derived from the federal Constitution;
and it transcends any limitations sought to be imposed
by the people of a state.” Leser v. Garnett, 258 U.S. 130,
136 (1922) (emphases added); see also Hawke v. Smith,
253 U.S. 221, 230–31 (1920) (holding a provision of the
Ohio Constitution requiring the submission of proposed
constitutional amendments to referendum vote after
ratification by the state legislature violated Article V of
the United States Constitution). And, relevant here,
the Supreme Court has instructed that presidential
electors “exercise federal functions under, and
discharge duties in virtue of authority conferred by, the
Constitution of the United States.” Burroughs v. United
States, 290 U.S. 534, 545 (1934); see also Ray, 343 U.S.
at 224–25 (recognizing “presidential electors exercise a
federal function in balloting for President and VicePresident” and they “act by authority of the state that
in turn receives its authority from the federal
constitution”). As a result, Mr. Baca contends the
Department, acting through Secretary Williams,
unconstitutionally interfered with his performance of
a federal function in his role as presidential elector.18

18

“[T]he Supremacy Clause, of its own force, does not create rights
enforceable under § 1983.” Golden State Transit Corp. v. City of
L.A., 493 U.S. 103, 107 (1989) (footnote omitted). But we turn to
the Supremacy Clause to help frame our analysis of the respective
rights assigned by the Constitution to presidential electors and the
states.

App. 87
According to the Department, Mr. Baca is asserting
classic conflict preemption, which is inapplicable here
because § 1-4-304(5) does not conflict with or frustrate
any federal objectives. Instead, the Department claims
the statute furthers congressional objectives, as
reflected by Congress’s enactment of a similar statute
for the District of Columbia’s electors, as well as a
statute that permits states to make the final
determination regarding any controversy or contest
regarding the appointment of state electors.19 The
Department therefore urges this court to conclude
there is no conflict preemption.
The Department’s argument misunderstands the
scope of the Supremacy Clause. It is true that all types
of preemption stem from the Supremacy Clause. See
Colo. Dep’t of Pub. Health & Env’t, Hazardous
Materials & Waste Mgmt. Div. v. United States, 693
F.3d 1214, 1222 (10th Cir. 2012) (“In light of the
federal Constitution’s Supremacy Clause, it has long
been recognized that federal law preempts contrary
state enactments.” (footnote omitted) (internal
19

By Constitutional amendment, the District of Columbia is
entitled to electors who “shall [be] appoint[ed] in such manner as
the Congress may direct,” and who “shall be considered, for the
purposes of the election of President and Vice President, to be
electors appointed by a state.” U.S. Const. amend. XXIII. The
Department points to the statute attempting to bind electors in the
District of Columbia to the winner of the popular vote as evidence
that it is consistent with Congress’s objectives for presidential
electors to be subject to vote-binding provisions, and therefore that
§ 1-4-304(5) does not violate Supremacy Clause principles. But this
turns the Supremacy Clause on its head. Congress’s power to
adopt legislation is cabined by the powers granted in the
Constitution, not the converse.

App. 88
quotation marks omitted)). But the Supremacy Clause
is broader than preemption; it immunizes all federal
functions from limitations or control by the states.
Hancock, 426 U.S. at 178-79; Leser, 258 U.S. at 136.
Therefore, in determining whether Mr. Baca has
stated a plausible claim for relief based on his removal
from his role of elector and the nullification of his vote,
we must decide whether the Constitution allows states
to take such action against presidential electors
exercising their federal function. In undertaking this
analysis, we begin with the Tenth Amendment to
resolve the parties’ arguments regarding how to frame
the question: if we ask whether the Constitution
permits states from removing electors and nullifying
nonconforming votes, or if the proper inquiry is
whether such activity is prohibited.
b. Tenth Amendment
The Department argues that, even if the
Constitution is silent on the question, “the power to
bind or remove electors is properly reserved to the
States under the Tenth Amendment.” Dep’t’s Br. at
47–48. The Tenth Amendment states, “[t]he powers not
delegated to the United States by the Constitution, nor
prohibited by it to the States, are reserved to the States
respectively, or to the people.” U.S. Const. amend. X.
Thus, in many instances, silence is properly interpreted
as an intent that the relevant power be retained by the
states. But that is not true here.
The Supreme Court has instructed that the Tenth
Amendment “could only ‘reserve’ that which existed
before.” U.S. Term Limits, Inc. v. Thornton, 514 U.S.

App. 89
779, 802 (1995). Thus, “the states can exercise no
powers whatsoever, which exclusively spring out of the
existence of the national government, which the
constitution does not delegate to them. . . . No state can
say, that it has reserved, what it never possessed.” Id.
(alteration in original) (quoting 1 Story § 627)). In U.S.
Term Limits, the Supreme Court held the states had no
right to impose additional qualifications on
Congressmen, stating, “as the Framers recognized,
electing representatives to the National Legislature
was a new right, arising from the Constitution itself.”
Id. The Tenth Amendment, therefore, “provides no
basis for concluding that the States possess reserved
power to add qualifications to those that are fixed in
the Constitution.” Id. Instead, such power “must derive
not from the reserved powers of state sovereignty, but
rather from the delegated powers of national
sovereignty. In the absence of any constitutional
delegation to the States of power to add qualifications
to those enumerated in the Constitution, such a power
does not exist.”20 Id.

20

Mr. Baca also argues that requiring electors to vote for the
candidate winning the popular vote in the state unconstitutionally
adds new requirements for both holding the office of elector and
the office of President and Vice President. Cf. U.S. Term Limits,
Inc. v. Thornton, 514 U.S. 779, 827 (1995) (concluding states
cannot constitutionally add qualifications to serve in Congress
beyond those included in the Constitution). Because we conclude
the Constitution does not provide the states the power to remove
electors on other grounds, we need not decide whether Mr. Baca’s
removal was also unconstitutional because it was based on an
unconstitutional qualification.

App. 90
The same calculus applies to presidential electors.
The Tenth Amendment could not “reserve” to the states
the power to remove or bind electors because no such
power was held by the states before adoption of the
federal Constitution. Id. at 803–04 (“It is no original
prerogative of state power to appoint a representative,
a senator, or president for the union.”) (quoting 1 Story
§ 627)). Rather, “the provisions governing elections
reveal the Framers’ understanding that powers over
the election of federal officers had to be delegated to,
rather than reserved by, the States.” Id. at 804. The
Tenth Amendment thus can provide no basis for
removing electors or canceling their votes in the
absence of an express delegation in the Constitution of
that power. And where the Constitution is silent, there
is no “constitutional delegation to the States to [remove
electors after they have been appointed or to strike
their votes], such a power does not exist.” Id.
As a result, because the Tenth Amendment could
not reserve to the states the power to remove electors
or cancel their votes, the states possess such power
only if expressly delegated by the Constitution.
4. Constitutional Text
Because we conclude the Tenth Amendment could
not reserve to the states the power to remove from
office and nullify the vote of a presidential elector, we
must determine whether the Constitution expressly
permits such acts. We begin by addressing the
Department’s argument that the state’s constitutional
power to appoint electors includes the power to remove
them and to nullify their votes. Determining it does
not, we next ascertain whether the remainder of Article

App. 91
II and the Twelfth Amendment delegate the states
such power. Again answering that question in the
negative, we consider what constitutional rights Article
II and the Twelfth Amendment confer on presidential
electors.
a. Appointment power
Article II provides: “Each State shall appoint, in
such Manner as the Legislature thereof may direct, a
Number of Electors, equal to the whole Number of
Senators and Representatives to which the State may
be entitled in the Congress.” U.S. Const., art. II, § 1, cl.
2. And the Supreme Court has expressly recognized
Article II, Section 1, Clause 2 as one of the clauses
constituting an “express delegation[] of power to the
States to act with respect to federal elections.” U.S.
Term Limits, 514 U.S. at 805. Relying on cases related
to the President’s appointment and removal powers,
the Department argues this express delegation of
power in Article II includes the power to remove
electors because “the power to appoint necessarily
encompasses the power to remove.” Dep’t’s Br. at 43.
Conversely, Mr. Baca contends the President’s power to
remove subordinate executive officials, although
incidental to his appointment power, is inapposite to
the removal of presidential electors. We agree with Mr.
Baca and conclude the state’s appointment power is not
so broad as to include the ability to remove electors in
punishment for anomalous votes.
To be sure, “the state legislature’s power to select
the manner for appointing electors is plenary.” Bush,
531 U.S. at 104; see also McPherson, 146 U.S. at 35 (“In
short, the appointment and mode of appointment of

App. 92
electors belong exclusively to the states under the
constitution of the United States.”). The states
therefore have broad discretion in the process by which
they select their presidential electors. But the question
here is not over Colorado’s power to appoint electors; it
is whether this appointment power includes the ability
to remove electors and cancel already-cast votes after
the electors are appointed and begin performing their
federal function.
In arguing that the power to appoint necessarily
includes the power to remove and nullify an anomalous
vote, the Department relies on Myers v. United States,
272 U.S. 52, 175–76 (1926) (invalidating the Tenure of
Office Act of 1867 “in so far as it attempted to prevent
the President from removing executive officers who had
been appointed by him and with the advice and consent
of the Senate”). We read the holding of Myers more
narrowly than the Department.
True enough, Myers acknowledges a principle of
“constitutional and statutory construction” that “the
power of appointment carrie[s] with it the power of
removal.” 272 U.S. at 119. But the reasoning
supporting this principle illustrates that it extends
solely to the executive power. “The reason for the
principle is that those in charge of and responsible for
administering functions of the government, who select
their executive subordinates, need in meeting their
responsibility to have the power to remove those whom
they appoint.” Id. These executive officers merely “aid
[the President] in the performance of the great duties
of his office, and represent him in a thousand acts to
which it can hardly be supposed his personal attention

App. 93
is called, and thus he is enabled to fulfill the duty of his
great department, express in the phrase that ‘he shall
take care that the laws be faithfully executed.’” Id. at
133 (quoting Cunningham v. Neagle, 135 U.S. 1, 63–64
(1890)); see also U.S. Const. art. II, § 1, cl. 1 (“The
executive Power shall be vested in a President of the
United States of America.”); U.S. Const. art. II, § 3, cl.
1 (“[The President] shall take Care that the Laws be
faithfully executed, and shall Commission all the
Officers of the United States”). In the performance of
their “highest and most important duties,” the
executive officers exercise “not their own but [the
President’s] discretion,” Myers, 272 U.S. at 132, and
therefore they “must do his will,” id. at 134.
Because the President must place his “implicit
faith” in his subordinates, “[t]he moment that he loses
confidence in the intelligence, ability, or loyalty of any
one of them, he must have the power to remove him
without delay.” Id. at 134. These “imperative reasons”
necessitate the President’s “unrestricted power to
remove the most important of his subordinates in their
most important duties,” and consequently “control the
interpretation of the Constitution as to all appointed by
him.” Id. at 135. In short, this principle of
constitutional construction applies to the executive
alone: “when the grant of the executive power is
enforced by the express mandate to take care that the
laws be faithfully executed, it emphasizes the necessity
for including within the executive power as conferred
the exclusive power of removal.” Id. at 122; see also
Humphrey’s Ex’r v. United States, 295 U.S. 602, 627
(1935) (recognizing Myers “concerned ‘an officer [who]
is merely one of the units in the executive department

App. 94
and, hence, inherently subject to the exclusive and
illimitable power of removal by the Chief Executive,
whose subordinate and aid he is’” (quoting Myers, 272
U.S. at 163–64). More recently, the Supreme Court
confirmed that the executive removal power is based on
the broad grant of executive power to the President and
the President’s constitutional obligation to take care
that the laws are faithfully executed. “Since 1789, the
Constitution has been understood to empower the
President to keep [the executive] officers [who assist
the President in discharging his duties] accountable—
by removing them from office, if necessary.” Free Enter.
Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 483 (2010). “Article II confers on the President ‘the
general administrative control of those executing the
laws.’” Id. at 492 (quoting Myers, 272 U.S. at 164)). It
is the President’s “responsibility to take care that the
laws be faithfully executed,” and “the President
therefore must have some ‘power of removing those for
whom he cannot continue to be responsible.” Id. at 493
(quoting Myers, 272 U.S. at 117).
These decisions teach that the power to remove
subordinates in the executive branch derives from the
President’s broad executive power and his
responsibility to faithfully execute the laws.21 Unlike
21

To illustrate this point, we need look no further than the
Constitution’s delegation of power to the state executive to appoint
a replacement to finish the term of a Senator unable to do so. U.S.
Const. amend. XVII. (“When vacancies happen in the
representation of any State in the Senate, the executive authority
of such State shall issue writs of election to fill such vacancies:
Provided, That the legislature of any State may empower the
executive thereof to make temporary appointments until the

App. 95
the President appointing subordinates in the executive
department, states appointing presidential electors are
not selecting inferior state officials to assist in carrying
out a function for which the state is ultimately
responsible. Presidential electors exercise a federal
function—not a state function—when casting their
ballots. Burroughs, 290 U.S. at 545. When undertaking
that federal function, presidential electors are not
executing their appointing power’s function but their
own. Cf. Myers, 272 U.S. at 132 (recognizing that when
executive officers perform their “highest and most
important duties[,] . . . they act for” the President and
“are exercising not their own but his discretion”). And
unlike the Take Care Clause imposed on the President,
neither Article II nor the Twelfth Amendment instructs
the states to take care that the electors faithfully
perform their federal function. From this we conclude
that the states’ power to appoint electors does not
include the power to remove them or to nullify their
votes.22
people fill the vacancies by election as the legislature may direct.”).
Under the Department’s theory, the power of the state executive
to appoint the replacement Senator would include the power to
interrupt a session of the United States Senate and demand that
a vote cast by the replacement Senator be nullified. We can find
nothing in the Constitution that would allow this state intrusion
on the operations of the federal government.
22

Even if the power to appoint did include the power to remove,
however, that power would not be without limitation. The powers
granted to the states by the Constitution “are always subject to the
limitation that they may not be exercised in a way that violates
other specific provisions of the Constitution.” Williams, 393 U.S.
at 29. It cannot “be thought that the power to select electors could
be exercised in such a way as to violate express constitutional

App. 96
b. Article II and the Twelfth Amendment
Having determined that neither the Tenth
Amendment nor the power to appoint electors provides
the states with the power to remove electors and nullify
their votes, we turn to the language of Article II, as
modified by the Twelfth Amendment.23 We first analyze
the text to determine what role, if any, the states play
in the presidential and vice presidential selection
process after appointment of the electors. Based on our
reading, we conclude the express duties of the states
are limited to appointment of the presidential electors.
Next, we consider Mr. Baca’s argument that the use of
the terms “elector,” “vote,” and “ballot” support a
reading of Article II that permits them to vote free from
state interference. We agree that contemporaneous
commands that specifically bar States from passing certain kinds
of laws.” Id. In the same regard, it cannot be thought that the
power to remove electors could be exercised in contravention of an
express constitutional command.
As we discuss below, the Constitution provides presidential
electors with discretion in casting their votes for President and
Vice President, and expressly requires that all votes cast for
President and Vice President be listed and delivered to the Senate.
As a result, a state could not constitutionally exercise any
presumed removal power in contravention of these constitutional
mandates.
23

Most of the Department’s arguments focus on whether the text
of the Twelfth Amendment prohibits, rather than permits, the
states’ interference with electors by binding their votes, removing
them from office, or discarding their votes. But, as discussed above,
the Tenth Amendment could not reserve to the states any power
over the electors. Therefore, the states have power to interfere
with electors exercising their federal function only if the
Constitution delegates that power to the states.

App. 97
usage of these terms supports Mr. Baca’s position.
Finally, we turn to the historical context of the Twelfth
Amendment and its impact on Article II, as originally
drafted. Based on our review, we conclude the states
may not interfere with a presidential elector who
exercises discretion in casting votes for the President
and Vice President of the United States.
i. Role of the states after appointment
According to Mr. Baca, the states have no right to
remove appointed electors or strike their votes because
the Constitution provides no role for the states after
appointment. Based on a close reading of the text of the
Twelfth Amendment, we agree that the Constitution
provides no express role for the states after
appointment of its presidential electors.
Article II, as modified by the Twelfth Amendment,
describes the process for selecting a President and Vice
President in unusual detail, assigning specific duties to
identified actors. The process begins with the state
appointing electors on the date selected by Congress.
See U.S. Const. art. II, § 1, cls. 2, 4. As discussed, the
states have plenary power to decide how those electors
are selected. Id. art. II, § 1, cl. 2 (“Each State shall
appoint, in such Manner as the Legislature thereof
may direct . . . .”); Bush, 531 U.S. at 104. But the states
are not mentioned again in Article II, and the
Constitution affords them no other role in the selection
of the President and Vice President. Instead, every step
thereafter is expressly delegated to a different body.
Article II charges Congress with selecting the date
on which the electors will cast their votes. U.S. Const.

App. 98
art. II, § 1, cl. 4. The Twelfth Amendment next provides
that the electors shall meet on that day in their
respective states to “vote by ballot for President and
Vice President.” Id. amend. XII. The electors then must
“name in their [distinct] ballots the person voted for as
President[] and . . . Vice-President.” Id. After the
electors cast their ballots, it is the electors who “shall
make distinct lists of all persons voted for as President,
and of all persons voted for as Vice-President, and of
the number of votes for each.” Id. And the Constitution
directs that the electors must “sign and certify” those
lists and “transmit” them to the President of the
Senate. Id.
The Constitution then specifies that the President
of the Senate must open the certificates in the presence
of the Senate and the House of Representatives and
count the votes. Id. If an individual receives votes for
the office of President or Vice President totaling a
majority of the number of appointed electors, that
person becomes President or Vice President elect. Id. If
no individual achieves a majority, the Twelfth
Amendment provides a detailed process by which the
House of Representatives chooses the President and
the Senate chooses the Vice President. Id.
As the text and structure show, the Twelfth
Amendment allows no room for the states to interfere
with the electors’ exercise of their federal functions.
From the moment the electors are appointed, the
election process proceeds according to detailed
instructions set forth in the Constitution itself. The
Twelfth Amendment directs the electors to “name in
their [distinct] ballots the person voted for as President

App. 99
. . . [and] Vice-President.” U.S. Const. amend. XII. And
it demands that the lists of votes certified and
delivered to the President of the Senate include “all
persons voted for as President, and all persons voted
for as Vice-President, and the number of votes for
each.” Id. The plain language of the Constitution
provides that, once a vote is cast, it must be included in
the certified list sent to the President of the Senate.
Nowhere in the Twelfth Amendment is there a grant of
power to the state to remove an elector who votes in a
manner unacceptable to the state or to strike that vote.
Indeed, the express requirement that all votes be listed
is inconsistent with such power. And because Article II,
Section 1, Clause 2 sets the precise number of electors,
the state may not appoint additional electors to cast
new votes in favor of the candidate preferred by the
state.
In short, while the Constitution grants the states
plenary power to appoint their electors, it does not
provide the states the power to interfere once voting
begins, to remove an elector, to direct the other electors
to disregard the removed elector’s vote, or to appoint a
new elector to cast a replacement vote. See id. In the
absence of such a delegation, the states lack such
power. U.S. Term Limits, 514 U.S. at 802 (“[T]he states
can exercise no powers whatsoever, which exclusively
spring out of the existence of the national government,
which the constitution does not delegate to them.”).

App. 100
ii. Use of “elector,” “vote,” and “ballot”
Mr. Baca contends that not only is a role for the
state beyond appointment conspicuously absent from
the Constitution, but the language used—specifically
the terms “elector,” “vote,” and “ballot”—also
establishes that no such role exists because
presidential electors are granted the constitutional
right to exercise discretion when voting for the
President and Vice President. In analyzing this
contention, we first consider the meanings of those
terms as understood at the time of the Constitution’s
ratification. Then, we compare the use of “elector” in
Article II and the Twelfth Amendment with the use of
that term elsewhere in the Constitution.
1) Contemporaneous dictionary definitions
“[T]he enlightened patriots who framed our
constitution, and the people who adopted it, must be
understood to have employed words in their natural
sense, and to have intended what they have said.”
Gibbons v. Ogden, 22 U.S. (9 Wheat.) 1, 188 (1824).
Therefore, we look to contemporaneous dictionaries to
understand the meanings of the words used in the
Constitution.24
24

For the period of 1750–1800, the following four dictionaries are
considered “the most useful and authoritative for the English
language”: Samuel Johnson, A Dictionary of the English Language;
Nathan Bailey, A Universal Etymological English Dictionary;
Thomas Dyche & William Pardon, A New General English
Dictionary; and John Ash, The New and Complete Dictionary of the
English Language. Scalia & Garner, Reading Law: The
Interpretation of Legal Texts 419 (2012). There are four additional
dictionaries deemed the most relevant for the period of

App. 101
Dictionaries from the relevant period support Mr.
Baca’s contention that the drafters of the Twelfth
Amendment intended electors to exercise discretion in
casting their votes for President and Vice President. At
the time of the Twelfth Amendment, the term “elector”
was defined as “[h]e that has a vote in the choice of any
officer,” 1 Samuel Johnson, A Dictionary of the English
Language (London, 6th ed. 1785); “[a] chuser,” Nathan
Bailey, A Universal Etymological English Dictionary
(London, 1763); and “[o]ne who chooses, one who has a
vote in the choice of any public officer,” 1 John Ash, The
New and Complete Dictionary of the English Language
(1795); see also Thomas Dyche & William Pardon, A
New General English Dictionary (11th ed. 1760)
(defining elector as “a person who has a right to elect or
choose a person into an office”); Noah Webster, A
Compendious Dictionary of the English Language
(1806) (defining elector as “one who elects,” and elect as
“to choose, select for favor, prefer”).
Similarly, the term “vote” was defined as
“[s]uffrage; voice given and numbered,” 2 Samuel
Johnson, A Dictionary of the English Language
(London, 6th ed. 1785); “[v]oice, [a]dvice, or [o]pinion of
a [m]atter in [d]ebate,” Nathan Bailey, A Universal
Etymological English Dictionary (London, 1763); “to
speak for or in behalf of any person or thing; also to
chuse or elect a person into any office, by voting or
speaking,” Thomas Dyche & William Pardon, A New

1801–1850—dictionaries from 1806, 1818, 1828, and 1850. Id. at
420. Because the Twelfth Amendment was adopted in 1804, the
only one of these relevant for our purposes is Noah Webster’s 1806
dictionary, A Compendious Dictionary of the English Language. Id.

App. 102
General English Dictionary (11th ed. 1760); “[a]
suffrage, a voice given and numbered, a determination
of parliament”; “to chuse by suffrage; to give by a vote,”
2 John Ash, The New and Complete Dictionary of the
English Language (1795); “to give or choose by votes,”
and “a voice,” Noah Webster, A Compendious
Dictionary of the English Language (1806).
Correspondingly, “to vote” was defined as “[t]o chuse by
suffrage; to determine by suffrage,” 2 Samuel Johnson,
A Dictionary of the English Language (London, 6th ed.
1785), and “to give one’s [v]oice,” Nathan Bailey, A
Universal Etymological English Dictionary (London,
1763).25
And contemporary sources defined “ballot” as a
mechanism for choosing or voting. See 1 Samuel
Johnson, A Dictionary of the English Language
(London, 6th ed. 1785) (defining “ballot” as “[a] little
ball or ticket used in giving votes, being put privately
into a box or urn”); id. (defining “to ballot” as “[t]o
choose by ballot, that is, by putting little balls or
tickets, with particular marks, privately in a box; by
counting which, it is known what is the result of the
poll, without any discovery by whom each vote was
given”); Nathan Bailey, A Universal Etymological
English Dictionary (London, 1763) (defining “ballot” as
25

Suffrage was defined as “a [n]ote given at an [e]lection in favour
of any [p]erson; [a]pprobation or [a]llowance in general,” Nathan
Bailey, A Universal Etymological English Dictionary (London,
1763), and “[a] vote, a voice given in a controverted point,” 2 John
Ash, The New and Complete Dictionary of the English Language
(1795); see also 2 Samuel Johnson, A Dictionary of the English
Language (London, 6th ed. 1785) (defining suffrage as “[v]ote; voice
given in a controverted point”).

App. 103
“[a] little ball . . . used in giving of [v]otes”); 1 John Ash,
The New and Complete Dictionary of the English
Language (1795) (defining “ballot” as “[t]o choose by
dropping a little ball or ticket into a box; to choose by
holding up the hand”); Thomas Dyche & William
Pardon, A New General English Dictionary (11th ed.
1760) (defining “ballot” as “to vote for, or chuse a
person into an office, by means of little balls of several
colours, which are put into a box privately, according to
the inclination of the chuser or voter”); Noah Webster,
A Compendious Dictionary of the English Language
(1806) (defining “ballot” as “to choose or vote by ballot”
and “a little ball, little ticket, chance, lot”).26
As these sources reflect, the definitions of elector,
vote, and ballot have a common theme: they all imply
the right to make a choice or voice an individual
opinion. We therefore agree with Mr. Baca that the use
of these terms supports a determination that the
electors, once appointed, are free to vote as they
choose.27
26

The parties dispute whether the Constitution requires secret
ballots. We need not resolve this dispute because the
contemporaneous definitions show that ballots indicate a choice,
regardless of whether that choice is published to others.
27

This freedom is not without constitutional limit. The presidential
electors are bound by the constitutional directions regarding
electors’ votes and by who may serve as President or Vice
President. See U.S. Const. amend. XII (requiring electors to vote
for at least one candidate not from the elector’s state); id. art. II,
§ 1, cl. 5 (mandating the President be a natural born citizen and at
least thirty-five years old); id. amend. XIV, § 3 (prohibiting anyone
from serving as President or Vice President who has taken an oath
to support the Constitution and then “engaged in an insurrection

App. 104
2) Use of “elector” in the Constitution
Mr. Baca also points to the use of the word “elector”
elsewhere in the Constitution as support for his
position that electors may vote freely. This approach is
sound because, “[w]hen seeking to discern the meaning
of a word in the Constitution, there is no better
dictionary than the rest of the Constitution itself.” Ariz.
State Legislature, 135 S. Ct. at 2680 (Roberts, C.J.,
dissenting); see also United States v. Verdugo-Urquidez,
494 U.S. 259, 265 (1990) (recognizing that when a
term, such as “the people,” is being used as “a term of
art employed in select parts of the Constitution,” that
term should be given the same meaning in each context
and contrasted with the use of other terms).
The term “electors” is used in Article I of the federal
Constitution. Members of the House of Representatives
are “chosen every year by the people of the several
states, and the Electors in each state shall have the
qualifications requisite for Electors of the most
numerous branch of the state legislature.” U.S. Const.
art. I, § 2, cl. 1 (emphases added). The term “electors”
as used there refers to the citizen voters who choose the
persons who will represent them in the House of
Representatives. The term “electors” is also used in the
Seventeenth Amendment. Although Senators were
“chosen by the legislature” of the state at the time of
the founding, id. art. I, § 3, cl. 1, the Seventeenth
Amendment now requires Senators be “elected by the
people” of the state, id. amend. XVII. As with the

or rebellion against the same”); id. amend. XXII, § 1 (limiting the
President to two terms in office).

App. 105
House of Representatives, Senate “electors in each state
shall have the qualifications requisite for the electors of
the most numerous branch of the state legislatures.”
Id. (emphases added).
It is beyond dispute that the “electors” under Article
I, Section 2, Clause 1, and the Seventeenth
Amendment exercise unfettered discretion in casting
their vote at the ballot box.28 It is a “‘fundamental
principle of our representative democracy,’ embodied in

28

The Supreme Court has upheld laws regulating this right as
constitutional under the state’s authority to prescribe the time,
place, and manner for holding elections for Senators and
Representatives, provided by Article I, Section 4, Clause 1, where
the laws
regulated election procedures and did not even arguably
impose any substantive qualification rendering a class of
potential candidates ineligible for ballot position. They
served the state interest in protecting the integrity and
regularity of the election process, an interest independent
of any attempt to evade the constitutional prohibition
against the imposition of additional qualifications for
service in Congress. And they did not involve measures
that exclude candidates from the ballot without reference
to the candidates’ support in the electoral process.

U.S. Term Limits, 514 U.S. at 835.
The Constitution does not delegate to the states the power to
proscribe the time, place, and manner of electors casting their
votes for President and Vice President. The Constitution assigns
the responsibility of determining the time of voting to Congress,
U.S. Const. art. I, § 1, cl. 4, and does not delegate to the states the
power to set the place or manner of voting. Thus, the states have
less—not more—power under the Twelfth Amendment than they
do with respect to regulating the elections of Senators and
Congresspersons.

App. 106
the Constitution, that ‘the people should choose whom
they please to govern them.’” U.S. Term Limits, 514
U.S. at 783 (quoting Powell v. McCormack, 395 U.S.
486, 547 (1969)). “The right to vote freely for the
candidate of one’s choice is of the essence of a
democratic society, and the restrictions on that right
strike at the heart of representative government.”
Reynolds v. Sims, 377 U.S. 533, 555 (1964) (emphasis
added). “Not only can th[e] right to vote [provided by
Article I, Section 2] not be denied outright, it cannot,
consistently with Article I, be destroyed by the
alteration of ballots or diluted by stuffing of the ballot
box.” Wesberry v. Sanders, 376 U.S. 1, 17 (1964)
(citation omitted).
The freedom of choice we ascribe to congressional
electors comports with the contemporaneous dictionary
definitions of elector discussed above. And because we
treat usage of a term consistently throughout the
Constitution, Verdugo-Urquidez, 494 U.S. at 265, the
use of elector to describe both congressional and
presidential electors lends significant support to our
conclusion that the text of the Twelfth Amendment
does not allow states to remove an elector and strike
his vote for failing to honor a pledge to vote for the
winner of the popular election. Instead, the Twelfth
Amendment provides presidential electors the
constitutional right to vote for the candidates of their
choice for President and Vice President.
***
In summary, the text of the Constitution makes
clear that states do not have the constitutional
authority to interfere with presidential electors who

App. 107
exercise their constitutional right to vote for the
President and Vice President candidates of their choice.
The Tenth Amendment could not reserve to the states
the power to bind or remove electors, because the
electoral college was created by the federal
Constitution. Thus, if any such power exists, it must be
delegated to the states by the Constitution. But Article
II contains no such delegation. Nor can the states’
appointment power be expanded to include the power
to remove electors or nullify their votes. Unlike the
President’s right to remove subordinate officers under
his executive power and duty to take care that the laws
and Constitution are faithfully executed, the states
have no authority over the electors’ performance of
their federal function to select the President and Vice
President of the United States. And a close reading of
Article II and the Twelfth Amendment reveals that the
states’ delegated role is complete upon the appointment
of state electors on the day designated by Congress.
Once appointed, the Constitution ensures that electors
are free to perform that federal function with
discretion, as reflected in the Twelfth Amendment’s use
of the terms “elector,” “vote,” and “ballot.” As we now
discuss, this conclusion is further supported by the
circumstances surrounding enactment of the Twelfth
Amendment, as well as historical practices and
sources.
5. Enactment of the Twelfth Amendment
The historical impetus for enactment of the Twelfth
Amendment provides additional support for our
conclusion that presidential electors are free to exercise
discretion in casting their votes. As noted, under

App. 108
Article II, Section 1, as originally written, “the electors
of each state did not vote separately for President and
Vice-President; each elector voted for two persons,
without designating which office he wanted each
person to fill.” Ray, 343 U.S. at 224 n.11. Under this
system, “[i]f all electors of the predominant party voted
for the same two men, the election would result in a tie,
and be thrown into the House, which might or might
not be sympathetic to that party.” Id.
This is exactly what happened in 1800. The electors’
vote resulted in seventy-three votes each for Thomas
Jefferson and Aaron Burr, sixty-five votes for John
Adams, sixty-four votes for Charles Pinckney, and one
vote for John Jay. 10 Annals of Cong. 1024 (1801).
Because two individuals received votes that constitute
a majority of the electors appointed, but tied for the
number, it was up to the House of Representatives to
choose one of the two as President. U.S. Const. art. II,
§ 1, cl. 3. It took the House thirty-six rounds of voting
to select Thomas Jefferson as President. 10 Annals of
Cong. 1028 (1801).
The 1796 election resulted in a different problem.
Federalists urged their electors to support John Adams
and Thomas Pinckney, while Anti-Federalists
(Democratic-Republicans) urged support for Thomas
Jefferson and Aaron Burr. Stephen J. Wayne, The
Road to the White House 2016 6 (10th ed. 2016). But
roughly forty percent of electors ignored this party
guidance. John Ferling, Adams vs. Jefferson: The
Tumultuous Election of 1800 166 (2004). Instead, many
Federalist electors, mainly from New England,
withheld votes from Thomas Pinckney to ensure that

App. 109
Thomas Pinckney did not receive the same number of
votes as John Adams, thereby guaranteeing John
Adams the Presidency. Wayne, supra, at 6. As a result
of this plan, John Adams received seventy-one votes,
while Thomas Pinckney received a mere fifty-nine
votes. Id. But this plan backfired, in part, because
Thomas Jefferson received sixty-eight votes, thereby
finishing ahead of Thomas Pinckney. Id. The 1796
electoral college vote consequently resulted in a
President who, although disclaiming political
affiliation, strongly favored Federalists, serving with a
Vice President who was the leader of the opposing
party. Id. As the Supreme Court has recognized, this
created a “situation [that] was manifestly intolerable.”
Ray, 343 U.S. at 224 n.11.
“The Twelfth Amendment was brought about as the
result of the difficulties caused by the procedure set up
under [Article] II, [Section] 1.” Id. These difficulties are
highlighted by the split-party presidency resulting from
the 1796 election and the thirty-six rounds of voting it
took for the House to resolve the 1800 election. But the
historical context of the amendment also informs the
present question.
Interestingly, the 1796 election produced what is
today considered an anomalous vote—Samuel Miles
voted for Thomas Jefferson instead of John Adams. See
Wayne, supra, at 6. Samuel Miles led a slate of fifteen
Pennsylvania electors running on the Federalist
“‘Federal and Republican’ ticket.” Jeffrey L. Pasley, The
First Presidential Contest: 1796 and the Founding of
American Democracy 360–61 (2013). This slate of
Federalist electors made one commitment: “approving

App. 110
of George Washington and his policies, the electors
would ‘be expected to give their suffrages in favor of
men who will probably continue the same system of
wise and patriotic policy.’” Id. They made no specific
commitment to John Adams, id., but it was largely
understood that John Adams fit this bill, and Thomas
Jefferson, a man of “very dissimilar politics” and a
“firm Republican,” did not. Id. at 354.
At the time of the 1796 election, Pennsylvania used
a popular vote to select its presidential electors, but
state law gave the governor only a short window in
which to certify the winners of the race, even if all
votes had yet to be counted. Id. at 362–63. By the time
that window closed in 1796, thirteen of the fifteen
Jefferson electors had received the most votes but,
because votes from Greene County had yet to be
returned, Samuel Miles and Robert Coleman—two of
the electors from the “‘Federal and Republican’
slate”—had eked out a victory. Id. at 363.
Once the Greene County votes were received, it
became clear that all fifteen Jefferson electors should
have won in Pennsylvania. Id. The two excluded
Jefferson electors went to Harrisburg and demanded to
vote as presidential electors, but they were denied. Id.
Yet, “[p]ressure ran high for all the electors to fulfill
the will of the majority, and . . . Samuel Miles cracked
and cast a Jefferson vote.” Id. This decision brought ire
on Samuel Miles, with a critic in a Philadelphia
newspaper writing, “What, do I chuse Samuel Miles to
determine for me whether John Adams or Thomas
Jefferson shall be President? No! I chuse him to act, not
to think.” Wayne, supra, at 6. The essence of the

App. 111
complaint was that Samuel Miles had violated the
expectation that he would cast his vote for John
Adams. Despite this experience, the Twelfth
Amendment did nothing to prevent future faithless
votes.
Instead, the Twelfth Amendment changed only the
balloting process, allowing electors to designate
separately a vote for President and Vice President.
Compare U.S. Const. art. II, § 1, cl. 3 (“The Electors
shall . . . vote by ballot for two persons . . . .”), with id.
amend. XII (“[The Electors] shall name in their ballots
the person voted for as President, and in distinct
ballots the person voted for as Vice-President . . . .”
(emphasis added)). Important for our purposes, the
Twelfth Amendment does not deviate from the original
Constitution’s use of “elector,” “vote,” and “ballot.”
Compare id. art. II, § 1, cl. 3 (“The Electors shall meet
in their respective states, and vote by ballot for two
persons, of whom one at least shall not be an
inhabitant of the same state with themselves.”), with
id. amend. XII (“The Electors shall meet in their
respective states and vote by ballot for President and
Vice-President, one of whom, at least, shall not be an
inhabitant of the same state with themselves . . . .”).
Nor does the Twelfth Amendment contain any
language restricting the electors’ freedom of choice or
delegating the power to impose such restrictions to the
states. Thus, the historical context of the Twelfth
Amendment supports our textual conclusion that states
cannot interfere with the presidential electors’ votes
and that presidential electors have the constitutional
right to exercise discretion when casting those votes.

App. 112
6. Historical Practices
In granting the Department’s motion to dismiss
under rule 12(b)(6), the district court emphasized the
longstanding practice of electors binding themselves to
and complying with the will of the people of the state.
The Department takes a similar approach on appeal,
emphasizing the longstanding practice of electors
giving pledges to vote for specific candidates and the
use of the short-form ballot which prints the names of
the presidential and vice presidential candidates rather
than the presidential electors. The Department argues
these historical practices support its view that
Colorado did not violate the Constitution by removing
Mr. Baca. Again, we disagree.
a. Elector pledges
It is true that a pledge requirement is consistent
with longstanding practices. As the Supreme Court
noted in Ray, there is a “long-continued practical
interpretation of the constitutional propriety of an
implied or oral pledge of his ballot by a candidate for
elector as to his vote in the electoral college.” 343 U.S.
at 229–30. And “[h]istory teaches that the electors were
expected to support the party nominees.” Id. at 229.
Review of presidential election results also shows that
electors usually honor their pledges. Indeed, this
consistency led states to omit the names of candidates
for elector from the general ballot. Id. “Instead in one
form or another [the states] allow a vote for the
presidential candidate of the national conventions to be
counted as a vote for his party’s nominees for the
electoral college.” Id.

App. 113
Although we concur with the Department’s review
of historical practice, we cannot agree that these
practices dictate the result the Department seeks.
First, and most importantly, the practices
employed—even over a long period—cannot overcome
the allocation of power in the Constitution. McPherson,
146 U.S. at 35–36. Second, there is an opposing
historical practice at play: a history of anomalous votes,
all of which have been counted by Congress. As
discussed, the first vote cast in defiance of a pledge
occurred in 1796—before the Twelfth Amendment was
enacted—when Samuel Miles voted for Thomas
Jefferson instead of John Adams, much to the
displeasure of his Federalist contemporaries. But
Elector Miles’s vote for Thomas Jefferson was listed
and delivered to the Senate, where it was counted. 6
Annals of Cong. 2096 (1797); FairVote, Faithless
Electors, https://www.fairvote.org/faithless_electors
(last visited Jan. 10, 2019). Since that first faithless
vote, there have been approximately 166 additional
anomalous votes listed, certified, delivered, and
counted. FairVote, Faithless Electors,
https://www.fairvote.org/faithless_electors (last visited
Jan. 10, 2019).29
29

FairVote does not list Mr. Nemanich as one of these anomalous
votes. FairVote, Faithless Electors, https://www.fairvote.org/
faithless_electors (last visited Jan. 10, 2019). But, according to the
Second Amended Complaint, after becoming an elector, Mr.
Nemanich executed a pledge to vote for Bernie Sanders for
President. Mr. Nemanich was later required by the Department to
take an oath stating that he would vote for Hillary Clinton.
Although Mr. Nemanich complied with that later oath and voted
for Hillary Clinton, he violated his initial pledge to vote for Bernie
Sanders.

App. 114
Indeed, we are aware of no instance in which
Congress has failed to count an anomalous vote, or in
which a state—before Colorado—has attempted to
remove an elector in the process of voting, or to nullify
a faithless vote. And on only one occasion has Congress
even debated whether an anomalous vote should be
counted. In 1969, six Senators and thirty-seven
Representatives objected to counting a vote from North
Carolina because the elector voted for George Wallace
for President and Curtis LeMay for Vice President,
despite Richard Nixon and Spiro Agnew winning the
popular vote in North Carolina. 115 Cong. Rec. 146
(1969). After significant debate, the House voted to
reject the objection (and count the elector’s votes) by a
margin of 228–170, id. at 170, and the Senate voted to
reject the objection, by a count of 58-33, id. at 246.
In the most recent 2016 election, Congress counted
thirteen anomalous votes from three states.
Specifically, Congress counted presidential votes for
Colin Powell (three from Washington),30 John Kasich
(one from Texas), Ron Paul (one from Texas), Bernie
Sanders (one from Hawaii), and Faith Spotted Eagle
(one from Washington); and vice presidential votes for
Elizabeth Warren (one from Hawaii and one from
Washington), Maria Cantwell (one from Washington),
30

The Washington Supreme Court recently upheld the imposition
of fines against these faithless electors. In re Guerra, No. 95347-3,
2019 WL 2220430, at **2, 8 (Wash. May 23, 2019). Although we do
not embrace the analysis of the majority opinion in In re Guerra,
we also note that the issue before the Washington Supreme Court
is materially different than the question presented here: Whether
after voting in the electoral college has begun, the state may
remove an elector and nullify his vote.

App. 115
Susan Collins (one from Washington), Carly Fiorina
(one from Texas), and Winona LaDuke (one from
Washington). 163 Cong. Rec. H189 (daily ed. Jan. 6,
2017). By counting those votes, Congress acted
consistently with the treatment of every anomalous
vote cast since the creation of the electoral college.
This uninterrupted history of Congress counting
every anomalous vote cast by an elector weighs against
a conclusion that historical practices allow states to
enforce elector pledges by removing faithless electors
from office and nullifying their votes.
b. Short-form ballots
The Department next points to the states’ historical
practice of using short-form ballots as “incompatible
with electors exercising independent discretion”
because “[v]oters have no basis for judging the
prospective electors’ qualifications or trustworthiness,
let alone uncovering their identities,” and “[a] voter . . .
understandably believes that he or she is casting [his
or her] ballot for actual presidential and vicepresidential candidates.” Dep’t’s Br. at 59. The
Department’s position can be rephrased as a contention
that because states have chosen, over time, to use a
short-form ballot, thereby allowing voters to believe
they are voting directly for presidential and vice
presidential candidates, electors are now bound to
make that misperception true. The Supreme Court has
foreclosed such a conclusion.
In McPherson, the Supreme Court considered a
challenge to Michigan’s statute allowing for its
presidential electors to be appointed by state districts.

App. 116
146 U.S. at 24–25. In upholding the law, the Court
relied on the plenary power granted in the Constitution
“to the state legislatures in the matter of the
appointment of electors.” Id. at 35. The Court
recognized that after the Constitution was ratified,
states employed “various modes of choosing the
electors,” such as “by the legislature itself on joint
ballot; by the legislature through a concurrent vote of
the two houses; by a vote of the people of a general
ticket; . . . and in other ways.” Id. at 29. But it also
acknowledged that “public opinion had gradually
brought all states . . . to the pursuit of a uniform
system of popular election by general ticket.” Id. at 36.
Despite the shift to a uniform method of appointment,
the Court upheld Michigan’s departure from that
practice. The Court explained that the question was
“not one of policy, but of power.” Id. at 35. And because
“[t]he prescription of the written law cannot be
overthrown because the states have laterally exercised,
in a particular way, a power which they might have
exercised in some other way,” id. at 36, the Court
enforced the plenary power granted by the Constitution
for the state to appoint its electors in “such Manner as
the Legislature thereof may direct,” U.S. Const., art. II,
§ 1, cl. 2.
The Court also rejected an argument that the states’
method of choosing electors by district would not have
been constitutionally objectionable “if the operation of
the electoral system had conformed to its original
object and purpose,” but that it “had become so in view
of the practical working of that system.” McPherson,
146 U.S. at 36. The Court concluded that the district
method of choosing electors could not somehow become

App. 117
unconstitutional simply because presidential electors
now conformed to the will of the states to register their
votes consistently with the results of the state’s general
election:
Doubtless it was supposed that the electors would
exercise a reasonable independence and fair
judgment in the selection of the chief executive,
but experience soon demonstrated that, whether
chosen by the legislatures or by popular suffrage
on general ticket or in districts, they were so
chosen simply to register the will of the
appointing power in respect of a particular
candidate. In relation, then, to the independence
of the electors, the original expectation may be
said to have been frustrated. But we can perceive
no reason for holding that the power confided to
the states by the constitution has ceased to exist
because the operation of the system has not fully
realized the hopes of those by whom it was
created. Still less can we recognize the doctrine
that because the constitution has been found in
the march of time sufficiently comprehensive to
be applicable to conditions not within the minds
of its framers, and not arising in their time, it
may therefore be wrenched from the subjects
expressly embraced within it, and amended by
judicial decision without action by the
designated organs in the mode by which alone
amendments can be made.
Id. (citations omitted) (emphases added). That is, the
Court refused to depart from the language of the

App. 118
Constitution in the absence of a constitutional
amendment codifying modern practices.
Over a century later, the Court reaffirmed the
decision in McPherson and emphasized that “[t]he
individual citizen has no federal constitutional right to
vote for electors for the President of the United States
unless and until the state legislature chooses a
statewide election as the means to implement its power
to appoint members of the electoral college.” Bush, 531
U.S. at 104. And while “[h]istory has now favored the
voter, and in each of the several States the citizens
themselves vote for Presidential electors,” the State,
“after granting the franchise in the special context of
Article II, can take back the power to appoint electors.”
Id. Bush, like McPherson, instructs that even longpracticed policies cannot limit the power granted by the
Constitution.
The same analysis is true in this case. “The question
before us is not one of policy, but of power . . . .”
McPherson, 146 U.S. at 35. “The prescription of the
written law cannot be overthrown because the
[electors] have laterally exercised, in a particular way,
a power which they might have exercised in some other
way.” Id. at 36. Although most electors honor their
pledges to vote for the winner of the popular election,
that policy has not forfeited the power of electors
generally to exercise discretion in voting for President
and Vice President.31 Rather, as historical practice

31

The cases the district court and the Department rely upon that
determined electors do not have independence (although not in the
context of a constitutional challenge to restrictions) have all fallen

App. 119
shows, electors have strayed from their pledges
throughout history and Congress has unfailingly
counted those anomalous votes.
For the foregoing reasons, historical practice of
using short-form ballots and of most electors complying
with their pledges do not undermine our conclusion
that the state could not constitutionally remove Mr.
Baca or strike his vote for refusing to comply with the
demands of § 1-4-304(5).
7. Authoritative Sources
The parties also rely on authoritative sources for
their respective interpretations of Article II and the
Twelfth Amendment, including the Federalist Papers
and Justice Story’s Commentaries on the Constitution.
As we now explain, these sources buttress our
conclusion that the Constitution prohibits the state
from removing presidential electors performing their

within this same trap. See Spreckles v. Graham, 228 P. 1040, 1045
(Cal. 1924) (“It was originally supposed by the framers of our
national Constitution that the electors would exercise an
independent choice, based upon their individual judgment. But, in
practice so long established as to be recognized as part of our
unwritten law, they have been ‘selected under a moral restraint to
vote for some particular person who represented the preferences
of the appointing power.’” (emphasis added) (citation omitted));
Thomas v. Cohen, 262 N.Y.S. 320, 323–24 (N.Y. Sup. Ct. 1933)
(“Does the United States Constitution require [electors] to vote as
directed by the voters of their state? Confining yourself to the
exact language to the instrument brings a negative answer to that
question. We must inquire, however, if anything has happened
since those constitutional provisions were written which might
alter the apparent meaning.”).

App. 120
federal function, even where the electors vote contrary
to a state-imposed requirement.
In the Federalist Papers,32 Alexander Hamilton
explained the reasons for adopting the electoral college
as the method for selecting the United States
President:
It was desirable, that the sense of the people
should operate in the choice of the person to
whom so important a trust [the presidency] was
to be confided.[33] This end will be answered by
committing the right of making it, not to any
preestablished body, but to men chosen by the
people for the special purpose, and at the
particular conjuncture.
It was equally desirable, that the immediate
election should be made by men most capable of
analyzing the qualities adapted to the station,
and acting under circumstances favourable to
deliberation, and to a judicious combination of
all the reasons and inducements that were proper
to govern their choice. A small number of

32

The Federalist Papers are a collection of essays written by
Alexander Hamilton, John Jay, and James Madison in support of
ratification of the federal Constitution.
33

The Department attempts to use this first sentence to say that
“Hamilton himself expressed contradictory positions on whether
electors were to exercise discretion.” Dep’t’s Br. at 55–56.
Federalist 68 cannot be read fairly to support this interpretation.
When this sentence is put into context with the rest of the
paragraph, Alexander Hamilton’s view that electors were selected
to make an informed choice in selecting the President is apparent.

App. 121
persons, selected by their fellow citizens from
the general mass, will be most likely to possess
the information and discernment requisite to so
complicated an investigation.
The Federalist No. 68 (Alexander Hamilton) (George
W. Carey & James McClellan eds., 2001) (emphases
added).
Federalist 68 also recognizes the desire that “every
practicable obstacle should be opposed to cabal,
intrigue, and corruption.” Id. “These most deadly
adversaries of the republican government” would be
“expected to make their approaches . . . chiefly from the
desire in foreign powers to gain an improper ascendant
in our councils.” Id. But the electoral college “guarded
against all danger of this sort,” by “not ma[king] the
appointment of the president to depend on preexisting
bodies of men, who might be tampered with beforehand
to prostitute their votes,” and instead referring that
decision “in the first instance to an immediate act of
the people of America, to be exerted in the choice of
persons for the temporary and sole purpose of making
the appointment.” Id. (emphasis added). Further the
Constitution “excluded from eligibility to this trust [of
serving as an elector], all those who from situation
might be suspected of too great devotion to the
president in office,” by prohibiting senators,
representatives, and others holding a place of trust or
profit under the United States from serving in the
elector role. Id. As a result, “the immediate agents in
the election will at least enter upon the task free from
any sinister bias. Their transient existence, and their
detached situation, already noticed, afford a

App. 122
satisfactory prospect of their continuing so, to the
conclusion of it.” Id. (emphases added). Moreover, the
President will be “independent for his continuance in
office, on all but the people themselves,” because the
President’s re-election “depend[s] on a special body of
representatives, deputed by the society for the single
purpose of making the important choice.” Id. (emphasis
added).
There can be little doubt in reading Federalist 68
that Alexander Hamilton understood the Constitution
to entrust the selection of the President to “a small
number of persons” selected for their ability to
“analyz[e] the qualities adapted to the station” of
President. Id. These electors were to act “under
circumstances favorable to deliberation” and to
judiciously consider “all the reasons and inducements
that were proper to govern their choice.” Id. The
electors were to be selected based on their possession of
the “information and discernment requisite to so
complicated an investigation.” Id. And the appointment
of President was “to be exerted in the choice of persons
for the temporary and sole purpose of making the
appointment.” Id. Simply put, Federalist 68 cannot be
read to require the electors to vote according to the
dictates of a “preestablished body.” Id. Instead,
Federalist 68 makes clear the decision was to be made
by electors with a “transient existence” and a “detached
situation,” to guard against the appointment being
made by “bodies of men, who might be tampered with
beforehand to prostitute their votes.” Id.
This reading of Federalist 68 is consistent with
Hamilton’s discussion of the “dissimilar modes of

App. 123
constituting the several component parts of the
government.” The Federalist No. 60 (Alexander
Hamilton) (George W. Carey & James McClellan eds.,
2001). In Federalist 60, Hamilton explains that “[t]he
house of representatives being to be elected
immediately by the people; the senate by the state
legislatures; the President by electors chosen for that
purpose by the people; there would be little probability
of a common interest to cement these different
branches in a predilection for any particular class of
electors.” Id. Although at that time the Senate was
selected by the “state legislatures,” Hamilton noted
that the method for selecting the President was
different—”by electors chosen for that purpose by the
people.” Id. It is obvious from Federalist 60 that
Alexander Hamilton did not anticipate that state
legislatures would elect the President by bound
proxies.
John Jay expressed a similar view that “the
president [is] to be chosen by select bodies of electors,
to be deputed by the people for that express purpose.”
The Federalist No. 64 (John Jay) (George W. Carey &
James McClellan eds., 2001). “As the select assemblies
for choosing the president . . . will, in general, be
composed of the most enlightened and respectable
citizens, there is reason to presume, that their
attention and their votes be directed to those men only
who have become the most distinguished by their
abilities and virtue, and in whom the people perceive
just grounds for confidence.” Id. As with the view
expressed by Hamilton in Federalist 68, Jay’s
discussion in Federalist 64 is consistent with
“enlightened and respectable” electors expected to

App. 124
direct their votes to the most distinguished and worthy
candidates for President.
In short, the Federalist Papers are inconsistent with
the Department’s argument that the electors are mere
functionaries who can vote only for the candidate
dictated by the state. Instead, these contemporaneous
interpretations of the federal Constitution support the
conclusion that the presidential electors were to vote
according to their best judgment and discernment.
Contrary to the Department’s characterization,
Justice Story expressed similar views in his
Commentaries on the Constitution:34
It has been observed with much point, that in no
respect have the enlarged and liberal views of
the framers of the constitution, and the
expectations of the public, when it was adopted,
been so completely frustrated, as in the practical
operation of the system, so far as relates to the
independence of the electors in the electoral
colleges. It is notorious, that the electors are now
chosen wholly with reference to particular
candidates, and are silently pledged to vote for
them. Nay, upon some occasions the electors
publicly pledge themselves to vote for a
34

Although Justice Story wrote almost thirty years after adoption
of the Twelfth Amendment, his Commentaries on the United
States Constitution have been relied on by the Supreme Court as
informative on issues of constitutional interpretation. See, e.g.,
District of Columbia v. Heller, 554 U.S. 570, 607 (2008) (Second
Amendment); Clinton v. Jones, 520 U.S. 681, 714 (1997)
(Presidential immunity); U.S. Term Limits, 514 U.S. at 799
(Article I).

App. 125
particular person; and thus, in effect, the whole
foundation of the system, so elaborately
constructed, is subverted. The candidates for the
presidency are selected and announced in each
state long before the election; and an ardent
canvass is maintained in the newspapers, in
party meetings, and in the state legislatures, to
secure votes for the favourite candidate, and to
defeat his opponents. Nay, the state legislatures
often become the nominating body, acting in
their official capacities, and recommending by
solemn resolves their own candidate to the other
states. So, that nothing is left to the electors
after their choice, but to register votes, which
are already pledged; and an exercise of an
independent judgment would be treated, as a
political usurpation, dishonourable to the
individual, and a fraud upon his constituents.
3 Joseph L. Story, Commentaries on the Constitution
of the United States § 1457 (1833) (emphases added)
(footnote omitted).
The Department relies on this Commentary to
argue that presidential electors acting independently
would be a “political usurpation” and a “fraud upon
[their] constituents.” Dep’t’s Br. at 58. But this
interpretation does not withstand careful scrutiny.
Justice Story begins his commentary with the
recognition that the framers and the public expected
electors to act independently at the time the
Constitution was adopted. He then acknowledges that
this expectation has been frustrated by “the practical
operation of the system.” 3 Story § 1457 (emphasis

App. 126
added). But nothing in the commentaries suggests
Justice Story approves of the practice or that such
practices could constrict the power granted by the
Constitution. Rather than applauding the system of
public and private pledges that had become common,
Justice Story criticized it as frustrating the
expectations of the framers and the public. And, as
discussed, “[t]he question before us is not one of policy,
but of power.” McPherson, 146 U.S. at 35. “The
prescription of the written law cannot be overthrown
because the [electors] have laterally exercised, in a
particular way, a power which they might have
exercised in some other way.” Id. at 36. Thus, while
Justice Story’s Commentaries acknowledge the
prevalence of pledges, they also affirm our
interpretation of the constitutional text.
Mr. Baca and the amicus briefs filed in support of
his position also cite numerous contemporaneous
statements showing that the framers and early
Congressmen (including those involved in passing the
Twelfth Amendment) believed presidential electors
were to act with discretion. In response, the
Department alleges that “[t]he historical record . . .
reveals, at best, an inconsistent and largely conflicting
paper trail of opinions by the Framers regarding the
electors’ proper roles.” Dep’t’s Br. at 56. But the
Department has failed to point to any contemporaneous
source that contradicts an understanding of elector
discretion—except the inaccurate portrayals of
Federalist Number 68 and Justice Story’s
Commentaries we reject above. Instead, the
Department relies on modern sources for its
proposition. While it is true that the states now almost

App. 127
uniformly require electors to pledge their votes to the
winners of the popular election, that does not speak to
the states’ ability to enforce those pledges after voting
has begun by removing the elector and nullifying his
vote.35
Contemporaneous authoritative sources—mainly in
the form of the Federalist Papers and Justice Story’s
Commentaries—support our reading of the
Constitution as providing the electors the discretion to
vote for the presidential candidate of their choice. They
therefore support our conclusion that the Constitution
does not grant to the states the power to remove
electors who vote independently, despite the electors’
pledge to cast their votes for the winners of the popular
election. Because voting as an elector is a federal
function, Burroughs, 290 U.S. at 544, similar to the
“function of a state Legislature in ratifying a proposed
amendment to the federal Constitution, . . . it
transcends any limitations sought to be imposed by the
people of a state.” Leser, 258 U.S. at 137.
***
Article II and the Twelfth Amendment provide
presidential electors the right to cast a vote for
President and Vice President with discretion.36 And the
35

The Department also relies on arguments that several of the
founding fathers “advocated for direct popular election of the
President.” Dep’t’s Br. at 55. But, as is obvious from the text of
Article II and the Twelfth Amendment, that position did not
prevail. See U.S. Const. amend. XII.

36

“After pinpointing [the specific constitutional right at issue],
courts still must determine the elements of, and rules associated

App. 128
state does not possess countervailing authority to
remove an elector and to cancel his vote in response to
the exercise of that Constitutional right. The electoral
college did not exist before ratification of the federal
Constitution, and thus the states could reserve no
rights related to it under the Tenth Amendment.
Rather, the states possess only the rights expressly
delegated to them in Article II and the Twelfth
Amendment. Those constitutional provisions grant
states the plenary power to appoint its electors. But
once that appointment process is concluded, the
Constitution identifies no further involvement by the
states in the selection of the President and Vice
President. And the states’ power to appoint, without
any duty to take care that the electors perform their
federal function faithfully, does not include the power
to remove. The Constitution provides a detailed list of
procedures that must be performed by specific
actors—not including the states—after appointment.
The electors must list all votes cast for President and
Vice President, certify that list, and send it to the
President of the Senate. Even where an elector violates
a state-required pledge to vote for the winners of the
state popular election, there is nothing in the federal
Constitution that allows the state to remove that
elector or to nullify his votes. And in the absence of
such express authority, the states may not interfere
with the electors’ exercise of discretion in voting for
with, an action seeking damages for its violation.” Manuel v. City
of Joliet, III., 137 S. Ct. 911, 920 (2017). The parties have not
addressed this issue in their briefs, and we leave it to the district
court to resolve the unaddressed aspects of Mr. Baca’s claim on
remand.

App. 129
President and Vice President by removing the elector
and nullifying his vote. Neither historical practices nor
authoritative sources alter our conclusion.
Secretary Williams impermissibly interfered with
Mr. Baca’s exercise of his right to vote as a presidential
elector. Specifically, Secretary Williams acted
unconstitutionally by removing Mr. Baca and nullifying
his vote for failing to comply with the vote binding
provision in § 1-4-304(5). Mr. Baca has therefore stated
a claim for relief on the merits, entitling him to
nominal damages.
VI. CONCLUSION
For the foregoing reasons, we AFFIRM the district
court’s dismissal of Ms. Baca’s and Mr. Nemanich’s
claims under rule 12(b)(1) for lack of standing. But we
REVERSE the district court’s dismissal of Mr. Baca’s
claim under both rule 12(b)(1) and rule 12(b)(6).
Therefore, we REMAND to the district court for
further proceedings consistent with this opinion.

App. 130
No. 18-1173, Baca v. Colorado Department of State
BRISCOE, Circuit Judge, dissenting.
While the majority has presented a thorough
analysis in support of its ruling, I would not reach the
merits of the issues presented but would instead
conclude that this case is moot.1 The Presidential
Electors sued the Department under 42 U.S.C. § 1983.
App. at 17–19. They seek nominal damages, a
declaration that Colorado Revised Statute § 1-4-304(5)
is unconstitutional, and a finding that their
constitutional rights were violated. Id. at 19. As the
majority explains, the Presidential Electors lack
standing to pursue prospective relief. See Maj. Op. at
22–24. But an award of damages is retrospective relief,
and “we consider declaratory relief retrospective to the
extent that it is intertwined with a claim for monetary
damages that requires us to declare whether a past
constitutional violation occurred.” PeTA v. Rasmussen,
298 F.3d 1198, 1202–03 & n.2 (10th Cir. 2002).
Therefore, the question is whether the retrospective
relief sought can sustain this case. I would conclude
that it cannot because “a State is not a ‘person’ against
whom a § 1983 claim for monetary damages might be

1

“We can raise issues of standing and mootness sua sponte because
we ‘have an independent obligation to determine whether subjectmatter jurisdiction exists, even in the absence of a challenge from
any party.’” Collins v. Daniels, 916 F.3d 1302, 1314 (10th Cir.
2019) (quoting Arbaugh v. Y&H Corp., 546 U.S. 500, 514 (2006)).
As discussed in the majority opinion, we requested supplemental
briefing on mootness. Maj. Op. at 8.

App. 131
asserted.”2 Lapides v. Bd. of Regents, 535 U.S. 613, 617
(2002).
“Under settled law, we may dismiss th[is] case [as
moot] . . . only if ‘it is impossible for a court to grant
any effectual relief whatever’ to [the Presidential
Electors] assuming [they] prevail[].” Mission Prod.
Holdings, Inc. v. Tempnology, LLC, 139 S. Ct. 1652,
1660 (2019) (quoting Chafin v. Chafin, 568 U.S. 165,
172 (2013)). “[A] claim for money damages . . . . , if at
all plausible, ensure[s] a live controversy.” Id. “If there
is any chance of money changing hands, [the] suit
remains live.” Id.
No such chance exists. Section “1983 creates no
remedy against a State.” Arizonans for Official English
v. Arizona, 520 U.S. 43, 69 (1997); see also Will v. Mich.
Dep’t of State Police, 491 U.S. 58, 64 (1989) (“[A] State
is not a person within the meaning of § 1983.”). By
suing the Department, the Presidential Electors have
sued the state of Colorado. Ross v. Bd. of Regents, 599
F.3d 1114, 1117 (10th Cir. 2010) (explaining that state
agencies, as arms of the state, are not persons under
§ 1983). Therefore, § 1983 affords the Presidential

2

Without an award of nominal damages, a retrospective
declaration that the Presidential Electors’ rights were violated
“would amount to nothing more than a declaration that [they]
w[ere] wronged.” Green v. Branson, 108 F.3d 1296, 1300 (10th Cir.
1997). “[I]n the context of an action for declaratory relief, a
plaintiff must be seeking more than a retrospective opinion that he
was wrongly harmed by the defendant.” Jordan v. Sosa, 654 F.3d
1012, 1025 (10th Cir. 2011). Therefore, whether this case is moot
depends on whether the Presidential Electors can plausibly recover
nominal damages.

App. 132
Electors “no remedy against” the Department.
Arizonans, 520 U.S. at 69.
Absent a plausible claim for nominal damages, this
case is moot. Id. (claim for nominal damages in § 1983
suit against state was not “sufficient to overcome
mootness [because the claim] was nonexistent”);
Lankford v. City of Hobart, 73 F.3d 283, 288 (10th Cir.
1996) (“[T]he lack of an appropriate remedy moots [the
plaintiffs’] claims for relief[ under Title VII]. . . .
[B]ecause no legal remedies are available to plaintiffs
a verdict in their favor would do little more than
provide them with emotional satisfaction.”).3 Because

3

The majority concludes that “we may not consider the merits of
the personhood argument because the mootness inquiry ‘in no way
depends on the merits of the plaintiff’s contention.’” Maj. Op. at 51
(quoting Keller Tank Servs. II, Inc. v. Comm’r, 854 F.3d 1178, 1194
(10th Cir. 2017)). At the pleading stage, a plaintiff must invoke our
power to adjudicate a case by sufficiently alleging the prerequisites
to subject-matter jurisdiction. See Shapiro v. McManus, 136 S. Ct.
450, 455 (2015) (“[A plaintiff] fail[s] to raise a substantial federal
question for jurisdictional purposes [when his claim is] . . .‘wholly
insubstantial and frivolous.’” (quoting Bell v. Hood, 327 U.S. 678,
682–83 (1946)); Memphis Light, Gas & Water Div. v. Craft, 436
U.S. 1, 8–9 (1978) (implying that a “claim for damages [that] . . . is
. . . so insubstantial or so clearly foreclosed by prior decisions”
would not “save[ a] ca[se] from the bar of mootness”). Because the
Presidential Electors have sued the Department under § 1983, the
availability of nominal damages is clearly foreclosed by Lapides,
Arizonans, and Will. It is therefore appropriate to consider the
“personhood argument” in relation to mootness. See Arizonans, 520
U.S. at 69; Memphis Light, 436 U.S. at 8–9.
Other courts have similarly concluded that a futile claim for
damages cannot sustain an otherwise moot case. Int’l Bhd. of
Teamsters, Local Union No. 639 v. Airgas, Inc., 885 F.3d 230, 237
(4th Cir. 2018) (claim for damages did not prevent mootness

App. 133
we can grant no relief, this case presents “an abstract
dispute about the law, unlikely to affect these plaintiffs
any more than it affects other . . . citizens. And a
dispute solely about the meaning of a law . . . falls
outside the scope of the constitutional words ‘Cases’
and ‘Controversies.’” Alvarez v. Smith, 558 U.S. 87, 93
(2009).
It makes no difference that the Department has
waived Eleventh Amendment sovereign immunity.
Supp. App. at 116. “The barrier [to recovering nominal
damages i]s not . . . Eleventh Amendment immunity,
which the State could waive. The stopper [i]s that
§ 1983 creates no remedy against a State.” Arizonans,
520 U.S. at 69; see also Will, 491 U.S. at 85 (Brennan,
J., dissenting) (“If states are not ‘persons’ within the
meaning of § 1983, then they may not be sued under

because there was no “possibility of damages”); Tanner Advert.
Grp. v. Fayette Cty., 451 F.3d 777, 786 (11th Cir. 2006) (en banc)
(“A request for damages that is barred as a matter of law cannot
save a case from mootness.”); Johnson v. City of Shorewood, 360
F.3d 810, 816 (8th Cir. 2004) (reasoning that a “claim would be
moot because [a court] could not grant the relief the [plaintiffs]
s[ought]”); Gottfried v. Med. Planning Servs., Inc., 280 F.3d 684,
691 (6th Cir. 2002) (“[A] key question [in the mootness inquiry] . . .
is whether [the plaintiff] has a viable claim for damages.”); see also
Nat’l Iranian Oil Co. v. Mapco Int’l, Inc., 983 F.2d 485, 490 (3d Cir.
1992) (“A claim for money damages is moot only if it will never be
possible for the defendant to provide any relief.”); 13C Charles
Alan Wright & Arthur R. Miller, Federal Practice and Procedure
§ 3533.3 (3d ed. 2019) (“[I]f other relief is sought and has become
moot, it is appropriate to dismiss the action as moot, without
deciding the merits of the claimed wrong, if damages are not
legally available for that wrong or the defendant is immune.”).

App. 134
that statute regardless of whether they have consented
to suit.”).
Nor can the Department save this case from
mootness by waiving “the argument that it is not a
‘person’ under § 1983.” Supp. Br. at 1; see Estate of
Harshman v. Jackson Hole Mountain Resort Corp., 379
F.3d 1161, 1164 (10th Cir. 2004) (“[I]t is well
established that the parties may not by stipulation
invoke the judicial power of the United States in
litigation which does not present an actual ‘case or
controversy.’” (quotation marks omitted)). The majority
concludes that “Mr. Baca may prevail on his claim and
be entitled to nominal damages” because “the
Department . . . has expressly waived the argument
that it is not a person under § 1983.”4 Maj. Op. at
4

I would not entertain the parties’ attempt to rewrite the
Presidential Electors’ pleadings on the fly. The parties urge us to
overlook the Presidential Electors’ deficient pleadings because “any
alleged defect is a technicality in the purest sense: it does not
affect, in any way, the substantive ability of [the Presidential
Electors] to bring an identical legal claim . . . . against the former
Secretary in his individual capacity.” Supp. Br. at 17. In the
parties’ eyes, “[s]uch a case would be, in every respect, identical to
that here.” Id. A claim against the former Secretary in his
individual capacity is not identical to a claim against the
Department; they are different defendants. The Secretary, sued in
his individual capacity, is a person. The Department is an arm of
the state of Colorado. Only one can be sued under § 1983. Will, 491
U.S. at 64. The Presidential Electors initially sued the former
Secretary in his individual capacity. See Dist. Ct. Dkt. No. 30 at 1.
But then the parties agreed to amend the pleadings by
substituting the Department for the former Secretary. Id. The
parties intended to “streamlin[e] this case and postur[e] their
claims and defenses in a way that w[ould] lead to a ruling that
provides guidance for the 2020 presidential election.” Id. At that

App. 135
49–50. We may not “recognize a cause of action that
Congress has denied.” Lexmark Int’l, Inc. v. Static
Control Components, Inc., 572 U.S. 118, 128 (2014).
“Section 1983 provides a federal forum to remedy many
deprivations of civil liberties, but it does not provide a
federal forum for litigants who seek a remedy against
a State for alleged deprivations of civil liberties.” Will,
491 U.S. at 66. The parties cannot “circumvent
congressional intent by” agreeing to waive an element
of the Presidential Electors’ § 1983 claim. See id. at 71.
Moreover, we are not bound to follow “a rule of law
whose nonexistence is apparent on the face of things,
simply because the parties agree upon it.” U.S. Nat’l
Bank of Or. v. Indep. Ins. Agents of Am., Inc., 508 U.S.
439, 447 (1993) (quotation marks omitted); see also
O’Connor v. City & Cty. of Denver, 894 F.2d 1210, 1226
(10th Cir. 1990) (“[A] party may not compel a court to
decide a constitutional argument, especially one of
some difficulty, by stipulation.” (quotation marks
omitted)).
The majority distinguishes this case from Arizonans
by explaining that, in Arizonans, “it was not the failure
of the improvised nominal-damages claim under § 1983
that mooted the case; it was [the plaintiff]’s departure
from state employment.” Maj. Op. at 47. I understand
the holding in Arizonans to turn on whether the
plaintiff could obtain prospective or retrospective relief.
Even without the claim for prospective relief (which
was unavailable because the plaintiff no longer worked
for the state), the case would not have been moot if the
time, the parties understood that they had “restructure[ed] the
case in a significant way.” Id.

App. 136
plaintiff could obtain nominal damages. Utah Animal
Rights Coal. v. Salt Lake City Corp., 371 F.3d 1248,
1257 (10th Cir. 2004). But the plaintiff’s claim for
nominal damages was futile because the defendant was
a state. Arizonans, 520 U.S. at 69. Therefore, neither
prospective nor retrospective relief was available. Id. at
68–71. As in Arizonans, the Presidential Electors
cannot obtain a prospective declaratory judgment. All
that is left is their claim for nominal damages and the
attendant retrospective declaratory relief. Because the
Presidential Electors have sued a state, their claim for
nominal damages is futile. See id. at 69. Therefore, the
outcome here should be the same as in Arizonans.
The majority also concludes that “Arizonans does
not teach that any claim for damages against a state
pursuant to § 1983 is moot; it stands for the narrower
proposition that a last-minute claim for legally
unavailable relief cannot overcome certain mootness.”
Maj. Op. at 48. I disagree. Arizonans did more than
discuss the timeliness of the nominal damages claim.
520 U.S. at 68, 71. Before encouraging “close
inspection” of “a claim for nominal damages, extracted
late in the day . . . and asserted solely to avoid
otherwise certain mootness,” id. at 71, the Court
explained that “§ 1983 creates no remedy against a
State,” id. at 69. The Court’s discussion of whether
“§ 1983 actions . . . lie against a State” would be
unnecessary if Arizonans was only a case about when
a plaintiff has delayed too long in raising a claim for
nominal damages “to overcome mootness.” Id. Nor do I
think the timeliness is the most relevant consideration;
a futile claim for damages prevents us from granting

App. 137
relief regardless of when the claim was raised by a
plaintiff.
Because we cannot grant relief to the Presidential
Electors, I would dismiss the appeal as moot.

App. 138

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Senior Judge Wiley Y. Daniel
Civil Action No. 17-cv-01937-WYD-NYW
[Filed April 10, 2018]
_____________________________
MICHEAL BACA,
)
POLLY BACA, and
)
ROBERT NEMANICH,
)
)
Plaintiffs,
)
)
v.
)
)
COLORADO DEPARTMENT )
OF STATE,
)
)
Defendant.
)
_____________________________ )
ORDER ON MOTION TO DISMISS
I. INTRODUCTION
This matter is before the Court on Defendant’s
Motion to Dismiss Under Fed. R. Civ. P. 12(b)(1) and
12(b)(6) filed November 8, 2017. A response in
opposition to the motion was filed on December 22,

App. 139
2017, and a reply was filed on January 19, 2018. Thus,
the motion is fully briefed.
II. BACKGROUND
Plaintiffs are three of the nine presidential Electors
for the State of Colorado. They allege that the Colorado
Department of State [“Defendant”], acting through its
Secretary, Wayne Williams [“Secretary”], and under
color of state law, specifically Colo. Rev. Stat. § 1-4-304,
threatened and intimidated them in the exercise of
their federally protected rights as presidential Electors
in the 2016 Electoral College. (Second Am. Compl.,
ECF No. 39, Introductory Paragraph.) The Complaint
seeks nominal damages for the infringement of a
fundamental federal right and a declaration that
Colorado’s law that purports to bind Electors by
requiring them to vote for the Presidential and Vice
Presidential candidates that received the highest
number of votes at the preceding general election, Colo.
Rev. Stat. § 1-4-304(5), is unconstitutional. (Id.)
Plaintiffs allege that the statute is unconstitutional on
its face and as applied to Electors because it infringes
on their right to vote as they see fit without coercion,
citing Article II and the Twelfth Amendment to the
United States Constitution. (Second Am. Compl. ¶¶ 35.)
As to the facts relevant to the claims, Plaintiffs
allege that on the day of the Electoral College,
December 19, 2016, they took an oath over objections to
cast their ballots for the Presidential and VicePresidential candidates who received the highest
number of votes in this State in the preceding election.
(Second Am. Compl. ¶ 53.) Plaintiffs allege that “before

App. 140
the vote, Secretary Williams, both personally and
through surrogates, stated that anyone who violated
their oath may be subject to felony perjury charges for
intentionally violating the oath.” (Id.)
Polly Baca and Robert Nemanich followed Colorado
law by casting their Electoral College ballots for the
Presidential and Vice-Presidential candidates who won
Colorado’s popular vote, Hillary Clinton and Timothy
Kaine. They assert, however, that they felt
“intimidated and pressured to vote against their
determined judgment” in light of the Secretary’s
actions and statements. (Second Am. Compl. ¶ 56.)1
Micheal Baca, however, crossed out Hillary Clinton’s
name on the pre-printed ballot and wrote in his vote for
John Kasich for President—a person who Defendant
notes appeared on no ballot, anywhere, as a
presidential candidate in the November 8, 2016 general
election. (Id. ¶ 54.) The Secretary, after reading
Michael Baca’s ballot, removed him from office, refused
to count his vote, referred him for a criminal
investigation, and replaced him with a substitute
elector who cast a vote for Clinton. (Id. ¶ 55.) Plaintiffs

1

Plaintiffs allege in that regard that after learning of what many
deemed to be credible allegations of foreign interference in the
popular election (id. ¶¶ 37–38), Plaintiff Nemanich asked the
Secretary “what would happen if” a Colorado elector did not vote
for Clinton and Kaine who had received the most popular votes in
Colorado. (Id. ¶ 46.) The Secretary, through the Colorado Attorney
General’s office, responded that Colorado law requires electors to
vote for the ticket that received the most popular votes in the
state, and an elector who did not comply with this law would be
removed from office and potentially be subjected to criminal
perjury charges. (Id. ¶¶ 46–47.)

App. 141
contend that the Secretary’s actions—which they
acknowledge are fully consistent with Colorado state
law—violated their federal constitutional rights.
Defendant argues that this Court lacks subject
matter jurisdiction under Rule 12(b)(1) because
Plaintiffs are former state officers who lack standing to
challenge Colorado law. Even if that Article III hurdle
is overcome, Defendant argues that Plaintiffs’
argument fails under Rule 12(b)(6) because the United
States Constitution does not bar a state from binding
its presidential electors to the outcome of that state’s
popular vote for President and Vice President. To the
contrary, Defendant asserts that the Constitution’s
text, United States Supreme Court precedent, and this
country’s longstanding historical practice contemplate
that the states may attach conditions to the office of a
presidential elector. Accordingly, Defendant argues
that this case should be dismissed.
I note that this is the second federal lawsuit that
Plaintiffs Polly Baca and Robert Nemanich have filed
related to their roles as presidential electors in the
2016 Electoral College. The first action, Baca v.
Hickenlooper, 16-cv-02986 [“Baca I”], was filed in
December 2016, just 13 days before the 2016 Electoral
College vote. The plaintiffs argued in Baca I, as in this
case, that Colorado’s binding presidential elector
statute, Colo. Rev. Stat. § 1-4-304(5), was
unconstitutional because it forced the electors to cast
their votes for Hillary Clinton and Timothy Kaine who
won the majority of Colorado’s votes or to be removed
from their position.

App. 142
The same day the complaint was filed in Baca I, the
plaintiffs filed a Motion for Temporary Restraining
Order and Preliminary Injunction seeking to enjoin the
defendants from enforcing Colorado’s statute. The
motion was denied at a hearing on December 12, 2016
(ECF No. 19), and by Order of December 21, 2017 (ECF
No. 27). The Order found that the plaintiffs did not
have a substantial likelihood of prevailing on the
merits of their claim and could not show that the other
three elements required for a preliminary injunction
were satisfied. (ECF No. 27 at 5-12.)
The Tenth Circuit on appeal declined to disturb this
decision, denying the plaintiffs’ emergency motion for
injunction pending appeal. (December 16, 2016 Order,
ECF No. 26 in Baca I.) As Defendant notes, in the runup to the Electoral College vote, several other courts
also declined to enjoin similar state laws governing
electors. They found, as in Baca I, that the challengers
were unlikely to succeed on the merits. See Chiafalo v.
Inslee, No. 16-36034, 2016 U.S. App. LEXIS 23392 (9th
Cir. Dec. 16, 2016); Chiafalo v. Inslee, 224 F. Supp. 3d
1140, 1144-45 (W.D. Wash. 2016); Koller v. Brown, 224
F. Supp. 3d 871, 878 (N.D. Cal. 2016); see also
Abdurrahman v. Dayton, No. 16-cv-4279 (PAM/HB),
2016 WL 7428193, *4 (D. Minn. Dec. 23, 2016).
The plaintiffs in Baca I dismissed the case without
prejudice in August 2017. The Complaint in this case
was filed in December 2017.

App. 143
III. ANALYSIS
A. Standard of Review
Defendant seeks to dismiss the case pursuant to
Fed. R. Civ. P. 12(b)(1) and (6). Under Rule 12(b)(1), a
complaint may be dismissed for lack of subject matter
jurisdiction. A motion to dismiss under Rule 12(b)(1)
can be either a facial attack on the sufficiency of the
allegations in the complaint as to subject matter
jurisdiction or a challenge to the actual facts upon
which subject matter jurisdiction is based. Ruiz v.
McDonnell, 299 F.3d 1173, 1180 (10th Cir. 2002). A
facial attack on the allegations as to subject matter
jurisdiction “questions the sufficiency of the complaint.”
Holt v. United States, 46 F.3d 1000, 1002 (10th Cir.
1995). The court must “accept the allegations in the
complaint as true.” Id.
As to a Rule 12(b)(6) motion to dismiss, the court
must “accept all well-pleaded facts as true and view
them in the light most favorable to the plaintiff.”
Jordan- Arapahoe, LLP v. Bd. of County Comm’rs of
Cnty. of Arapahoe, 633 F.3d 1022, 1025 (10th Cir.
2011). Plaintiff “must allege that ‘enough factual
matter, taken as true, [makes] his claim for relief ...
plausible on its face.’” Id. (quotation and internal
quotation marks omitted). “A claim has facial
plausibility when the [pleaded] factual content [ ]
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.’” Id.
(quotation omitted).

App. 144
B. The Merits of the Motion
1. Standing
Defendant first argues that Plaintiffs lack standing
to challenge Colo. Rev. Stat. § 1-4-304(5)—it asserts
that Plaintiffs lack that necessary “personal injury
fairly traceable to the defendant’s allegedly unlawful
conduct [that is] likely to be redressed by the requested
relief.” DaimerChrysler Corp. v. Cuno, 547 U.S. 332,
342 (2006). Specifically, Defendant argues that the
political subdivision standing doctrine bars Plaintiffs’
lawsuit See City of Hugo v. Nichols, 656 F.3d 1251,
1255 (10th Cir. 2011).
Plaintiffs argue in response that this Court
implicitly, and the Tenth Circuit explicitly, rejected
this standing argument in Baca I because Plaintiffs
alleged that the Secretary’s actions “infringe[d] upon
their own personal constitutional rights.” (See Baca I,
Tenth Circuit Op., ECF No. 26 at 7) (emphasis added).
Plaintiffs also contend that the Tenth Circuit
recognized that Plaintiffs have standing under
Coleman v. Miller, 307 U.S. 433 (1939).
I disagree that the Tenth Circuit actually decided
the standing issue in Baca I, and I did not address
standing in that case. While the issue was raised in the
motion to dismiss filed by the defendants in that case
(Baca I, ECF No. 35), the plaintiffs voluntarily
dismissed the case before the motion to dismiss was
ruled on. As to the Tenth Circuit’s decision, it accepted
Plaintiffs’ allegations that Colo. Rev. Stat. § 1-4-304(5)
infringed upon their personal constitutional rights
“given the stage of the proceedings” (on an emergency

App. 145
motion for an injunction) and “given the preliminary
record before us.” (Baca I, ECF No. 26 at 7.) While it
cited Coleman as a basis for standing, it did not
definitively decide the issue of standing due to the
stage of the case and lack of a record on the issue.2
Thus, I must address the standing issue.
I first find that Plaintiffs do not have standing
under the Coleman decision. In Coleman, the Supreme
Court found that a group of state legislators had
standing to prohibit the state from interfering with a
legislative vote. The Court held the senators’ “votes
against ratification have been overridden and virtually
held for naught although if they are right in their
contentions their votes would have been sufficient to
defeat ratification.” Coleman, 307 U.S. at 438. It thus
found that the senators had an adequate interest in the
case, as they had “a plain, direct and adequate interest
in maintaining the effectiveness of their votes.” Id.
Plaintiffs assert that their interest here is similar to
that of the state legislators in Coleman: as appointed
electors for Colorado, they were entitled to have their
votes cast and counted once voting began.
Coleman, however, was a case involving state
legislators, rather than presidential electors as here,
and it did not address the political subdivision standing
doctrine raised by Defendant. Even if Coleman is
relevant given that it involved legislators’ stating, I

2

Defendant notes that the Tenth Circuit’s decision, and the highly
expedited briefing leading up to it, were produced in a matter of
hours to avoid delaying the constitutionally-scheduled meeting of
the 2016 Electoral College.

App. 146
find that it does not provide a basis for standing to the
individual electors in this case. As Defendant correctly
notes, its holding has since been cabined by the
Supreme Court in Arizona State Legislature v. Arizona
Indep. Redistricting Comm’n, 135 S. Ct. 2652 (2015).
There, the Court concluded that the Arizona State
Legislature had standing to challenge a voter initiative
because it was “an institutional plaintiff asserting an
institutional injury” in a suit authorized by votes taken
in both the Arizona House and Senate. Id. at 2664. But
the Court cautioned that the same is not true for
individual legislators—they lack standing in part
because they are not authorized to represent the
legislature as a whole in litigation. Id. at 2664 (citing
Raines v. Byrd, 521 U.S. 811 (1997)). The Tenth Circuit
has stated that the “rule of law” from the Arizona State
Legislature case “materially alters the jurisprudence on
legislator standing” and that individual state
legislators now lack standing to challenge state law.
Kerr v. Hickenlooper, 824 F.3d 1207, 1214–17 (10th Cir.
2016) (no standing to challenge TABOR). Under this
same analysis, individual electors would not have
jurisdiction to challenge state law.
Thus, I turn to the political subdivision standing
doctrine to determine Defendant’s standing argument.
Under that doctrine, “federal courts lack jurisdiction
over certain controversies between political
subdivisions and their parent states.” City of Hugo, 656
F.3d at 1255. The Tenth Circuit noted in the City of
Hugo case that it had not found “a single case in which
the Supreme Court or a court of appeals has allowed a
political subdivision to sue its parent state under a
substantive provision of the Constitution.” Id. at 1257.

App. 147
“Instead, courts have allowed such suits only when
Congress has enacted statutory law specifically
providing rights to municipalities.” Id.
The political subdivision standing doctrine has been
noted to be “an important limitation on the power of
the federal government.” Cooke v. Hickenlooper, No. 13cv-1300-MSK-MJW, 2013 WL 6384218, at *10 (D. Colo.
Nov. 27, 2013). As Chief Judge Krieger of this court
noted in the Cooke case:
It guarantees that a federal court will not
resolve certain disputes between a state and
local government. A political subdivision may
seek redress against its parent state for
violation of a state Constitution, but the political
subdivision cannot invoke (nor can a federal
court impose) the protections of the United
States Constitution for individuals against a
state.
Id.
The political subdivision standing doctrine applies
both to political subdivisions of states such as cities
and counties and to state officers. See Cooke, 2013 WL
6384218, at *9 (applying doctrine to county sheriffs).
“The Supreme Court has held that state officials lack
standing to challenge the constitutional validity of a
state statute when they are not adversely affected by
the statute and their interest in the litigation is official,
rather than personal.” Donelon v. La. Div. of Amin.
Law, 522 F.3d 564, 566–67 (5th Cir. 2008) (citing Cnty.
Court of Braxton Cnty. v. West Virginia ex rel. Dillon,
208 U.S. 192, 197 (1908)). “In another context, the

App. 148
Supreme Court made it clear that courts should not
pass upon the constitutionality of a statute ‘upon
complaint of one who fails to show that he is injured by
its operation .... Thus, the challenge by a public official
interested only in the performance of his official duty
will not be entertained.’” Donelon, 522 F.3d at 566
(quoting Ashwander v. Tenn. Valley Auth., 297 U.S.
288, 348 (1936)).
Here, I find that the Colorado presidential electors
are state officials. See Walker v. United States, 93 F.2d
383, 388 (8th Cir. 1937) (finding that “presidential
electors are officers of the state and not federal
officers”); Chenault v. Carter, 332 S.W.2d 623, 626 (Ky.
1960) (holding that presidential electors are state
officers under Kentucky law). While presidential
electors “exercise federal functions under, and
discharge duties in virtue of authority conferred by, the
Constitution of United States”, they “are not officers or
agents of the federal government.” Burroughs v. United
States, 290 U.S. 534, 545 (1934); see also Ray v. Blair,
343 U.S. 214, 224 (1952) (“The presidential electors
exercise a federal function in balloting for President
and Vice-President but are not federal officers or
agents any more than the state elector who votes for
congressman.”).
Thus, I must address whether Plaintiffs have a
personal stake in the litigation, rather than merely an
official interest. I note that the substance of their claim
is that the State of Colorado violated their
constitutional right to cast an electoral vote of their
choice for president. (See Resp. to Mot. to Dismiss at 3.)
Under the political subdivision standing doctrine, this

App. 149
would not confer standing on Plaintiffs, as Plaintiffs
are seeking to exercise what they believe are the full
extent of their official powers under federal and state
law. Donelan, 522 F.3d at 568.
As the Ninth Circuit aptly noted, “a public official’s
‘personal dilemma’ in performing official duties that he
perceives to be unconstitutional does not generate
standing.” Thomas v. Mundell, 572 F.3d 756, 761 (9th
Cir. 2009). The plaintiffs lose nothing by their having
to vote in accordance with the state statute “‘save an
abstract measure of constitutional principle.’” Id.
(quotation omitted). Their injury “is based upon their
‘abstract outrage’ at the operation” of the state statute
they perceive to be unconstitutional. Id. at 762; see also
Raines, 521 U.S. at 829-30 (finding that members of
Congress did not have standing to challenge the
constitutionality of the Line Item Veto Act because
they did not have a sufficient “personal stake” in the
dispute, even though they argued that the Act caused
an unconstitutional diminution of Congress’ power, as
the injury was “based on a loss of political power, not
loss of any private right”); Smith v. Indiana, 191 U.S.
138, 149 (1903) (a county auditor who argued that an
Indiana property tax statute violated the Fourteenth
Amendment had no personal interest in the litigation;
“[h]e had certain duties as a public officer to perform.
The performance of those duties was of no personal
benefit to him. Their non-performance was equally
so.”); Mesa Verde Co. v. Montezuma Cnty. Bd. of
Equalization, 831 P.2d 482, 484 (Colo. 1992) (holding
that “political subdivisions of the state or officers
thereof . . . lack standing to assert constitutional
challenges to statutes defining their responsibilities.”).

App. 150
Plaintiffs argue, however, that they have standing
under the political subdivision standing doctrine
because they were personally injured by the State’s act
because they were either removed from office (Mr.
Baca) or threatened with removal (Mr. Nemanich and
Ms. Baca) for exercising their alleged constitutional
rights. Plaintiffs assert that the Supreme Court has
held that the threat of or actual removal from office
confers standing. Bd. of Education v. Allen, 392 U.S.
236, 241 n.5 (1968) (state officials’ “refusal to comply
with [a] state law [that is] likely to bring their
expulsion from office” gives them a “personal stake”
sufficient to confer standing); see also City of Hugo, 656
F.3d at 1259-60 (citing this ruling in Allen but noting
that “the sole discussion of the municipal entity’s
standing was contained in a footnote”).
I find that Allen does not provide standing. I first
note that Allen did not discuss the political subdivision
standing doctrine, perhaps because the appellees in
that case did not contest the appellant’s standing. See
Allen, 329 U.S. at 241 n. 5. Moreover, I agree with
Defendant that serving as an elector in the Electoral
College is not “a job” or “an office” that confers any
meaningful pecuniary interest or autonomous power on
Plaintiffs. Under Colorado law, electors are reimbursed
for their mileage, given a nominal five dollars for their
attendance at the one-day meeting, and must cast their
ballots for the candidates who won Colorado’s popular
vote. Colo. Rev. Stat. §§ 1-4-304(5) & 305. Once the
meeting is done and the votes are cast, the electors’
duties are over. There is no ongoing “office” or “job”
that the electors have and risk losing.

App. 151
Moreover, as the Complaint makes clear, Plaintiffs’
alleged injury is not an individual one based on the
possible loss of this nominal compensation, but rather
an institutional injury grounded in the diminution of
power that Colorado’s binding statute allegedly causes
to the electors’ official role. (Compl., ¶¶ 7–9, 41.) The
“injury” that Plaintiffs allege from being removed (or
threatened from being removed) as a Presidential
elector is that they would lose the ability to cast their
vote; the quintessential duty of their position.
While Plaintiffs argue that they are not ordinary
state officials because they exercise a “federal
function”, this does not remove a state official from the
political subdivision standing doctrine. As Defendant
notes, a county sheriff exercises a federal function
when he or she assists in enforcing any number of
federal laws; a state insurance commissioner exercises
a federal function when he or she administers
complementary state and federal insurance programs
like Medicaid and Medicare; and a city government
exercises a federal function when it applies for and
receives federal dollars for local social programs and
improvement projects. See FERC v. Mississippi, 456
U.S. 742, 762 (1982) (recognizing “the Federal
Government has some power to enlist a branch of state
government … to further federal ends.”). Yet each of
these subordinate officials and entities is barred by the
political subdivision standing doctrine from
maintaining federal litigation against their parent
state. See Donelon, 522 F.3d at 566–67; City of S. Lake
Tahoe v. Calif. Tahoe Reg’l Planning Agency, 625 F.2d
231, 233–34 (9th Cir. 1980); Cooke, 2013 WL 6384218,
at *8–12. Similarly, while the presidential electors may

App. 152
play a federal function in casting their vote, their role
as subordinate state officials subjects them to the
political subdivision standing doctrine.
Finally, as Defendant notes, Plaintiffs bring their
challenge under Article II and the Twelfth Amendment
of the Constitution, not a federal statute. Following the
“trend” of other federal courts, the Tenth Circuit has
stated that it will permit a lawsuit by a political
subdivision against its parent state in the rare
circumstance that the suit is “based on federal statutes
that contemplate the rights of political subdivisions.”
City of Hugo, 656 F.3d at 1258 (emphasis added). But
the Tenth Circuit warned that there is not a “single
case where a court of appeals or the Supreme Court has
expressly allowed … a claim by a municipality against
its parent state premised on a substantive provision of
the Constitution.” Id. The Tenth Circuit thus refused to
depart from the “historic understanding of the
Constitution as not contemplating political
subdivisions as protected entities vis-a-vis their parent
states.” Id. at 1259. This also supports my finding
regarding lack of standing.
Accordingly, the motion to dismiss is granted as
Plaintiffs lack standing to assert their claims.
2. Whether Plaintiff’s Complaint Must Be
Dismissed for Failure to State a Claim
Even if Plaintiffs have standing to pursue their
claim, I find that their claims must be dismissed for
failure to state a claim upon which relief can be
granted. Presidential electors “act by authority of the
State, which receives its authority from the federal

App. 153
constitution.” Blair, 343 U.S. at 224. The selection of
presidential electors is provided for in Article II of the
Constitution. Thus, Article II provides that “[e]ach
state shall appoint, in such manner as the Legislature
thereof may direct, a number of electors, equal to the
whole number of Senators and Representatives to
which the State may be entitled in the Congress.” U.S.
CONST., art. II, § 1, cl. 2 (emphasis added). Nothing in
the Twelfth Amendment, or any other amendment,
abrogates this state power.
Defendant argues that because the States alone
have the power to appoint their presidential electors,
they necessarily possess the power to attach conditions
to that appointment and provide for removal. Plaintiffs
argue, on the other hand, that there is a distinction
between the power to appoint presidential electors and
the power to control them. I agree with Defendant, and
find that States have the power to attach conditions to
the electors’ appointment. The Supreme Court has held
that “the state legislature’s power to select the manner
for appointing electors is plenary”; they may “select the
manner for appointing electors” or “select the electors
itself”, and may “take back the power to appoint
electors.” Bush, 531 U.S. 98, 104 (2000). Binding
electors to the outcome of the State’s popular vote
would appear to be one such permissible condition. See
Beverly J. Ross & William Josephson, The Electoral
College and the Popular Vote, 12 J. L. & Politics 665,
678 (1996). Indeed, this is the most popular condition,
as 29 states and the District of Columbia have chosen
to adopt it. In the same vein, no constitutional
provision bars a state from removing electors who
refuse to comply with state law.

App. 154
Moreover, the United States Constitution is silent
as to Plaintiffs’ argument that there is a distinction
between the power to appoint presidential electors and
the power to control them. When the Constitution is
silent, the power to bind or remove electors is properly
reserved to the States under the Tenth Amendment.
U.S. CONST. amend. X; see McPherson v. Blacker, 146
U.S. 1, 35–36 (1892) (stating “exclusive” State power
over “mode of appointment” of electors “cannot be
overthrown because the States have latterly exercised
in a particular way a power which they might have
exercised in some other way”); cf. Matthew J. Festa,
The Origins and Constitutionality of State Unit Voting
in the Electoral College, 54 VAND. L. REV. 2099, 2145
(2001) (“[A]ny legislation that impinges on the states’
discretion to use the [winner-take-all allocation of
electoral votes] would seem to run into this very same
Tenth Amendment problem”). Colorado has chosen to
exercise that power and bind its presidential electors to
the candidates who won the State’s popular vote. Colo.
Rev. Stat. § 1-4-304(5). Statutes are given a
presumption of constitutionality. Gillmor v. Thomas,
490 F.3d 791, 798 (10th Cir. 2007). Plaintiffs have cited
no case, and I am aware of none, finding Colorado’s
statute (or the similar statutes of other states and the
District of Columbia), to be unconstitutional.
Notably, the Supreme Court upheld measures that
bind presidential electors in circumstances that, while
not identical, are similar to this case. In Ray v. Blair,
the Alabama legislature delegated to the political
parties the authority to nominate electors. 343 U.S. at
217 n.2. Alabama’s Democratic Party required its
nominees for electors to pledge “aid and support” to the

App. 155
nominees of the National Convention of the Democratic
Party for President and Vice President. Id. at 215. The
Supreme Court upheld this pledge requirement, finding
“no federal constitutional objection” when a state
authorizes a party to choose its nominees for elector
and to “fix the qualifications for the candidates.” Id. at
231. Thus, the Court refused to recognize a
constitutional right for presidential electors to vote
their individual preferences. While Blair’s holding does
not directly address the claims in this case, it strongly
implies that state laws directly binding electors to a
specific candidate are constitutional. See Ross &
Josephson, The Electoral College and the Popular Vote,
12 J. L. & Politics at 696. Thus, if a state has the power
to delegate its power to bind electors, as Blair declared,
it would appear that it necessarily must have the
authority to bind them itself and to enforce that
binding.
Plaintiffs note, however, that the Supreme Court
stated in Blair that electors’ “promises” may be “legally
unenforceable” because they could be “violative of an
assumed constitutional freedom of the elector under
the Constitution to vote as he may choose in the
electoral college.” 343 U.S. at 230 (citation omitted).
They argue that this passage recognizes the key
distinction between the state-regulated appointment
process and the federal function of casting a vote for
president that must be free from state interference.
Further, they argue that the Constitution’s text
demonstrates that states may not dictate electors’
votes, as the Tenth Circuit seemingly recognized in
Baca I, wherein it stated that any attempt “to remove
an elector after voting ha[d] begun” would be “unlikely

App. 156
in light of the text of the Twelfth Amendment,” which
gives “Electors” freedom to cast a “vote by ballot”
without restriction. (Baca I, ECF No. 26, p. 12 n. 4)
(citing U.S. CONST. amend. XII). Plaintiffs assert that
the court’s reliance on Constitutional text was wellfounded in light of the early construction of the
Constitution in the Federalist Papers and other
sources, wherein the electors were expected to exercise
independent judgment. I am not persuaded by
Plaintiffs’ argument.
First, to the extent that Plaintiffs rely on
statements by the Tenth Circuit in Baca I that they
argue support their position, those statements are dicta
and are not binding. See United States v. VillarrealOrtiz, 553 F.3d 1326, 1328 n. 3 (10th Cir. 2009). The
Tenth Circuit did not actually decide whether
Colorado’s elector statute runs afoul of the Twelfth
Amendment or the Constitution in general. Moreover,
the Tenth Circuit did not analyze the Twelfth
Amendment’s text or the historical reasons for its
ratification. Again, this is not surprising given the fact
that the Tenth Circuit’s Order was issued on an
extremely expedited schedule to avoid delaying the
scheduled meeting of the 2016 Electoral College.
Second, the Supreme Court in Blair rejected the
argument “that the Twelfth Amendment demands
absolute freedom for the elector to vote his own choice,
uninhibited by pledge.” Id. at 228. It stated that [“[i]t
is true that the Amendment says the electors shall vote
by ballot” but “it is also true that the Amendment does
not prohibit an elector’s announcing his choice
beforehand, pledging himself.” Id. It then stated:

App. 157
The suggestion that in the early elections
candidates for electors—contemporaries of the
Founders—would have hesitated, because of
constitutional limitations, to pledge themselves
to support party nominees in the event of their
selection as electors is impossible to accept.
History teaches that the electors were expected
to support the party nominees. Experts in the
history of government recognize the
longstanding practice. Indeed more than twenty
states do not print the names of the candidates
for electors on the general election ballot.
Instead in one form or another they allow a vote
for the presidential candidate of the national
conventions to be counted as a vote for his
party’s nominees for the electoral college. This
long-continued practical interpretation of the
constitutional propriety of an implied or oral
pledge of his ballot by a candidate for elector as
to his vote in the electoral college weighs heavily
in considering the constitutionality of a pledge,
such as the one here required, in the primary.
Id. at 228-30 (internal footnotes omitted).
Blair then went on to state the passage relied on by
Plaintiffs, that “even if promises of candidates for the
electoral college are legally unenforceable because
violative of an assumed constitutional freedom of the
elector under the Constitution, Art. II, s 1, to vote as he
may choose in the electoral college, it would not follow
that the requirement of a pledge in the primary is
unconstitutional.” 343 U.S. at 230. It did not, however,
actually decide that promises of candidates for the

App. 158
electoral college regarding a vote are unconstitutional,
merely noting that this possibility would not change
the result in that case. I find it likely that the Supreme
Court would find such promises constitutional in light
of its recognition that, historically, the electors are
expected to obey the will of the people. 343 U.S. at 230
n. 15.
Thus, Blair noted that while it “was supposed that
the electors would exercise a reasonable independence
and fair judgment in the selection of the chief
executive”, “experience soon demonstrated that”
regardless of how they were chosen, “they were so
chosen simply to register the will of the appointing
power in respect of a particular candidate.” 343 U.S. at
228-29, n. 16 (quoting McPherson, 146 U.S. at 36)
(further quotation and internal quotation marks
omitted). Blair also noted that historically, beginning
even in the first election and continuing thereafter, the
electors were “‘not the independent body and superior
characters which they were intended to. They were not
left to the exercise of their own judgment: on the
contrary, they gave their vote, or bound themselves to
it, “according to the will of their constituents.”’ Id. at
228 n. 15 (quoting 2 Story on the Constitution, 1463
(5th ed., 1891)). The reason is that “‘the people do not
elect a person for an elector who, they know, does not
intend to vote for a particular person as President.’” Id.
(quoting 11 Annals of Congress 1289–90, 7th Cong., 1st
Sess. (1802)). As Justice Story put it, “an exercise of an
independent judgment would be treated, as a political
usurpation, dishonourable to the individual, and a
fraud upon his constituents.” 3 Joseph Story,
Commentaries on the Constitution of the United States

App. 159
§ 1457 (1833). Plaintiffs’ analysis focusing on what they
claim was the Framers’ original understanding of the
role of electors under the Constitution ignores this
history and the fact that the original understanding of
the electors’ roles never came to pass.
Moreover, any ostensible tension between the
Framers’ original understanding and this country’s
longstanding historical practice cannot diminish the
State’s plenary power over its electors. As the Supreme
Court has explained, there is “no reason for holding
that the power confided to the states by the
constitution has ceased to exist because the operation
of the [Electoral College] system has not fully realized
the hopes of those by whom it was created.”
McPherson, 146 U.S. at 36. The view that the electors
were chosen to register the will of the appointing power
“has prevailed too long and been too uniform” to justify
a contrary approach. Id.; see also Bush v. Gore, 531
U.S. at 104 (“History has now favored the voter”);
Williams v. Rhodes, 393 U.S. 23, 34 (1968) (“the State
is left with broad powers to regulate voting, which may
include laws relating to the qualification and functions
of electors”). As such, the State’s plenary,
comprehensive, and exclusive power over its
electors—bolstered by this country’s democratic history
and longstanding practice—defeats any conflicting
intent held by the Framers. NLRB v. Noel Canning,
134 S. Ct. 2550, 2559 (2014) (stating “long settled and
established practice” deserve “great weight” in
constitutional interpretation); Ray, 343 U.S. at 228
(citing to “longstanding practice” to uphold pledge
requirement).

App. 160
I also agree with Defendant that whatever the
Framers’ original understanding or intent was, the
electors’ role was “materially chang[ed]” by the Twelfth
Amendment’s plain language. 3 Joseph Story,
Commentaries on the Constitution of the United States
§ 1460 (1833). Under the original Constitution, “the
electors ... did not vote separately for President and
Vice-President; each elector voted for two persons,
without designating which office he wanted each
person to fill.” Blair, 343 U.S. at 224 n.11. “The Twelfth
Amendment was brought about as a result of the
difficulties caused by that procedure.” Id. In 1800, for
example, the election ended in a tie because
Democratic-Republican electors had no way to
distinguish between Presidential nominee Thomas
Jefferson and Vice-Presidential nominee Aaron Burr
when they each cast two votes for President. See Robert
M. Hardaway, The Electoral College and the
Constitution, 91–92 (1994). Because that situation was
“manifestly intolerable,” Ray, 343 U.S. at 224 n.11, the
Twelfth Amendment was adopted allowing the electors
to cast “distinct ballots” for President and VicePresident. U.S. CONST. amend. XII. The Twelfth
Amendment thus permitted electors to be chosen “to
vote for party candidates for both offices,” allowing
them “to carry out the desires of the people, without
confronting the obstacles which confounded the
elections of 1796 and 1800.” Blair, 343 U.S. at 224 n.
11. It was the solution to the unique problems posed
when electors are pledged and bound to the candidates
of their declared party. Without that historical practice,
dating back to at least 1800, the Twelfth Amendment
would not have been necessary.

App. 161
As noted earlier, 29 states, including Colorado, and
the U.S. Congress have enacted legislation that codifies
this historical understanding and longstanding
practice. See National Conference of State
Legislatures, The Electoral College, n. 3 (Aug. 22,
2016), available at: http://www.ncsl.org/research/
elections-and-campaigns/the-electoral-college.aspx (last
visited Nov. 5, 2017); D.C. CODE ANN. § 11001.08(g)(2). Multiple lower courts have found state
elector statutes like Colorado’s to be enforceable. See
Gelineau v. Johnson, 904 F. Supp. 2d 742, 748 (W.D.
Mich. 2012) (“Though the [Blair] Court was not in a
position to decide whether the pledge was ultimately
enforceable, the opinion’s reasoning strongly suggested
that it would be” and noting that the “constitutional
history further supports this conclusion”; the Twelfth
Amendment does not require party-ticket voting for
President and Vice-President but “left that decision
where it had been—with the states” who “have great
latitude in choosing electors and guiding their
behavior”); Thomas v. Cohen, 262 N.Y.S. 320, 324, 326
(Sup. Ct. 1933) (finding that electors may not vote for
any qualified person and do not “possess such freedom
of action”; “the electors are expected to choose the
nominee of the party they represent, and no one else.
The elector who attempted to disregard that duty could
. . . be required by mandamus to carry out the mandate
of the voters of his State”; “the services performed by
the presidential electors are purely ministerial,
notwithstanding the language of the Constitution
written 100 years ago”); State ex rel. Neb. Republican
State Cent. Comm. v. Wait, 138 N.W. 159, 163 (Neb.
1912) (affirming writ of mandamus requiring the
Secretary of State to print on the Republican line of the

App. 162
ballot the names of six replacement electors when the
original Republican electors “openly declare[d]” they
would vote in the Electoral College for another party’s
candidates, and finding that if the electors will not
perform their duty, then the electors vacated their
places as presidential electors).
The cases cited in the previous paragraph
underscore what has been described as the “bounden
duty” imposed on electors to vote in the Electoral
College for the candidates who won the State’s popular
vote. Thomas, 262 N.Y.S. at 326. The Thomas court
stated that so “sacred and compelling” is that
duty—and so “unexpected and destructive of order in
our land” would be its violation—that courts have
recognized its performance amounts to a “purely
ministerial” duty that may be compelled through a writ
of mandamus. Id.; see also Spreckels v. Graham, 228 P.
1040, 1045 (Cal. 1924) (presidential electors’ “sole
function is to perform a service which has come to be
nothing more than clerical—to cast, certify, and
transmit a vote that already predetermined. It was
originally supposed by the framers of our national
Constitution that the electors would exercise an
independent choice, based upon their individual
judgment. But, in practice so long established as to be
recognized as part of our unwritten law, they have been
‘selected under a moral restraint to vote for some
particular person who represented the preferences of
the appointing power’, ‘simply to register the will of the
appointing power in respect of a particular candidate’
. . . .They are in effect no more than
messengers. . . . .the sole public duty to be performed
by them after the election involves no exercise of

App. 163
judgment or discretion and no portion of the ‘sovereign
powers of government’ . . . “) (internal quotations
omitted). To the extent Plaintiffs have cited cases or
authority to the contrary, including Opinion of the
Justices, 250 Ala. 399 (Ala. 1948) and Breidenthal v.
Edwards, 57 Kan. 332, 339 (1896), I do not find them
persuasive for the reasons expressed in this Order.
Finally, I reject Plaintiffs’ argument that Colorado’s
binding electoral statute interferes with the
performance of a “federal function”, see Blair, 343 U.S.
at 224. Thus, Plaintiffs argue that because casting a
vote for president is a federal duty, Colorado may not
interfere with or impede the performance of that duty.
Plaintiff cites to cases such as Leslie Miller, Inc. v.
State of Arkansas, 352 U.S. 187 (1956). In that case, a
contractor in Arkansas was convicted of submitting a
bid, executing a contract, and commencing work as a
contractor without having obtained a license under
Arkansas law for such activity. Id. at 188. The
contractor and the United States as amicus curiae
argued that the Arkansas statute requiring this license
interfered with the Federal Government’s power to
select contractors and schedule construction and was in
conflict with the federal law regulating procurement.
Id. The Supreme Court agreed, noting the
requirements of the Armed Services Procurement Act
“that awards on advertised bids ‘shall be made * * * to
that responsible bidder whose bid, conforming to the
invitation for bids, will be most advantageous to the
Government, price and other factors considered.’” Id.
(quotation omitted). The relevant factors for making
this determination were set forth in the Act and
regulations. Id. at 188-89. Arkansas licensing law

App. 164
looked to similar factors to guide the Contractors
Licensing Board. Id. at 189. The Supreme Court held:
Mere enumeration of the similar grounds for
licensing under the state statute and for finding
‘responsibility’ under the federal statute and
regulations is sufficient to indicate conflict
between this license requirement which
Arkansas places on a federal contractor and the
action which Congress and the Department of
Defense have taken to ensure the reliability of
persons and companies contracting with the
Federal Government. Subjecting a federal
contractor to the Arkansas contractor license
would give the State’s licensing board a virtual
power of review over the federal determination
of ‘responsibility’ and would thus frustrate the
federal policy of selecting the lowest responsible
bidder.
Id. at 189-90; see also Johnson v. Maryland, 254 U.S.
51, 57 (1920) (holding that federal postal officials may
not be required to get a state driver’s license to perform
their duties because that would “require qualifications
in addition to those that the [Federal] Government has
pronounced sufficient. . .”).
The rationale of those cases is not applicable here.
The Federal Government has not taken action to
determine the grounds for removal of presidential
electors or what restrictions can be placed on electors,
such as the requirement that they vote for the
candidate who received the highest number of votes in
the election as set forth in Colorado Rev. Stat. § 1-4304(5). The Constitution is silent on these issues. It

App. 165
requires only that the states appoint the electors
(which shall not include a senator or representative or
person holding an office of trust or profit under the
United States) and that the electors must “cast a ballot
for President” (who must be at least 35) and VicePresident, one of whom must not be an inhabitant of
the same state as the elector. U.S. CONST. art. II,
amend. XII. As neither the Constitution nor federal law
addresses the issues that Plaintiffs complain of in Colo.
Rev. Stat. § 1-4-304(5), I find that the state law does
not interfere either with the Constitution or federal
policy. I also find that it does not “frustrate the
legitimate and reasonable exercise of federal
authority.” Wyoming v. Livingston, 443 F.3d 1211, 1213
(10th Cir. 2006).
As Defendant notes, the state elector enjoys no
constitutional protection against removal by the
appointing authority, unlike “civil officers of the United
States who may be impeached only for “high crimes
and misdemeanors” and federal judges who hold their
office during “good behavior.” U.S. CONST. art. , § 4; art.
III, § 1. And the Supreme Court has held that “[t]he
power to remove is, in the absence of statutory
provision to the contrary, an incident of the power to
appoint.” Burnap v. United States, 252 U.S. 512, 515
(1920). The Supreme Court has also held that electors
“act by authority of the state” that appoints them.
Blair, 343 U.S. at 224. And the state’s “power and
jurisdiction” over its electors is “plenary”,
“comprehensive”, as in “conveying the broadest power
of determination”, and “exclusive[]”. McPherson, 146
U.S. at 27, 35. Thus, it appears that states play, at
least, a coordinate role with the federal government in

App. 166
connection with the electors. See N.Y. State Dep’t v.
Dublino, 413 U.S. 405, 421 (1973) (“Where coordinate
state and federal efforts exist within a complementary
. . . framework, and in the pursuit of common purposes,
the case for federal pre-emption becomes a less
persuasive one.”)
Finally, Congress itself has passed a law binding
the District of Columbia’s electors to the result of the
popular vote in the District. D.C. CODE ANN. § 11001.08(g)(2) (2017). Thus, it would appear that as far
as Congress is concerned, binding electors to the
outcome of a jurisdiction’s popular vote promotes
federal objectives. And this also appears to be
consistent with the history of the Twelfth Amendment,
as discussed earlier. As Blair noted, the very thing
intended by the Twelfth Amendment was to bind an
elector to the popular vote, as “the people do not elect
a partisan for an elector who, they know, does not
intend to vote for a particular person as President.” 343
U.S. at 224 n. 15.3 Accordingly, I reject Plaintiffs’
argument that Colorado’s binding electoral statute
interferes with the performance of a federal function.

3

Nat’l Bank v. Commonwealth, 76 U.S. 353 (1870), cited in
Plaintiffs’ Response on page 7, also supports Defendant’s
argument, not Plaintiffs. There, the Court affirmed the
constitutionality of a Kentucky tax on shares of a national bank,
stating that the tax “in no manner hinders [the bank] from
performing all the duties of financial agent of the government.” Id.
at 363. Similarly here, Colorado’s binding statute does not hinder
the duty of presidential electors to cast a ballot and perform their
constitutional roles. Indeed, the statute requires the presidential
electors to “perform the duties required of them by the constitution
and laws of the United States.” Colo. Rev. Stat. § 1-4-304(1).

App. 167
IV. CONCLUSION
In conclusion, Plaintiffs ask this Court to strike
down Colorado’s elector statute that codifies the
historical understanding and longstanding practice of
binding electors to the People’s vote, and to sanction a
new system that would render the People’s vote merely
advisory. I reject this invitation, finding not only that
Plaintiffs lack standing but that their claims fail to
state a claim upon which relief can be granted.
Accordingly, it is
ORDERED that Defendant’s Motion to Dismiss
Plaintiff’s Complaint Under Rules 12(b)(1) and 12(b)(6)
filed on May 1, 2015 (ECF No. 23) is GRANTED, and
Plaintiffs’ claims are DISMISSED WITH
PREJUDICE.
Dated: April 10, 2018
BY THE COURT:
s/ Wiley Y. Daniel
Wiley Y. Daniel
Senior United States District Judge

App. 168

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Senior Judge Wiley Y. Daniel
Civil Action No. 16-cv-02986-WYD-NYW
[Filed December 21, 2016]
________________________________
POLLY BACA and
)
ROBERT NEMANICH,
)
)
Plaintiffs,
)
)
v.
)
)
JOHN W. HICKENLOOPER JR., )
in his official capacity as
)
Governor of Colorado; CYNTHIA )
H. COFFMAN, in her official
)
capacity as Attorney General
)
of Colorado; and WAYNE W.
)
WILLIAMS, in his official
)
capacity as Colorado Secretary
)
of State,
)
)
Defendants.
)
________________________________ )
ORDER

App. 169
I. INTRODUCTION
THIS MATTER is before the Court on Motion by
Plaintiffs for Temporary Restraining Order and
Preliminary Injunction (ECF No. 2), filed December 6,
2016. A hearing was held on December 12, 2016, at the
end of which I orally denied Plaintiffs’ motion.
Plaintiffs filed an emergency motion with the Tenth
Circuit Court of Appeals, filed December 13, 2016,
seeking an injunction pending appeal. For the reasons
noted in its December 16, 2016, Order, the Tenth
Circuit denied Plaintiffs’ emergency motion for
injunction pending appeal. Therefore, the sole purpose
of this Order is to state in a written order why
Plaintiffs’ request for injunctive relief was denied.
Plaintiffs are two of the nine appointed presidential
electors, selected to vote for the candidates that
received the majority of Colorado’s electorate vote. (See
Compl., ECF No. 1). On Tuesday, November 8, 2016,
Hillary Clinton and Timothy Kaine won the majority of
Colorado’s votes, and as such, the Democrat Party’s
presidential electors are tasked with the duty to cast
their votes for them when the Electoral College meets
on Monday, December 19, 2016. Plaintiffs argue that
Colorado’s binding presidential elector statute, Colo.
Rev. Stat. § 1-4-304(5), violates Article II of the U.S.
Constitution, the Twelfth Amendment, the First
Amendment, and the Fourteenth Amendment’s Equal
Protection Clause because they are “forced” to vote for
the Clinton-Kaine ticket and will be removed from
their position if they do not. (Id.).
Defendants filed a Response to Plaintiffs Motion for
Preliminary Injunction (ECF No. 13), on December 9,

App. 170
2016, arguing that Colorado’s statute—which is similar
to that of 28 other states and the District of
Columbia—is constitutional. Defendants cite a bevy of
case law and historical support for their position. In
addition to contesting Plaintiffs’ First and Fourteenth
Amendment arguments, Defendants argue Plaintiffs’
claims fail due to their lack of standing and laches.
(Id.).
The Colorado Republican Committee filed a Motion
to Intervene (ECF No. 11), on December 9, 2016, along
with a Memorandum in Opposition to Plaintiffs’ Motion
for Temporary Restraining Order and Preliminary
Injunction (ECF No. 11-1). President Elect Donald J.
Trump and Donald J. Trump for President, Inc., filed
a Motion to Intervene (ECF No. 16), on December 12,
2016, the day of the preliminary injunction hearing,
which motion was granted. I now turn to the merits of
Plaintiffs’ motion.
II. ANALYSIS
I first note that “[a]s a preliminary injunction is an
extraordinary remedy, the right to relief must be clear
and unequivocal.” Schrier v. Univ. Of Colo., 427 F.3d
1253, 1258 (10th Cir. 2005) (quoting SCFC ILC, Inc. v.
Visa USA, Inc., 936 F.2d 1096, 1098 (10th Cir.1991)
(citation omitted)); United States ex rel. Citizen Band
Potawatomi Indian Tribe of Okla. v. Enter. Mgmt.
Consultants, Inc., 883 F.2d 886, 888–89 (10th Cir.1989)
(“Because it constitutes drastic relief to be provided
with caution, a preliminary injunction should be
granted only in cases where the necessity for it is
clearly established.”). In order to be entitled to entry of

App. 171
a preliminary injunction pursuant to Fed. R. Civ. P. 65,
the moving party must establish that:
(1) [he or she] will suffer irreparable
injury unless the injunction issues; (2) the
threatened injury ... outweighs whatever
damage the proposed injunction may
cause the opposing party; (3) the
injunction, if issued, would not be adverse
to the public interest; and (4) there is a
substantial likelihood [of success] on the
merits.
Schrier, 427 F.3d at 1258.
Because the limited purpose of a preliminary
injunction “is merely to preserve the relative positions
of the parties until a trial on the merits can be held,”
we have “identified the following three types of
specifically disfavored preliminary injunctions…:
(1) preliminary injunctions that alter the status quo;
(2) mandatory preliminary injunctions; and
(3) preliminary injunctions that afford the movant all
the relief that it could recover at the conclusion of a full
trial on the merits.” Schrier, 427 F.3d at 1258-59
(citations omitted). Such disfavored injunctions “must
be more closely scrutinized to assure that the
exigencies of the case support the granting of a remedy
that is extraordinary even in the normal course.” Id.
(citations omitted).
Where the opposing party has notice, the procedure
and standards for issuance of a temporary restraining
order mirror those for a preliminary injunction. Stine

App. 172
v. Lappin, No. 08-cv-00164-WYD-KLM, 2009 WL
482630, *2 (D. Colo. Feb. 25, 2009) (citation omitted).
In this case, I find that the injunction that Plaintiffs
request seeks to alter the status quo and, because it
would otherwise be a mandatory injunction, it is
disfavored under Tenth Circuit law. As such, Plaintiffs’
motion must be more closely scrutinized under the
standard prescribed above.
This case is extraordinary because the two plaintiffs
were selected as Democratic electors and they signed a
pledge pursuant to Colorado statute, Colo. Rev. Stat.
§ 1-4-304, which provides that they would vote
consistent with the popular vote of the presidential
election, which took place on November 8, 2016. See
Colo. Rev. Stat. § 1-4-304(5). Hillary Clinton and Tim
Kaine won the vote in Colorado, and because of that,
the electors are bound to vote for the Clinton/Kaine
ticket when the electors meet at high noon at the
Colorado State Capitol, Monday, December 19, 2016.
See Colo. Rev. Stat. § 1-4-304(1). Plaintiffs ask the
Court to enjoin Defendants from enforcing Colorado’s
binding presidential elector statute, which provides:
Each presidential elector shall vote for
the presidential candidate and, by
separate ballot, vice-presidential
candidate who received the highest
number of votes at the preceding general
election in this state.
Colo. Rev. Stat. § 1-4-304(5).
The only consequences to the Plaintiffs’ failure to
comply with the statute raised by their filings with the

App. 173
Court is that the Secretary of State would replace them
as electors and someone else would be chosen. At oral
argument, Plaintiffs raised, for the first time, that the
Secretary of State’s office would pursue misdemeanor
charges or misdemeanor allegations against these
plaintiffs, and Plaintiffs’ counsel referenced 18 U.S.C.
§ 594. Because neither of these two issues was properly
raised in Plaintiffs’ pleadings, and neither would
change the outcome of my ruling, I will decide this
matter based on whether or not there is a substantial
likelihood of the plaintiffs prevailing on the merits, and
whether or not there has been compliance with the
other requirements for the issuance of an injunction,
given the fact that the type of injunction sought here is
disfavored and is an extraordinary remedy.
A. Substantial Likelihood of Prevailing on the
Merits
Plaintiffs argue that somehow requiring them to
honor their obligations pursuant to the pledge they
signed, and as required by state statute, violates
Article II of the Constitution, the Twelfth Amendment,
the First Amendment and the Equal Protection Clause
of the Fourteenth Amendment. Based on the reasons
below, I find that Plaintiffs do not have a substantial
likelihood of prevailing on the merits of their claim.1

1

I want to point out that the Supreme Court expressly rejected the
application of strict scrutiny to a challenge of state election laws,
which is really what this case is, in favor of a more flexible
standard. See Burdick v. Takushi, 504 U.S. 428, 432 (1992) (strict
scrutiny would unreasonably tie the hands of States seeking to
assure that elections are operated equitably and efficiently).

App. 174
i. Colorado’s Binding Statute
The selection of presidential electors is provided in
Art. II, § 1, of the Constitution. States may appoint
electors “in such Manner as the Legislature thereof
may direct.” U.S. Const. Art. II. § 1, cl. 2. Presidential
electors act by authority of the State, which receives its
authority from the federal constitution. Ray v. Blair,
343 U.S. 214, 224 (1952). The state legislature’s power
to select the manner for appointing electors is plenary;
they may establish the manner in which electors are
appointed and take back such power. Bush v. Gore, 531
U.S. 98, 104 (2000). States have “broad powers to
regulate voting, which may include laws relating to the
qualification and functions of electors.” Williams v.
Rhodes, 393 U.S. 23, 34 (1968).
Federal law supports the notion that the State’s
requirement that presidential electors pledge to vote
for a particular candidate, in conformity with State
law, is constitutional. See Blair, 343 U.S. at 224
(“[n]either the language of Art. II, § 1, nor that of the
Twelfth Amendment forbids a party to require from
candidates in its primary a pledge of political
conformity with the aims of the party.”). Blair suggests
that the state may also set requirements for
presidential electors, and in the event they fail to
conform to the state’s statutory mandate, the state is
permitted to take some remedial action, such as
removal of the electors. See id. at 228-231.
Defendants draw support from other state statutory
provisions that allow states to remove electors who
refuse to comply with state law. See, e.g., Mich. Comp.
Laws Ann. § 168.47 (2016) (stating that refusal or

App. 175
failure to vote for the presidential and vice-presidential
candidates appearing on the ballot of the political party
that nominated the elector constitutes “a resignation
from the office of the elector”); N.C. Gen. Stat. § 163212 (2016) (same); Utah Code Ann. § 20A-13-304(3)
(2016) (same). Defendants also point to 28 other states
and the District of Columbia’s choice to exercise the
power to bind its presidential electors to the candidates
who won the State’s popular vote. (ECF No. 13, at 7).
Plaintiffs cite no case or statute striking down that
choice as unconstitutional. Furthermore, Plaintiffs’
argument that Colorado’s statute makes the Electoral
College superfluous is unfounded. There is a strong
presumption favoring the constitutionality of
Colorado’s elector statute, which they have failed to
overcome. See Gilmor v. Thomas, 490 F.3d 791, 798
(10th Cir. 2007).
Decisions from other state courts and federal
district courts support Defendants’ argument that
Colorado’s elector statute is constitutional. The
plaintiffs in Gelineau brought an analogous action
seeking an injunction to prevent the state from taking
action against them for failing to vote consistent with
their pledges. Gelineau v. Johnson, 904 F. Supp. 2d 742
(W.D. Mich. 2012). The court held that although the
court in Blair did not answer whether a pledge was
ultimately enforceable, “the opinion’s reasoning
strongly suggested that it would be.” Id. at 748. The
court declined to grant the injunction because the
plaintiffs would either lose on the likelihood of success
on the merits or on a theory of laches. Id. at 750.

App. 176
The Supreme Court of New York held that the
“services performed by the presidential electors today
are purely ministerial.” Thomas v. Cohen, 262 N.Y.S.
320, 326 (Sup. Ct. 1933) (emphasis added). An elector
who attempted to disregard their promise to vote for
the candidate that won the majority could, in the
court’s opinion, “be required by mandamus to carry out
the mandate of the voters of his state.” Id. The court
reasoned that presidential electors do not have a right
to “defy the will of the people and to ‘vote as they
please, even for a candidate whose electors were
rejected at the polls.’” Id. at 331. The electors’ choosing
is “merely a formality;” they must vote in accordance
with the vote of the people. Id.
The Nebraska Supreme Court held that presidential
electors’ only duty is to vote for the candidates
nominated by the party by whose votes they were
themselves nominated. State ex rel. Neb. Republican
State Cent. Comm. v. Wait, 138 N.W. 159, 163 (Neb.
1912). If the electors openly declare that they will not
perform that duty, then performance of their duty is
impossible. Id. As such, the electors, by their own acts,
vacated their places as presidential electors, creating
vacancies for the state to fill. Id. The court ultimately
concluded that allowing presidential electors to vote for
the candidate of their choice would deprive the citizens
of their right to vote, in “violation of both the letter and
spirit of our laws.” Id. at 165.
ii. First Amendment
The cases cited above have confirmed the notion
that electors perform ministerial duties, which are
merely formal in nature. See Thomas, 262 N.Y.S. at

App. 177
326; Spreckels v. Graham, 228 P. 1040, 1045 (Cal.
1924) (electors “are in effect no more than messengers).
As such, presidential electors are not afforded First
Amendment protection because their conduct
constitutes carrying out the will of the people, who
deserve First Amendment protection. Requiring
presidential electors to pledge a vote of his ballot is
simply “an exercise of the state’s right to appoint
electors in such manner… as it may choose.” Blair, at
227-28. Furthermore, their conduct would be illegal
under Colorado’s elector statute, and conduct made
illegal by a state is not unconstitutional simply because
the activity purportedly involves elements of speech.
Giboney v. Empire Storage & Ice Co., 336 U.S. 490, 502
(1949).
I agree with Defendants’ contention that the
presidential electors waived their First Amendment
rights when they accepted the nomination to be
presidential electors. They knew or should have known
the obligations that accompanied their acceptance.
Thus, I find that Plaintiffs cannot show a likelihood of
success on the merits of their claim.
iii. Fourteenth Amendment
In determining whether or not a state law violates
the Equal Protection Clause, the Court must consider
the facts and circumstances behind the law, the
interests which the State claims to be protecting, and
the interests of those who are disadvantaged by the
classification. Rhodes, 393 U.S. at 30.
The Court in Rhodes held that “the State does have
an interest in attempting to see that the election

App. 178
winner be the choice of a majority of its voters.” Id. at
32. “The individual citizen has no federal constitutional
right to vote for electors for the President of the United
States unless and until the state legislature chooses a
statewide election as the means to implement its power
to appoint members of the electoral college.” Bush, 531
U.S. at 104.
Plaintiffs cannot show a likelihood of success on the
merits of their claim because the relief they seek would
essentially violate the Equal Protection clause, because
granting an injunction allowing the plaintiffs to vote as
they please would effectively dilute each citizen’s vote.
Plaintiffs, in effect, ask the Court to value their vote
over that of the citizens of Colorado. I agree with
Defendants’ response that allowing the presidential
electors to vote as they wish would deprive Coloradoans
of their fundamental right to vote for the President and
Vice-President. (See ECF No. 13, at 11). Additionally,
Gelineau upheld Michigan’s winner-take-all method of
appointing presidential electors, which is analogous to
Colorado.
Based on the record submitted before me, I find that
Plaintiffs have not shown that they have a substantial
likelihood of prevailing on the merits of their claim that
Colorado’s presidential elector statute violates the
Fourteenth Amendment’s Equal Protection Clause.
B. Irreparable Harm
To establish irreparable injury “the plaintiff[] must
show that [he] will suffer irreparable injury and that
the irreparable injury is of such imminence that there
is a clear and present need for equitable relief to

App. 179
prevent the harm.” Stender v. ERP Operating Ltd.
Partnership, No. 13-cv-00496-REB-MEH, 2013 WL
788186, *3 (D. Colo. March 1, 2013 (citing Heideman v.
S. Salt Lake City, 348 F.3d 1182, 1189 (10th Cir.2003)).
“Generally, an injury is considered to be irreparable
when it is incapable of being fully compensated for in
damages or where the measure of damages is so
speculative that it would be difficult if not impossible
to correctly arrive at the amount of the damages.” Id.
Thus, irreparable injury is established “when the court
would be unable to grant an effective monetary remedy
after a full trial because such damages would be
inadequate or difficult to ascertain.” Dominion Video,
269 F.3d at 1156. “‘To constitute irreparable harm, an
injury must be certain, great, actual and not
theoretical.’” Stender, 2013 WL 788186, at *3 (quoting
Heideman, 348 F.3d at 1189).
Plaintiffs contend they would suffer irreparable
harm if a preliminary injunction is not granted because
they, in effect, will be removed as electors. I do not find
that Plaintiffs will suffer irreparable injury within the
context of the law. What I do find, however, is that the
citizens of Colorado would be irreparably harmed if an
injunction is granted because they expect electors to
vote for the candidate who won the majority of the
state’s votes.
I find that granting an injunction would irreparably
harm the status quo and the public’s general
expectations. The public has some expectation, and it
is a permissible expectation, that presidential electors
are bound by the promises they voluntarily made when
they accepted their nominations. Thus, Plaintiffs fail to

App. 180
meet their requirement to show that they will suffer
irreparable harm.
C. Balance of Hardships
Plaintiffs assert no hardship will occur to
Defendants or the State if the injunction is granted.
Plaintiffs further contend that great hardship will
occur to them if they are barred from fulfilling their
role as electors and voting for the most fit and qualified
candidates. Defendants argue that the hardships tip in
favor of the State because Plaintiffs’ eleventh-hour
claim is barred by laches2 and nullifying the results of
Colorado’s general election disserves the public
interest.
I believe there is some merit to Defendants’ laches
argument, but I do not find it, in and of itself, bars the
claim. Instead, I agree with Defense counsel’s
argument that laches tips the scales in favor of
Defendants on the balance of hardships. Defendants
argue that the last-minute nature of this action,
coupled with the potentially stifling effects it may have
on the presidential election in our country, supports a
finding of significant prejudice that Defendants would
suffer if Plaintiffs were to prevail. Thus, Plaintiffs have
also failed to meet their burden on this prong.

2

Laches consists of two elements: (1) inexcusable delay in
instituting suit; and (2) resulting in prejudice to defendant from
such delay. Brunswick Corp. v. Spinit Reel Co., 832 F.2d 513, 523
(10th Cir. 1987) (citations omitted).

App. 181
D. Public Interest
I briefly mentioned the public interest above, and I
consider this element with as much solemnity and
importance as my words can express. Our country was
founded a long time ago, and when it was founded, the
electoral system was incorporated in Article II of the
U.S. Constitution. Then, in the 19th Century, the
Twelfth Amendment was enacted as part of the
Constitution, which clarified the role of electors as it
relates to the selection of the President and Vice
President. The Colorado statute at issue, Colo. Rev.
Stat. § 1-4-304, has been in existence since 1959. The
statute compels presidential electors, who voluntarily
assume the responsibility, to do what the statute
requires. For reasons that do not make a lot of sense to
me, Plaintiffs do not want to do what they pledged to
do. I find that their obligations are legally enforceable.
The public interest tilts substantially in favor of the
public expecting and requiring the electors to do what
they agreed to do.
My ruling goes to the whole premise of the public
having an interest in fair and effective elections,
political stability, legitimacy of the eventual winner,
and the expectations of the American people. The
public would be adversely affected if I granted this
injunction and allowed Plaintiffs, the presidential
electors, to vote as they please, contrary to the
agreement they made when they accepted their
nominations. In the context of the public interest, if I
granted this injunction, it would undermine the
electoral process and unduly prejudice the American
people by prohibiting a successful transition of power.

App. 182
If Plaintiffs have concerns with Colorado’s statute and
the electoral process, they need to address those with
the Colorado General Assembly.
III. CONCLUSION
In conclusion, for the reasons set forth herein,
Plaintiffs have failed to meet the requirements to grant
a temporary restraining order and preliminary
injunction in this matter. Accordingly, it is
ORDERED that the Motion by Plaintiffs for
Temporary Restraining Order and Preliminary
Injunction (ECF No. 2) is DENIED.
Dated: December 21, 2016
BY THE COURT:
s/ Wiley Y. Daniel
WILEY Y. DANIEL,
SENIOR UNITED STATES DISTRICT JUDGE

App. 183

APPENDIX D
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
No. 16-1482
(D.C. No. 1:16-CV-02986-WYD-NYW)
(D. Colo.)
[Filed December 16, 2016]
___________________________________
POLLY BACA; ROBERT
)
NEMANICH,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
JOHN W. HICKENLOOPER, JR.,
)
in his official capacity as Governor of )
Colorado; CYNTHIA H. COFFMAN, )
in her official capacity as Attorney
)
General of Colorado; WAYNE W.
)
WILLIAMS, in his official capacity
)
as Colorado Secretary of State,
)
)
Defendants-Appellees.
)
__________________________________ )
COLORADO REPUBLICAN
)
COMMITTEE; DONALD J. TRUMP; )
DONALD J. TRUMP FOR
)

App. 184
PRESIDENT, INC.,

)
)
Intervenors-Appellees.
)
___________________________________ )
_______________________________
ORDER
_______________________________
Before BRISCOE, McHUGH and MORITZ, Circuit
Judges.
_______________________________
Plaintiffs/appellants Polly Baca and Robert
Nemanich have filed an emergency motion for
injunction pending appeal. For the reasons outlined
below, we deny their motion.
I
Colorado’s Presidential Electors Statute
Colorado’s Presidential Electors statute, Colo. Rev.
Stat. 1-4-304, provides as follows:
(1) The presidential electors shall convene at the
capital of the state, in the office of the governor
at the capitol building, on the first Monday after
the second Wednesday in the first December
following their election at the hour of 12 noon
and take the oath required by law for
presidential electors. If any vacancy occurs in
the office of a presidential elector because of
death, refusal to act, absence, or other cause, the
presidential electors present shall immediately
proceed to fill the vacancy in the electoral
college. When all vacancies have been filled, the

App. 185
presidential electors shall proceed to perform the
duties required of them by the constitution and
laws of the United States. The vote for president
and vice president shall be taken by open ballot.
(2) The secretary of state shall give notice in
writing to each of the presidential electors of the
time and place of the meeting at least ten days
prior to the meeting.
(3) The secretary of state shall provide the
presidential electors with the necessary blanks,
forms, certificates, or other papers or documents
required to enable them to properly perform
their duties.
(4) If desired, the presidential electors may have
the advice of the attorney general of the state in
regard to their official duties.
(5) Each presidential elector shall vote for the
presidential candidate and, by separate ballot,
vice-presidential candidate who received the
highest number of votes at the preceding general
election in this state.
Colo. Rev. Stat. § 1-4-304.
Plaintiffs/appellants
Baca is a resident of the City and County of Denver,
Colorado. Nemanich is a resident of El Paso County,
Colorado. Both Baca and Nemanich were nominated at
the Democratic Convention on April 16, 2016, to be
Presidential Electors for the State of Colorado. Both
were required to sign affidavits at that time affirming

App. 186
that they would cast their ballots on December 19,
2016, for the Democratic Presidential and VicePresidential candidates.
Baca and Nemanich concede that the Democratic
candidates for President and Vice-President, Hillary
Clinton and Timothy Kaine, received the highest
number of votes in the State of Colorado during the
general election held on November 8, 2016. Baca and
Nemanich also concede that, given these election
results, Colo. Rev. Stat. § 1-4-304(5) mandates that
they cast their votes for Clinton and Kaine.
Baca and Nemanich allege, however, that they
“cannot be constitutionally compelled to vote for”
Clinton and Kaine, and are instead “entitled to exercise
their judgment and free will to vote for whomever they
believe to be the most qualified and fit for the offices of
President and Vice President.” Complaint at 4. “For
example,” they allege, they “may vote for a consensus
candidate, other than Clinton or Trump, upon whom
electors from both parties and along the ideological
spectrum can agree, so as to prevent” the Republican
Presidential and Vice-Presidential Candidates, Donald
Trump and Michael Pence, “from ascending to the
highest offices in the United States.” Id.
The Colorado Secretary of State’s response
On or about November 18, 2016, Nemanich
contacted Colorado’s Secretary of State, Wayne
Williams, and asked “what would happen if” a Colorado
state elector “didn’t vote for . . . Clinton and . . . Kaine.”
Id., Att. 1 at 7 (Nemanich Affidavit at 3). Williams
responded, by email, saying that “if an elector failed to

App. 187
follow th[e] requirement” outlined in Colo. Rev. Stat.
§ 1-4-304(5), his “office would likely remove the elector
and seat a replacement elector until all nine electoral
votes were cast for the winning candidates.” Id. at 9.
In recent days, Williams has allegedly instituted a
new oath to be given to Colorado’s Electors on
December 19, 2016, and has stated that if an elector
violates Colo. Rev. Stat. § 1-4-304(5), they will likely
face either a misdemeanor or felony perjury charge.
Plaintiffs’ initiation of this action
On December 6, 2016, plaintiffs initiated this action
by filing a verified complaint against three Colorado
state officials: Governor John Hickenlooper, Jr.,
Attorney General Cynthia Coffman, and Secretary of
State Wayne Williams. The complaint alleged, in
pertinent part, that Colo. Rev. Stat. § 1-4-304(5)
violates Article II of the United States Constitution, as
amended by the Twelfth Amendment, and compels
speech in violation of the First Amendment.
On that same date, plaintiffs also filed a motion for
temporary restraining order and preliminary
injunction. They alleged in their motion that they were
“substantially likely to prevail on the paramount issue
that Colorado’s elector binding statute, [Colo. Rev.
Stat.] § 1-4-304(5), is unconstitutional because it
violates Article II of the U.S. Constitution, as amended
by the Twelfth Amendment, and it compels speech in
violation of the First Amendment.” Dist. Ct. Docket No.
2 at 4. They asked for an order declaring Colo. Rev.
Stat. § 1-4-304(5) unconstitutional. They also asked for
an order “temporarily and preliminarily enjoining and

App. 188
restraining Defendants . . . from removing or replacing
[them] as electors, compelling them to vote for certain
candidates, precluding them from voting for any
candidates, or otherwise interfering with the vote of the
electors on December 19, 2016.” Id. at 14.
The district court’s denial of plaintiffs’ motion
On December 12, 2016, the district court held a
hearing on plaintiffs’ motion and, at the conclusion of
the hearing, orally denied the motion. In doing so, the
district court concluded that plaintiffs failed to
establish a substantial likelihood of success on the
merits of their claims. The district court also concluded
that “granting an injunction would irreparably harm
the status quo and the public’s general expectations.”
Dist. Ct. Docket No. 23 at 68. Further, with respect to
the balance of harms, the district court found that “the
last-minute nature of this action . . . tip[ped] the scales
in favor of the defendants rather than the plaintiff[s].”
Id. at 69. Relatedly, the district court concluded that
the public’s interest “in fair and effective elections,
political stability, [and the] legitimacy of the eventual
winner . . . would be adversely affected if [it] granted
this injunction.” Id. at 70. Indeed, the district court
concluded that granting the injunction “would
undermine the electoral process and unduly prejudice
the American people by prohibiting a successful
transition of power.” Id.
Plaintiffs’ appeal
Plaintiffs filed a notice of appeal on December 13,
2016, and have since filed with this court their
emergency motion for injunction pending appeal.

App. 189
II
The issuance of an injunction pending appeal
unquestionably amounts to “extraordinary relief.”
Hobby Lobby Stores, Inc. v. Sebelius, — U.S. —, 136 S.
Ct. 641, 643 (2012); see Ruckelshaus v. Monsanto Co.,
463 U.S. 1315, 1316 (1983) (holding that “a stay
pending appeal” will be granted “only under
extraordinary circumstances”). “In ruling on . . . a
request” for injunction pending appeal, “this court
makes the same inquiry as it would when reviewing a
district court’s grant or denial of a preliminary
injunction.” Homans v. City of Albuquerque, 264 F.3d
1240, 1243 (10th Cir. 2001). Thus, the applicant must
establish (1) “the likelihood of success on appeal,”
(2) “the threat of irreparable harm if the stay or
injunction is not granted,” (3) “the absence of harm to
opposing parties if the stay or injunction is granted,”
and (4) that the public interest will not be harmed if
the stay or injunction is granted. Id.
As discussed below, we conclude, after considering
these four factors in light of the preliminary record
before us, that the district court did not “abuse[] its
discretion” in denying plaintiffs’ motion for temporary
restraining order and preliminary injunction and that
plaintiffs have not “demonstrated a clear and
unequivocal right to relief.” Id.
Likelihood of success on appeal
In analyzing plaintiffs’ likelihood of success on
appeal, we begin by addressing defendants’ assertion
that plaintiffs lack standing. We then turn to the
question of whether plaintiffs have established a

App. 190
likelihood of success on appeal on their claims that
Colo. Rev. Stat. § 1-4-304(5) violates Article II and the
Twelfth Amendment of the United States Constitution,
and the First Amendment of the United States
Constitution.
a) Plaintiffs’ standing
Defendants argue that plaintiffs are, in essence,
state officials who lack Article III standing to challenge
the constitutionality of a state statute. In support, they
cite primarily to the Supreme Court’s decision in
Columbus & Greenville Ry. v. Miller, 283 U.S. 96, 99100 (1931). We are not persuaded, however, that
Columbus necessarily leads to the conclusion that the
plaintiffs in this case lack standing. Columbus involved
a challenge by a state tax collector to the validity of a
state tax law. Notably, the taxpayer in Columbus, i.e.,
the party directly affected by the state tax law,
conceded the validity of the law. In the instant case, in
contrast, plaintiffs allege that Colo. Rev. Stat. § 1-4304(5) infringes upon their own personal constitutional
rights. At this stage of the proceedings, and given the
preliminary record before us, we conclude that is
sufficient to provide them with standing to challenge
Colo. Rev. Stat. § 1-4-304(5). See Coleman v. Miller, 30
U.S. 433, 438 (1939) (holding that state legislators had
standing to restrain action on a resolution, as they had
“a plain, direct and adequate interest in maintaining
the effectiveness of their votes”).
b) The Article II and Twelfth Amendment claim
As noted, plaintiffs argue that Colo. Rev. Stat. § 1-4304(5) violates Article II, as amended by the Twelfth

App. 191
Amendment, by requiring electors to vote for the
presidential and vice-presidential candidates who
received the highest number of votes in the State of
Colorado during the general election. In addressing this
argument, we begin by examining the relevant
provisions of the Constitution.
The Constitution mandates that the election of the
President of the United States occur by way of the
Electoral College, rather than by individual voters at
the general election, and it outlines both how the
Electoral College is to be created and how it shall
operate. In particular, Article II Section 1 of the
Constitution provides, in pertinent part:
Each State shall appoint, in such Manner as
the Legislature thereof may direct, a Number of
Electors, equal to the whole Number of Senators
and Representatives to which the State may be
entitled in the Congress; but no Senator or
Representative, or Person holding an Office of
Trust or Profit under the United States, shall be
appointed an Elector.
***
The Congress may determine the Time of
chusing the Electors, and the Day on which they
shall give their Votes; which Day shall be the
same throughout the United States.
U.S. Const. art. II, § 1.1

1

This latter provision has been interpreted to grant Congress
power over Presidential elections coextensive with that which

App. 192
As originally established, Article II section I also
addressed the details of how Electors would cast their
votes and how those votes would be counted. That
language was superseded by the Twelfth Amendment
to the Constitution, which was ratified on June 15,
1804. The Twelfth Amendment provides, in pertinent
part:
The Electors shall meet in their respective
states, and vote by ballot for President and Vice
President, one of whom, at least, shall not be an
inhabitant of the same state with themselves;
they shall name in their ballots the person voted
for as President, and in distinct ballots the
person voted for as Vice-President, and they
shall make distinct lists of all persons voted for
as President, and of all persons voted for as
Vice-President, and of the number of votes for
each, which lists they shall sign and certify, and
transmit sealed to the seat of the government of
the United States, directed to the President of
the Senate;—The President of the Senate shall,
in the presence of the Senate and House of
Representatives, open all the certificates and the
votes shall then be counted.;—The person
having the greatest number of votes for
President, shall be the President, if such number
be a majority of the whole number of Electors
appointed; and if no person have such majority,
then from the persons having the highest
numbers not exceeding three on the list of those
Article I section 4 grants it over congressional elections. Burroughs
v. United States, 290 U.S. 534 (1934).

App. 193
voted for as President, the House of
Representatives shall choose immediately, by
ballot, the President. But in choosing the
President, the votes shall be taken by states, the
representation from each state having one vote;
a quorum for this purpose shall consist of a
member or members from two-thirds of the
states, and a majority of all the states shall be
necessary to a choice. * * * The person having
the greatest number of votes as Vice-President,
shall be Vice-President, if such number be a
majority of the whole number of Electors
appointed, and if no person have a majority,
then from the two highest numbers on the list,
the Senate shall choose the Vice-President; a
quorum for the purpose shall consist of twothirds of the whole number of Senators, and a
majority of the whole number shall be necessary
to a choice. But no person constitutionally
ineligible to the office of President shall be
eligible to that of Vice-President of the United
States.
U.S. Const. amend. XII.
Lastly, Section 3 of the Fourteenth Amendment
addresses who may not serve as a State Elector:
No person shall be . . . [an] elector of
President and Vice President . . . who, having
previously taken an oath, as a member of
Congress, or as an officer of the United States,
or as a member of any State legislature, or as an
executive or judicial officer of any State, to
support the Constitution of the United States,

App. 194
shall have engaged in insurrection or rebellion
against the same or given aid or comfort to the
enemies thereof.
U.S. Const. amend. XIV, § 3.
Plaintiffs argue that Colo. Rev. Stat. § 1-4-304(5)
violates Article II and the Twelfth Amendment by
rendering electors superfluous. In making this
argument, however, plaintiffs fail to quote any of these
provisions of the Constitution. And, more importantly,
they fail to point to a single word in any of these
provisions that support their position that the
Constitution requires that electors be allowed the
opportunity to exercise their discretion in choosing who
to cast their votes for.2 We conclude that this failure is
fatal at this stage of the litigation. As noted, it is
plaintiffs’ burden to establish a likelihood of success on
appeal. By failing to point us to any language in the
Constitution that would support their position, we
conclude they have failed to meet their burden.3

2

Instead, plaintiffs point primarily to statements made by
Alexander Hamilton in The Federalist No. 68. E.g., Dist. Ct.
Docket No. 2 at 6; Emergency Motion at 10. Although we turn to
external sources when unable to discern the meaning of the
Constitution from its plain language, we begin our analysis with
careful examination of the words used. Here, plaintiffs make no
textual argument, at all.
3

This is not to say that there is no language in Article II or the
Twelfth Amendment that might ultimately support plaintiffs’
position. See Ray v. Blair, 343 U.S. 214, 232 (1952) (“No one
faithful to our history can deny that the plan originally
contemplated, what is implicit in its text, that electors would be
free agents, to exercise an independent and nonpartisan judgment

App. 195
But even if we were to overlook the plaintiffs failure
to point us to the Constitutional language that
supports their position, they raise at best a debatable
argument. Defendants point instead to the direction
that: “Each State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors
. . . .” U.S. Const. Art. II, § 2. And they argue that the
Supreme Court has held this power to be plenary under
McPherson v. Blacker, 146 U.S. 1, 35-36 (1892).
Accordingly, we cannot conclude the plaintiffs have met
their burden of showing a likelihood of success on the
merits.
Plaintiffs also argue that “[r]equiring an Elector to
vote is clearly an improper qualification because it
mandates that only the people that agree to vote for
particular candidates are allowed (i.e., qualified) to
become Electors.” Emergency Motion at 7-8. We are not
persuaded, however, that the requirement to vote
consistent with the majority vote in the state is a
“qualification.” The term qualification suggests a
preexisting condition or quality that either renders a
person eligible or ineligible to be an Elector. See Oxford
Dictionaries (defining qualification as “[a] quality or
accomplishment that makes someone suitable for a
particular job or activity”; “[a] condition that must be
fulfilled before a right can be acquired; an official
as to the men best qualified for the Nation’s highest offices.”
(emphasis added)). For example, there is language in the Twelfth
Amendment that could arguably support the plaintiffs’ position.
E.g., Michael Stokes Paulsen, The Constitutional Power of the
Electoral College, Public Discourse (Nov. 21, 2016) (available at
www.thepublicdiscourse.com/2016/11/18283/). But it is not our role
to make those arguments for them.

App. 196
requirement.”). Under this definition, a pledge to vote
for a particular candidate (like the ones that the
plaintiffs in this case made to vote for the Democratic
nominees for President and Vice-President) would be a
qualification. But a statutory requirement to vote in a
certain way, like the one in Colo. Rev. Stat. § 1-4304(5), is more in the way of a duty than a
qualification.
Lastly, plaintiffs argue that Colo. Rev. Stat. § 1-4304(5) violates the Supremacy Clause by usurping
Congress’s exclusive power to count electoral votes.
Emergency Motion at 12 (citing U.S. Const. amend. XII
and 3 U.S.C. § 15). In support, plaintiffs argue that
Colo. Rev. Stat. § 1-4-304(5) “gives Colorado the
authority to discount/delete/ignore an elector’s vote for
persons who did not win the popular vote in the state.”
Id. In turn, they argue that “[i]f Congress counts the
votes, and it has counted over 150 ‘faithless’ electors’
votes over the centuries, the states lack the power to
count an electors’ [sic] vote,” and thus “the statute is
unconstitutional.” Id.
The problem with this argument is that, according
to the limited record before us, defendant Williams’
threat to remove and place any elector who fails to
comply with Colo. Rev. Stat. § 1-4-304(5) is not based
on the text of that provision, but rather upon his
interpretation of the authority afforded to him under
Colo. Rev. Stat. § 1-4-304(1). As noted above, § 1-4304(1) expressly affords the State of Colorado with
authority to “fill [any] vacanc[ies] in the electoral
college” prior to the start of voting. Whether that
statute also affords the State with authority to remove

App. 197
an elector after voting has begun is not a question that
has been posed by plaintiffs to either the district court
or this court.4
c) The First Amendment claim
Plaintiffs also argue that Colo. Rev. Stat. § 1-4304(5) violates their First Amendment rights by
burdening their core political speech and compelling
them to vote in a certain way. The problem for
plaintiffs at this stage, however, is that they fail to
identify any authority establishing, or even remotely
suggesting, that the First Amendment applies to
electors. See Clark v. Cmty. for Creative Non-Violence,
468 U.S. 288, 293 n.5 (1984) (holding that “it is the
obligation of the person desiring to engage in
assertedly expressive conduct to demonstrate that the
First Amendment even applies.”). For these reasons,
we conclude that plaintiffs have failed to establish a
likelihood of success on the merits of the claims
asserted in their appeal.
Irreparable harm
Plaintiffs argue that they will suffer irreparable
harm if an injunction is not granted pending appeal. In
support, they argue that, in light of defendant
Williams’ statements to date, there is a substantial
likelihood that he will remove and replace them if they
fail to vote for Clinton and Kaine. The problem with
this argument is two-fold. First, as we have discussed,
plaintiffs have failed to establish a likelihood of success
4

And we deem such an attempt by the State unlikely in light of the
text of the Twelfth Amendment.

App. 198
on the merits of their constitutional challenges to Colo.
Rev. Stat. § 1-4-304(5). In other words, they have failed
at this point to establish that the State of Colorado
cannot constitutionally require them to vote for Clinton
and Kaine. Second, any removal and replacement
authority that defendant Williams may possess derives
not from § 1-4-304(5), but rather from § 1-4-304(1).
While we question whether that subsection provides
him any such authority after voting has commenced,
that precise question is not before us.
Plaintiffs also argue that defendant Williams has
threatened to charge them with a felony or
misdemeanor if they fail to comply with § 1-4-304(5).
The district court declined to address this argument
because plaintiffs presented it for the first time at the
hearing on their motion for temporary restraining
order and preliminary injunction. Dist. Ct. Docket No.
23 at 66. We conclude that the district court did not
abuse its discretion in this regard and thus adopt the
same position.
Harm to opposing parties if the injunction is granted
Plaintiffs argue that “[n]o hardship will occur to
Defendants or the State if the injunction is
implemented.” Emergency Motion at 18. They explain
that “[t]here will be no need to re-do the election”
because when the people of Colorado “cast their ballots
for presidential and vice-presidential candidates, they
were voting for electors specific to political
parties/candidates,” and “[i]t is up to those electors,
who have now been chosen by the people of Colorado,
to choose the best candidates.” Id. Further, they argue,
the injunction would “not require Defendants to take

App. 199
any action,” and would “merely prevent[] Defendants
from enforcing an unconstitutional statute.” Id. at 19.
The district court considered and rejected these very
same arguments in denying plaintiffs’ motion for
temporary restraining order and preliminary
injunction. In doing so, it concluded that “the lastminute nature of this action, coupled with the
potentially stifling effects it may have on our country,
. . . tip[ped] the scales in favor of the defendants.” Dist.
Ct. Docket No. 66 at 69. We are unable to say that this
amounted to an abuse of discretion, particularly given
our conclusion that plaintiffs have failed to establish a
likelihood of success on appeal.
Public interest
Finally, plaintiffs argue that the public interest
weighs in favor of granting the requested injunction
because “[t]he public has a strong interest in the
protection and enforcement of the rights established by
the First and Fourteenth Amendments.” Emergency
Motion at 19. “The public,” plaintiffs argue, also “has a
strong interest in having the Electoral College operate
as intended by deliberating and selecting a President
and Vice-President who they believe best qualified.” Id.
Lastly, plaintiffs argue that “[t]he public has a
significant interest in making sure fit and competent
leaders are elected.” Id.
The district court considered and rejected these
same arguments, and instead concluded that granting
plaintiffs’ requested injunctive relief “would undermine
the electoral process and unduly prejudice the
American people by prohibiting a successful transition

App. 200
of power.” Dist. Ct. Docket No. 66 at 70. We are unable
to say that this amounted to an abuse of discretion,
given plaintiffs’ failure to establish a likelihood of
prevailing on appeal.
III
Plaintiffs’ emergency motion for injunction pending
appeal is DENIED.
Entered for the Court
/s/Elisabeth A. Shumaker
Elisabeth A. Shumaker, Clerk

App. 201

APPENDIX E
DISTRICT COURT, DENVER COUNTY,
COLORADO
Court Address:
1437 Bannock Street, Rm 256,
Denver, CO, 80202
Case Number: 2016CV34522
Division: 376
Courtroom:
[Filed December 13, 2016]
_______________________
WAYNE WILLIAMS
)
Plaintiff(s)
)
)
v.
)
)
POLLY BACA et al.
)
Defendant(s)
)
_______________________ )
Order
After hearing, the Court rules as follows:
1. This Court has jurisdiction pursuant to §1-1-113,
C.R.S.
2. Colorado presidential electors are required to vote
for Hillary Clinton and Tim Kaine, pursuant to §1-4304(5).

App. 202
3. A presidential elector’s failure to comply with §1-4304(5), is a “refusal to act” as that term is used in §1-4304(1), and causes a vacancy in the electoral college.
4. A vacancy in the electoral college shall be
immediately filled by a majority vote of the presidential
electors present. A quorum of presidential electors is
not required to fill this vacancy.
5. The Colorado Democratic Party shall provide the
presidential electors with nominations to fill any
vacancy which occurs.
The Court takes under advisement the issue of how to
proceed in the event of a tie in the electoral college
regarding filling a vacancy. The parties have 24 hours
to provide the Court with law and/or argument
regarding this issue.
The Court incorporates by reference its oral ruling
made from the bench on December 13, 2016.
Issue Date: 12/13/2016
/s/Elizabeth Ann Starrs
ELIZABETH ANNE STARRS
District Court Judge

App. 203

APPENDIX F
U.S. Const. Art. II § 1, cl. 2. Presidential Electors
Each State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors,
equal to the whole Number of Senators and
Representatives to which the State may be entitled in
the Congress: but no Senator or Representative, or
Person holding an Office of Trust or Profit under the
United States, shall be appointed an Elector.
U.S. Const. Amend. XII. Presidential Electors
The Electors shall meet in their respective states and
vote by ballot for President and Vice-President, one of
whom, at least, shall not be an inhabitant of the same
state with themselves; they shall name in their ballots
the person voted for as President, and in distinct
ballots the person voted for as Vice-President, and they
shall make distinct lists of all persons voted for as
President, and of all persons voted for as VicePresident, and of the number of votes for each, which
lists they shall sign and certify, and transmit sealed to
the seat of the government of the United States,
directed to the President of the Senate;--The President
of the Senate shall, in the presence of the Senate and
House of Representatives, open all the certificates and
the votes shall then be counted;--The person having the
greatest number of votes for President, shall be the
President, if such number be a majority of the whole
number of Electors appointed; and if no person have

App. 204
such majority, then from the persons having the
highest numbers not exceeding three on the list of
those voted for as President, the House of
Representatives shall choose immediately, by ballot,
the President. But in choosing the President, the votes
shall be taken by states, the representation from each
state having one vote; a quorum for this purpose shall
consist of a member or members from two-thirds of the
states, and a majority of all the states shall be
necessary to a choice. And if the House of
Representatives shall not choose a President whenever
the right of choice shall devolve upon them, before the
fourth day of March next following, then the VicePresident shall act as President, as in the case of the
death or other constitutional disability of the
President.--The person having the greatest number of
votes as Vice-President, shall be the Vice-President, if
such number be a majority of the whole number of
Electors appointed, and if no person have a majority,
then from the two highest numbers on the list, the
Senate shall choose the Vice-President; a quorum for
the purpose shall consist of two-thirds of the whole
number of Senators, and a majority of the whole
number shall be necessary to a choice. But no person
constitutionally ineligible to the office of President
shall be eligible to that of Vice-President of the United
States.
Colo. Rev. Stat. § 1-4-304. Presidential electors
(1) The presidential electors shall convene at the
capital of the state, in the office of the governor at the
capitol building, on the first Monday after the second
Wednesday in the first December following their

App. 205
election at the hour of 12 noon and take the oath
required by law for presidential electors. If any vacancy
occurs in the office of a presidential elector because of
death, refusal to act, absence, or other cause, the
presidential electors present shall immediately proceed
to fill the vacancy in the electoral college. When all
vacancies have been filled, the presidential electors
shall proceed to perform the duties required of them by
the constitution and laws of the United States. The
vote for president and vice president shall be taken by
open ballot.
(2) The secretary of state shall give notice in writing to
each of the presidential electors of the time and place
of the meeting at least ten days prior to the meeting.
(3) The secretary of state shall provide the presidential
electors with the necessary blanks, forms, certificates,
or other papers or documents required to enable them
to properly perform their duties.
(4) If desired, the presidential electors may have the
advice of the attorney general of the state in regard to
their official duties.
(5) Each presidential elector shall vote for the
presidential candidate and, by separate ballot, vicepresidential candidate who received the highest
number of votes at the preceding general election in
this state.

App. 206

APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 1:17-cv-1937-NYW
________________________________
MICHEAL BACA, POLLY BACA )
and ROBERT NEMANICH,
)
)
Plaintiffs
)
)
v.
)
)
COLORADO DEPARTMENT
)
OF STATE,
)
)
Defendant.
)
________________________________ )
SECOND AMENDED COMPLAINT
The Colorado Department of State, acting through
its Secretary, Wayne Williams, and under color of state
law, specifically C.R.S. § 1-4-304, threatened and
intimidated Plaintiffs Micheal Baca, Polly Baca, and
Robert Nemanich in the exercise of their federally
protected rights as presidential Electors. This
complaint seeks nominal damages for this infringement
of a fundamental federal right and a declaration that
Colorado’s law that purports to bind Electors by

App. 207
requiring them vote for the Presidential and Vice
Presidential candidates that received the highest
number of votes at the preceding general election,
C.R.S. § 1-4-304(5), is unconstitutional.
INTRODUCTION
1.
The United States Constitution secures to
“Electors” the power to vote to select the President and
Vice President of the United States.
2.
Colorado purports to control how an Elector
exercises her franchise, by binding her, with the force
of law, to vote for a particular candidate. See C.R.S. § 14-304(5) (“Binding Statute”).
3.
Colorado’s
Binding
Statute
is
unconstitutional on its face and as applied to Electors
because it infringes on their right to vote as they see fit
without coercion.
4.
Defendant, in seeking to enforce the Binding
Statute, violated Plaintiffs’ rights as Electors.
5.
Plaintiffs seek to correct the violations of
their rights as Electors under Article II and
Amendment XII of the U.S. Constitution.
6.
The U.S. Constitution gives Colorado no
power to restrict the legal freedom of federal Electors
to vote as they deem fit. The actions of the Colorado
Department of State to enforce that unconstitutional
law thus violated Plaintiffs’ federally protected rights.
Plaintiffs seek damages for the violation of their rights,
and a declaration that C.R.S. § 1-4-304(5) is
unconstitutional.

App. 208
PARTIES
7.
Micheal Baca is a resident of the State of
Nevada at the current time. At all times pertinent to
this complaint, he was a resident of Denver County and
the State of Colorado and, pursuant to C.R.S. § 1-4-302,
was a Democratic Elector for the 2016 presidential
election.
8.
Polly Baca is a resident of the City and
County of Denver, Colorado and, pursuant to C.R.S.§ 14-302, was a Democratic Elector for the 2016
presidential election.
9.
Robert Nemanich is a resident of El Paso
County, Colorado and, pursuant to C.R.S. § 1-4-302,
was a Democratic Elector for the 2016 presidential
election.
10.
Defendant Colorado Department of State is
a state agency.
JURISDICTION AND VENUE
11.
This Court has subject matter jurisdiction
pursuant to 28 U.S.C. §§ 1331 and 2201 because the
case arises under the Constitution and laws of the
United States.
12.
This Court has personal jurisdiction over
Defendant Colorado Department of State.
13.
Venue is properly laid in this District under
28 U.S.C. § 1391(b), because Defendant is a state
agency operating in this District, and events giving rise
to this action also occurred in this District.

App. 209
BACKGROUND
14.
Under the Constitution of the United States,
the President and Vice-President are selected by
“Electors,” not by popular vote. Each state has two
Electors plus an additional Elector for each member of
the House of Representatives from that state. The
District of Columbia also has three Electors.
15.
On a date set by Congress, at a place
specified by state law, presidential Electors meet in
each state and cast one ballot for President and one
ballot for Vice President. Those votes are then sent to
Congress.
16.
If any candidate receives a majority of the
electoral college votes, that candidate is selected for
that office. If no candidate in a race receives a majority
of the electoral college votes, then that election is
determined in Congress — by the House for the
President, by the Senate for the Vice-President.
17.
States have plenary power to select their
Electors. That power includes the freedom to
discriminate in the selection of Electors against an
Elector who refuses to pledge support to one candidate
or another. States cannot select Electors who have
engaged in insurrection or rebellion or have given aid
or comfort to the enemies of the United States. See U.S.
Const. amend. XIV, § 3. Nor can an Elector be a
Senator or Representative or a person holding an office
of trust or profit under the United States. U.S. Const.
art. II, § 1.
18.
In every state, the Electors are chosen
according to the popular vote for President and Vice-

App. 210
President in that state. Most states appoint the
Electors who have pledged to support, or were slated by
the party of, the presidential candidate who received
the most votes in that state. In two states, the two atlarge Electors are appointed in this way, and the other
Electors are appointed according the popular vote in
each congressional district in the state.
19.
Once an Elector is selected, the Constitution
imposes just a single restriction on how that Elector
may vote. Under the 12th Amendment, electors may
not vote for two candidates from their own state.
20.
The Constitution does not expressly or
implicitly give the states any power to restrict the
Electors’ freedom beyond the 12th Amendment’s single
limitation. The power of voting resides entirely with
the Electors. Because the Constitution states “the
Electors” shall vote by ballot, not the states, the states
cannot control how Electors vote. U.S. Const. amend.
XII.
21.
Beyond the single restriction expressed in the
12th Amendment prohibiting Electors from voting for
a President and Vice President from the same state as
the Elector, Electors are free to vote as their conscience
determines.
22.
This protected freedom of presidential
Electors makes sense of the framers’ purpose in
establishing the electoral college itself. As Alexander
Hamilton described in Federalist 68, while it was
“desirable that the sense of the people should operate
in the choice of” the President, it was “equally
desirable, that the immediate election should be made

App. 211
by men most capable of analyzing the qualities adapted
to the station, and acting under circumstances
favorable to deliberation, and to a judicious
combination of all the reasons and inducements which
were proper to govern their choice.” If Electors could
simply be directed how to vote, there would be no need
for “men” who would “possess the information and
discernment requisite to such complicated
investigations,” Federalist No. 68, as there is nothing
especially “complicated” about identifying the
“candidate who received the highest number of votes at
the preceding general election in this state.” C.R.S. § 14-304(5).
23.
Consistent with this freedom, twenty states
impose no restriction on how Electors may vote at all.
Thirty states, however, require that presidential
Electors cast their vote for the presidential candidate
of the party they were selected to represent. Five states
purport to apply a penalty to an Elector who votes
contrary to the popular vote. Six states purport to
cancel the vote of an Elector who votes contrary to the
popular vote.
24.
Though Electors throughout our history have
typically exercised their franchise consistent with their
pledge or their state’s popular vote, Electors for both
President and Vice President have exercised their
judgment to vote against their pledge or the popular
vote of their state 167 times before 2016. In 2016, a
record number of Electors voted for persons for
president who did not receive the majority of the
popular vote in their state.

App. 212
25.
These votes contrary to a pledge or the
popular vote of a state have never prevented a
presidential candidate from receiving a majority of the
Electors’ votes. They have affected the process of
choosing the Vice President. In 1836, 23 Virginia
Electors abstained rather than voting for vice
presidential nominee Richard Johnson because he was
alleged to be living with a black woman. Those
defections forced the decision into the Senate, where
Johnson was selected nonetheless.
26.
Before this election, no Elector who voted
against her pledge or the popular vote in her state has
been penalized legally.
EVENTS UNDERLYING PLAINTIFFS’
INJURIES
A. The Election of 2016
27.
In April 2016, Plaintiffs Micheal Baca, Polly
Baca and Robert Nemanich were nominated as
Presidential Electors. Micheal Baca was nominated at
the First Congressional District Assembly in Denver,
Colorado, and Polly Baca and Robert Nemanich were
nominated at the Colorado Democratic Convention in
Loveland, Colorado.
28.
Upon becoming an Elector, Plaintiff Micheal
Baca executed a pledge to vote for Bernie Sanders for
President.
29.
Upon becoming an Elector, Plaintiff Polly
Baca executed a pledge to vote for the Democratic
Party’s nominee for President and Vice-President.

App. 213
30.
Upon becoming an Elector, Plaintiff Robert
Nemanich executed a pledge to vote for Bernie Sanders
for President.
31.
On November 8, 2016, Colorado, and every
other state, held an election to select the Electors who
would later vote for President and Vice-President.
32.
In that election, Hillary Clinton received close
to 3 million more votes than Donald Trump did
nationally, and almost 72,000 more votes than Trump
did in Colorado.
33.
Despite losing the popular vote nationally,
Donald Trump was expected to receive enough votes in
the Electoral College to become the 45th President of
the United States.
34.
The election of Donald Trump raised grave
concerns among many, including Plaintiffs.
35.
No candidate for President in modern history
has ever lost the popular vote by such a large margin
yet been selected as President by the electoral college.
36.
No candidate for President in modern history
so openly flouted the requirements of the Foreign
Emoluments Clause, by refusing both to disclose his
foreign holdings and to divest himself from any
beneficial interest in those holdings.
37.
Neither had any election of any candidate for
President in the history of the United States been so
credibly alleged to have been affected by the conspiracy
of a foreign nation intent on securing the election of the
presumptive president.

App. 214
38.
During the time between the national
election day and the date for the Electoral college
voting to occur, U.S. intelligence agencies confirmed
that they possessed evidence showing foreign
interference in the presidential election with the
purpose of favoring Donald J. Trump and undermining
Hillary R. Clinton in that election.
39.
Plaintiffs and many other Presidential
Electors considered this information of foreign
influence in the election to be a matter of grave
concern. Some Electors, including Plaintiffs, took
affirmative steps to obtain more information from the
then current President, Barack Obama, intelligence
agencies, or Congress and specifically requested an
intelligence briefing. Their requests were denied. It
was later learned that U.S. Intelligence agencies knew
Donald J. Trump’s top campaign officials and one of his
sons met with Russians in June 2016 at Trump Tower
in New York City after being told the Russians had
“dirt” on Secretary Clinton that could help the Trump
Campaign.
40.
The 2016 election, in the view of many, was
thus unprecedented, and it focused attention upon the
framers’ purpose in establishing an electoral college
with Electors with discretion who meet and vote
separately from their own selection.
B. The determination of Electors to exercise
their constitutional freedom
41.
These concerns led many to consider whether
Electors should exercise their constitutional discretion

App. 215
to vote contrary to their pledge or the popular vote in
their state.
42.
A number of Electors, referred to as the
“Hamilton Electors,” began to discuss the possibility of
pledging to support a compromise candidate, at first
with the purpose of changing the result in the Electoral
College, and ultimately with the purpose of giving the
House of Representatives the chance to select that
candidate rather than Donald Trump.
43.
In early December, 2016, the Hamilton
Electors announced that their preferred candidate was
Ohio Governor John Kasich.
44.
Acting on that recommendation, Plaintiffs
determined finally that they wanted to vote for John
Kasich rather than Hillary Clinton.
C. Colorado’s restriction of Plaintiffs’ freedom
45.
Colorado law purports to control how Electors
may exercise their vote. Section 1-4-304(5) of the
Colorado Revised Statutes provides that “[e]ach
presidential elector shall vote for the presidential
candidate and, by separate ballot, vice-presidential
candidate who received the highest number of votes at
the preceding general election in this state.” Section 113-723 of the Colorado Revised Statutes gives the state
the power to punish criminally any “officer upon whom
any duty is imposed by any election law who violates
his duty.”
46.
On November 18, 2016, Plaintiff Nemanich
emailed Colorado’s Secretary of State, Wayne Williams,
to ask “what would happen if” a Colorado state Elector

App. 216
“didn’t vote for . . . Clinton and . . . Kaine.” Williams,
through surrogates, responded by email, stating that “if
an elector failed to follow th[e] requirement” outlined
in C.R.S. § 1-4-304(5), his “office would likely remove
the elector and seat a replacement elector until all nine
electoral votes were cast for the winning candidates.”
47.
Subsequent to that email, Secretary Williams
also stated that if an Elector violates C.R.S. § 1-4304(5), they would likely face either a misdemeanor or
felony perjury charge.
48.
On December 6, 2016, so as to secure their
constitutional freedom to vote as their conscience
determined, Plaintiffs Polly Baca and Nemanich filed
suit in United States District Court for the District of
Colorado, asking the Court to enjoin Secretary
Williams from enforcing Colo. Rev. Stat. § 1-4-304(5).
49.
On December 12, 2016, the district court
denied Plaintiffs’ injunction.
50.
The following day, Plaintiffs filed an
emergency motion for an injunction pending appeal in
the 10th Circuit.
51.
On December 16, 2016, the 10th Circuit
denied Plaintiffs’ emergency motion. The Court of
Appeals was not persuaded that the Colorado Secretary
of State would in fact restrict the freedom of Electors.
Specifically, the Court did not credit Plaintiffs’ concern
that Secretary Williams would actually remove an
Elector if an Elector voted contrary to the state statute.
As the Court noted, C.R.S. § 1-4-304(1) gave the
Secretary power to remove Electors “prior to the start
of voting.” The Court did not read the statute to give

App. 217
the Secretary any such power “after voting has begun.”
Indeed, as the Court expressly noted, such an act by
the Secretary of State was “unlikely in light of the text
of the Twelfth Amendment.”
52.
The predictions of the Court of Appeals
proved mistaken.
53.
On December 19, 2016, after a hearing in
state court on a related matter, Secretary Williams,
acting on behalf of Defendant Department of State, and
under his emergency rule making authority, changed
the oath of the Electors to put further pressure on them
to vote consistent with Colorado’s popular vote. At a
meeting with the Electors in advance of their vote, the
new oath was administered over objections from
Plaintiffs. In the press before the vote, Secretary
Williams, both personally and through surrogates,
stated that anyone who violated their oath may be
subject to felony perjury charges for intentionally
violating the oath. The new oath, created just moments
before the Electors’ vote, increased the pressure on
Plaintiffs to vote for Hillary Clinton and Tim Kaine
regardless of Plaintiffs’ determined judgment.
54.
Despite the new oath, Plaintiff Micheal Baca
cast his ballot for John Kasich. Mr. Baca noted that the
ballot was pre-printed with Hillary Clinton’s name, he
requested a new ballot, but his request was denied. Mr.
Baca then crossed out Mrs. Clinton’s name and wrote
in Mr. Kasich’s name with the undisputed intention
that his ballot be counted for purposes of the final tally
of Electoral College votes.

App. 218
55.
Despite the clear language of the 10th Circuit
Court of Appeals indicating that Secretary Williams
had no authority to remove an Elector once the Elector
was seated — either because the statute did not so
empower him or because the 12th Amendment would
not permit it even if the statute did so empower him —
Secretary Williams, acting on behalf of the Colorado
Department of State, willfully removed Plaintiff
Micheal Baca as an Elector, refused to count Mr. Baca’s
vote, and referred him to Colorado’s Attorney General
for criminal investigation and prosecution. Mr. Baca
was replaced by a substitute Elector who cast her ballot
for Mrs. Clinton. When the vote for Vice President was
held, Mr. Baca cast a ballot for Mr. Kaine by writing
Mr. Kaine’s name on a pen box, which the Secretary,
through a surrogate, retained but did not count.
56.
Because of the actions of the Defendant
Department of State, through Secretary Williams,
changing the oath and removing Plaintiff Micheal
Baca, Plaintiffs Polly Baca and Nemanich felt
intimidated and pressured to vote against their
determined judgment.
COUNT 1
(42 U.S.C. §1983)
57.
Plaintiffs repeat and reallege all prior
paragraphs.
58.
42 U.S.C. § 1983 provides a civil cause of
action to any person who is deprived of rights
guaranteed by the United States Constitution or
federal law, by another person, acting under color of
State law.

App. 219
59.
Article II and Amendment XII of the U.S.
Constitution prohibit any person or any state from
interfering with members of the Electoral College’s
votes for President and Vice President of the United
States.
60.
Article II and Amendment XII of the U.S.
Constitution prohibit any person or any state from
requiring members of the Electoral College to vote for
specific candidates for President and Vice President of
the United States.
61.
The only limits on Electors’ vote for President
and Vice President of the United States are set forth in
Article II and Amendment XII of the U.S. Constitution,
and those limits cannot be expanded or contracted
absent an amendment to the Constitution.
62.
The U.S. Constitution permits Electors to
vote for whomever they see fit for President and Vice
President of the United States, subject only to the
limitations set forth in the U.S. Constitution.
63.
Defendant Department of State, acting
through its Secretary Wayne Williams, deprived
Plaintiffs Micheal Baca, Polly Baca, and Nemanich of
a federally protected right when it threatened to
remove them as Electors, and refer them for criminal
prosecution, if they voted for a candidate other than
Hillary Clinton.
64.
Defendant Department of State, acting
through its Secretary Wayne Williams, deprived
Plaintiffs Micheal Baca of a federally protected right
when it removed him as an Elector when he voted for
a candidate other than Hillary Clinton.

App. 220
65.
At all times, Defendant, through
Secretary, was acting under color of state law.

its

66.
At all times, Defendant, through
Secretary, was acting in its official capacity.

its

67.
As a result of Defendant’s conduct, Plaintiffs
are entitled to damages.
68.
As a consequence of the state statute,
declaratory relief is necessary to stop Defendants’
enforcement of the unconstitutional statute; without
such relief the enforcement of this statute will continue
unlawfully. Declaratory relief is necessary to stop
enforcement of the unconstitutional statute and
without such relief enforcement will continue
unlawfully.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs request this Court enter
judgment:
1. Finding Defendant Department of State violated
Plaintiffs’ federally protected rights by depriving
Micheal Baca of his federal right to act as an
Elector and by threatening and intimidating
Plaintiffs Micheal Baca, Polly Baca and Robert
Nemanich;
2. Declaring C.R.S. § 1-4-304(5) unconstitutional; and
2. Awarding Plaintiffs nominal damages of $1 each for
the violation of their rights.
Respectfully submitted this 25th day of October
2017.

App. 221
/s/ Lawrence Lessig
Lawrence Lessig
1563 Massachusetts Ave.
Cambridge, MA 01238
617-496-8853
lessig@this.is
/s/ Jason Wesoky
Jason Wesoky
1331 17th St. Suite 800
Denver, CO 80202
303-623-9133
Jason.w@hamiltondefenders.org
Counsel for Plaintiffs

